<html>
<title> - EXPANSION OF AIRPORT CAPACITY IN THE CHICAGO, ILLINOIS AREA</title>
<body><pre>[Senate Hearing 107-1102]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1102


 
      EXPANSION OF AIRPORT CAPACITY IN THE CHICAGO, ILLINOIS AREA

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 21, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                    U.S. GOVERNMENT PRINTING OFFICE
89-638                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page


Hearing held on March 21, 2002...................................     1
Statement of Senator Fitzgerald..................................     3
Statement of Senator Hutchison...................................    64
Statement of Senator McCain......................................     2
Statement of Senator Rockefeller.................................     1

                               Witnesses

Bayh, Hon. Evan, U.S. Senator from Indiana.......................     7
Daley, Hon. Richard M., Mayor, City of Chicago, IL; accompanied 
  by 
  John Harris, First Deputy, Department of Aviation, City of 
  Chicago........................................................    25
    Prepared statement...........................................    27
Durbin, Hon. Richard J., U.S. Senator from Illinois..............    15
    Prepared statement...........................................    17
Geils, John C., Chairman, Suburban O'Hare Commission; accompanied 
  by Hon. Ronald Wietecha, Mayor, Park Ridge, Illinois...........    43
    Prepared statement...........................................    46
Grassley, Hon. Chuck, U.S. Senator from Iowa.....................     5
    Prepared statement...........................................     5
Hyde, Hon. Henry J., U.S. Representative from Illinois...........     6
Kirk, Hon. Mark Steven, U.S. Representative from Illinois........    13
    Prepared statement of Hon. Arlene J. Mulder, Mayor, Village 
      of Arlington Heights, Illinois; Chairperson, O'Hare Noise 
      Compatibility Commission...................................    14
Manzullo, Hon. Donald A., U.S. Representative from Illinois......    11
    Prepared statement...........................................    12
Ryan, Hon. George H., Governor, State of Illinois; accompanied by 
  Hon. Kirk Brown, Secretary of Transportation...................    18
    Prepared statement...........................................    21
Skinner, Samuel, Chief Executive Officer, U.S. Freightways; on 
  behalf of the Civic Committee, City of Chicago.................    40
    Prepared statement...........................................    42
Woodward, Woodie, Associate Administrator for Airports, Federal 
  Aviation Administration........................................    54
    Prepared statement...........................................    56
Visclosky, Hon. Peter J., U.S. Representative from Indiana.......     9
    Prepared statement...........................................     9

                                Appendix

Boyer, Phil, President, Aircraft Owners and Pilots Association, 
  prepared statement.............................................    79
Creighton, John W., Chief Executive Officer, United Airlines, 
  prepared 
  statement......................................................    71
Roper, Gerald J., President and CEO, Chicagoland Chamber of 
  Commerce, prepared statement...................................    71
Ruthenberg, R.E., B.S.E.E., Principal Staff Engineer, Motorola, 
  Inc., prepared statement.......................................    74
Saporito, Jack, President, US-Citizens Aviation Watch 
  Association, prepared statement................................    81
National Air Transportation Association, prepared statement......    78


      EXPANSION OF AIRPORT CAPACITY IN THE CHICAGO, ILLINOIS AREA

                              ----------                              


                        THURSDAY, MARCH 21, 2002

                               U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 

SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. We have a fairly hefty group of 
witnesses this morning, and we are going to start off having 
just two Members here now. We are going to start off with our 
statements, my statement and Senator McCain's statement, and 
then we are going to go to the Members of the Senate and the 
House in that order, and then we will proceed on to our several 
panels. So, I will start.
    Last June, Senator McCain and others went to Chicago, 
including myself, to talk about the airport expansion. It was 
already a critical issue. Delays at that time were front page 
news across the country. We knew we had to add 50 miles of 
runway nationwide if we were going to do any kind of delay 
reduction at all. This Committee has been working all year on 
proposals to streamline the airport construction process 
environmentally and otherwise, including a bill that Senator 
Hutchison and I were jointly pursuing. Unfortunately, the City 
of Chicago and the State of Illinois have been debating and 
fighting over this issue for more than 10 years, which has a 
bad effect on the Nation as well as on that area.
    And so, planes were sitting on the runway, people were 
waiting to take off, people were talking and arguing, and no 
progress was being made. As a result of this, Senator McCain 
and I went to Chicago and we both asked the State and the City 
to stop the infighting over airport expansion and to move on. 
We did a little bit more than that.
    We gave them to September 1st as a deadline, and more or 
less said that if it was not done by then, it would be done by 
us, but we were not going to stand by and watch the Nation's 
air system shut down by an argument.
    Well, there was a lot of good faith going on locally, so we 
agreed that negotiations and the planning would continue for a 
longer period of time.
    All of us are tremendously aware of Chicago's importance to 
the national air transportation system. It is both local and it 
is national. It affects my State as much almost as it does 
Chicago, to be blunt about it. We are at the end of the food 
chain, Chicago is at the beginning of the food chain, and it 
makes a very big difference as to whether or not planes come 
into places like West Virginia, Iowa and other places.
    So it is imperative that Chicago's expansion plans match 
that of the needs of the country as a whole, and we expressed 
those views out in Chicago last June. Now we have had a 
temporary reprieve from the worst of the delay problem, but 
that is not endemic to the system, that is primarily because of 
9/11 and it is only temporary. So the problems are real.
    Projections are that air travel will be around a billion 
passengers sometime around 2013. O'Hare is one of the largest 
hubs, and we cannot stand by without, at least in this 
Senator's judgment, without expanding. The urgency for action 
is everywhere. Too many people in small communities, as I 
indicated, are suffering and we are. We are. For those from 
Chicago who think this is a Chicago problem, it is enormously a 
nationwide problem, and I do not think anybody could dispute 
that.
    So, I want to give the Governor and the Mayor enormous 
credit, because they have really done the hard work on this.
    They are the ones who came through. They came up with an 
agreement, and we all owe them, I think, a lot of thanks. They 
will be testifying happily this morning. On December 5th, they 
reached what is known as a genuine compromise, one that does 
not make everybody entirely happy on either side, does not 
satisfy all needs, but it is an achievement that we must all 
recognize.
    Now they need Congress to do our part to facilitate this 
major project with legislation. Let me say to Senator Durbin 
and Congressman Lipinski, who is my House counterpart in terms 
of the Aviation Subcommittee, their efforts to make sure that 
this agreement goes forward are absolutely correct. I realize 
that my colleague and friend, and whom I am sure will show up, 
Senator Fitzgerald, does not necessarily agree with this 
approach, and I respect that, but we are committed to moving 
forward in this matter with deliberate speed.
    One thing that I learned is that even when the local powers 
agree on a new runway or a new airport, it can take a decade or 
more for anything to happen. That is just the way it works. 
Funding, environmental construction, all the rest of it, it 
just takes forever, should take shorter. We have legislation 
that we are working on for that too, but the clock is ticking, 
we have an agreement, it is time to act.
    Senator McCain.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman. I appreciate your 
holding this hearing, and your involvement in this important 
issue. I appreciate your leadership very much. I want to 
welcome the witnesses today, including Governor Ryan and Mayor 
Daley.
    As you mentioned, Mr. Chairman, we did have a hearing last 
June on the issue of Chicago O'Hare, and in early December the 
Governor of Illinois and the Mayor of Chicago reached agreement 
on expanding capacity of the Chicago region.
    A bill was introduced. I objected to the bill at that time 
because I thought it should go through the committee of 
jurisdiction, and I know my friend Senator Durbin understood 
that, and there have been some changes in the bill since last 
December.
    Mr. Chairman, I do not want to take long here, because we 
have, I think, eight Congressional witnesses who are 
notoriously brief in their statements, and we do want to hear 
from the Mayor and the Governor. But let me just say, it is not 
an accident that my friend from Iowa is here, my friend from 
Indiana is here, and others, because the issue of air 
transportation through Chicago is not just a Chicago issue, it 
is a national issue.
    When Chicago O'Hare shuts down, Phoenix shuts down, Des 
Moines shuts down, Gary, Indiana shuts down, Indianapolis shuts 
down. So this is an important and vital issue to the people of 
Chicago and Illinois, but it is also a very very important 
issue to people who travel throughout the country and are 
required to go through O'Hare Airport and in the future may go 
through O'Hare, Peotone, or wherever these decisions are made.
    So, I want to emphasize that I believe Members of this 
Committee understand the importance of this issue, and we want 
to help in every way that we can to get it resolved as quickly 
as possible so that we can move forward to the benefit not just 
of the people of Illinois, but the people of this Nation in 
recognition of the vital importance of the air transportation 
system in Chicago.
    I thank you, Mr. Chairman.
    Senator Rockefeller. Thank you, Senator McCain.
    Senator Fitzgerald.

            STATEMENT OF HON. PETER G. FITZGERALD, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Fitzgerald. Thank you, Mr. Chairman. I also thank 
the Ranking Member, Senator McCain. I know both of you have 
been very active in aviation issues and you have been very 
concerned, rightly so, with the problems we have at Chicago's 
O'Hare Airport. I appreciate all those who are testifying here 
too.
    Let me just say at the outset that I absolutely agree that 
O'Hare is the crown jewel of Chicago area's economy. It is a 
wonderful resource. It also has a clear effect, an important 
effect on the national aviation system. I do agree that we need 
to address the issue of delays at O'Hare. I also believe that 
the runways and the terminals need to be modernized. The 
biggest jets cannot taxi around at O'Hare because the taxiways 
are too narrow. The new Airbus that will handle 600 people will 
not be able to land at O'Hare. We need to address that issue. 
We have some outdated terminals. Terminals 2 and 3 are in 
deplorable shape and they need to be modernized.
    But what I question here is whether Congress should be 
legislating in this area, in effect substituting a political 
judgment for a technical one. Congress has enacted detailed 
statutes and has created an agency, the FAA, which has the 
expertise and the experience as well as the resources to make 
complex aviation, technical aviation decisions and 
determinations. The FAA also has well-established procedures 
and standards for reviewing and approval of airport development 
projects.
    In my business, Congress, and we in the Senate and those of 
you in the House, we have no business making technical aviation 
decisions. We do not have expertise, we do not have experience, 
we do not have the qualifications and we do not have the 
resources to make those decisions.
    Whether the O'Hare redevelopment plan proposed by Mayor 
Daley is safe, efficient, environmentally sound and cost 
effective should be determined by the experts at the FAA, not 
by us. We do not have that expertise.
    This proposal is probably the most complicated aviation 
development issue our country has ever faced, or the FAA has 
ever faced in its over 50-year history. It deserves more than a 
perfunctory review. Under ordinary circumstances, the FAA would 
not make a decision on what was best for Chicago on a plan of 
this magnitude and significance without exhaustive study, 
debate and analysis. The FAA would develop a factual record 
that would take up that entire witness table and probably be 
filled halfway to the ceiling, before they made a decision that 
we are being called upon to make today.
    And what do we have here? What is our factual record? This 
little 11-page glossy pamphlet that somebody with a PC and an 
HP Bubble Jet printer put together, this is our factual record. 
And we are being called upon here to make the most complicated 
technical aviation decision ever in the history of the country, 
and this is our factual record. We do not have any details 
disclosed. The need has not been documented. The environmental 
impact has not been determined. Alternatives and cost benefits 
analysis have not been done. It has not been evaluated.
    In my judgment, with all due respect to my colleague from 
Illinois, I believe we would be irresponsible to circumvent the 
experts at the FAA. Now, I have reviewed Senator Durbin's new 
bill with very great care. I spent several hours last night, 
and I know that he made changes in good faith, and I am sure, 
knowing Senator Durbin, that he was very well-intentioned.
    But, in my opinion, he made the bill worse, not better. He 
still puts a straightjacket on the FAA, puts a gun to their 
head, and says they must approve O'Hare's redevelopment plan. 
And he still exempts in a roundabout way O'Hare from the Clean 
Air Act. But instead of just putting a gun to the FAA's head 
for one airport and exempting one airport from the Clean Air 
Act, the bill now does it for two, making it twice as bad.
    Now it will be disputed that this bill puts a gun to the 
head of the FAA, but let me tell you how they do it, and I 
guess this is what I am troubled by. I would not mind if the 
Mayor and the Governor came to us and said ``we want to pass a 
bill that strips a future governor of the authority from 
changing their mind.'' That would be great. They could just 
introduce such a bill. But this bill does far more than that, 
and it is full of deceit, because instead of saying that 
directly, it does it indirectly by putting binding findings in 
Section 2 of the bill that stack the deck, that rig the game, 
that make all the calls for the referee before the game even 
begins, in a very roundabout way.
    And I think if they want to do that, they ought to be up 
front about what they are doing so that you do not need to have 
aviation attorneys to explain it to everyone. And I think it is 
very misleading to the public.
    So with that, I know my time is up. I am sure we will have 
more time. I do appreciate Senator Rockefeller's interest in 
the area, and thank you all for coming here today.
    Senator Rockefeller. Thank you.
    Senator Ensign.
    Senator Ensign. No statement.
    Senator Rockefeller. In terms of the Members, we are going 
to start with Senator Grassley, and I have a list here. For 
whatever reason, we are going to start with Senators and 
Members of the House, will follow that, and I hope they will 
not hate us forever. You will be, unfortunately, limited to 3 
minutes, which is a discipline that we all need, and then I 
would hope that Members of the Committee would, if they have 
questions, submit those questions in writing, because we have 
panels, we have a vote at 9:55, we have a lot of work to do 
this morning.
    So Senator Grassley, we welcome you.

               STATEMENT OF HON. CHUCK GRASSLEY, 
                     U.S. SENATOR FROM IOWA

    Senator Grassley. OK. What I will do then, Mr. Chairman is 
I will put my statement in the record. And I would just simply 
say that the leadership of Senator Durbin on this issue has 
been very effective, particularly in the rewrite of this 
legislation. I thank Senator Durbin for his leadership.
    I also want to make very clear that when there are problems 
at O'Hare, they affect the entire Nation, and the best way I 
say that in my remarks is to simply say that when O'Hare 
sneezes, the rest of the country gets flu. You will see that in 
the large number of cancellations, more at O'Hare last year 
than at any other airport. And so getting to the bottom of 
this, having this legislation being very direct in solving 
politics that create economic problems, I think is the thrust 
of the legislation, it ought to be the thrust of the 
legislation, and we ought to move forward. Thank you.
    [The prepared statement of Senator Grassley follows:]

              Prepared Statement of Hon. Chuck Grassley, 
                         U.S. Senator from Iowa

    Mr. Chairman and Members of the Senate Commerce Committee, thank 
you for the opportunity to speak today about the important National 
Aviation Capacity Expansion Act of 2002.
    O'Hare International Airport is a key national and international 
hub. Millions of travelers in Iowa and across the country depend on the 
airport for business and family travel. In 2001, it was the world's 
busiest airport. It was also one of the worst commercial airports for 
delays, and it was the worst airport in the Nation in terms of 
cancellations. These delays and cancellations impact the whole Nation. 
When O'Hare sneezes, the rest of the country gets the flu.
    Modernization of O'Hare is important to the economy of Iowa, as 
well as the Nation. The economic vitality of Iowa's communities is 
directly linked to their access to proper commercial air service. The 
success of commercial air service throughout Iowa depends in a large 
part on the efficient operations at O'Hare. I'm committed to enhancing 
air service to Iowa. That is why I am committed to the modernization of 
O'Hare.
    This legislation will help prevent future congestion problems and 
the delays that have for too long plagued air travelers. It will make 
air travel swifter, more efficient, and less frustrating. It will be 
easier and more pleasant for air travelers. More on-time flights will 
be a great boon for the business traveler for whom time is money.
    Modernization of O'Hare, based on the agreement of the Governor of 
Illinois and the Mayor of Chicago, will make O'Hare a safer airport. 
All of us are more focused on air safety after September 11. Air travel 
security means more than screening passengers and baggage. It means 
safe take-offs and landings. The current runway configuration at O'Hare 
is not as safe as it could be. The new runway configuration will be 
much safer by providing for more parallel runways, eliminating 
dangerous cross-runways. It will also allow for the use of more modern 
electronic instrumentation by all concerned.
    I commend the Governor and the Mayor for coming together and 
working out an acceptable plan. I also commend Senator Durbin who has 
worked diligently on resolving many of the outstanding concerns 
regarding this issue. When I began pressing for a solution to the 
O'Hare problem last spring, I knew it would not be an easy process for 
any of us. But it has been a very successful process. It has produced a 
compromise of which we are all very proud. It is important to note that 
the solution has overwhelming support, specifically from the airlines, 
airline pilots, and air traffic controllers.
    Congress must now do its part to improve air transportation in the 
United States and insure the success of this hard work. That means 
immediate passage of the Durbin-Grassley legislation. I look forward to 
working with my colleagues to make this happen.

    Senator Rockefeller. Thank you.
    I have been reminded that there is a rather senior Member 
of Congress here, and Congressman Hyde, I am sure that Senator 
Bayh will survive the experience of yielding to you in your 
seniority, and we look forward to hearing from you.

               STATEMENT OF HON. HENRY J. HYDE, 
               U.S. REPRESENTATIVE FROM ILLINOIS

    Mr. Hyde. Senator, we do not use the term ``senior 
citizen,'' we say ``chronologically gifted.''
    [Laughter.]
    Well, thank you, Senator. I am very grateful, and I will 
try to abbreviate my remarks within the 3 minutes, and if I 
transgress, just let me know. I am sure you will.
    First, I would like permission to introduce into the record 
an opinion by Professor Ronald Rotunda of the University of 
Illinois, on the unconstitutionality of the legislation; a 
letter from some clergymen about two cemeteries that will be 
directly affected by this; and a letter from the president of 
the Illinois Legislative Senate opposing this.
    If I may have permission to introduce those in the record.
    Senator Rockefeller. Of course.\*\
---------------------------------------------------------------------------
    \*\ The information referred to was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Mr. Hyde. Thank you. We need increased air capacity. By the 
way, I represent O'Hare Field. It is in my district. It is in 
Senator Durbin's district because he has the whole State, but 
in a concentrated way it is in my district, and so perhaps I 
should have a louder voice than some on this issue.
    We need enhanced aviation capacity, no question about it. 
The question is where. And it has been my contention that a new 
airport, Peotone or some other place--it does not have to be 
Peotone--could handle this environmentally, could handle it 
without disrupting other homes and businesses, and could have 
the possibility of expansion in future years.
    From a safety point of view, O'Hare is already the busiest 
airport in the country, if not the world, and to double its 
capacity does not make sense. It makes economic sense, I 
suppose, to some people. It certainly helps United and 
American, who have the dominant position there, and who charge 
through the nose. If you want to save money, do not fly out of 
O'Hare. You had better go to Midway or up to Mitchell Field or 
somewhere they have a reasonable price. But they have a lock on 
the tickets at O'Hare.
    Putting 1.6 million planes a year into O'Hare, that is 
already servicing 900,000 flights, does not really make sense. 
You risk a tremendous accident. O'Hare is completely land-
locked by developed urban and suburban regions, and you cannot 
physically expand the airport, which means the additional 2 
runways would have to be squeezed into an already overburdened 
area.
    Think about it. By the time the runway project is completed 
in 20 years, O'Hare would again need more space. Why not think 
ahead and build a third airport that could handle approximately 
1.6 million flight operations annually at a lower cost? I have 
always felt the City of Chicago, which objects to having this 
complex outside its boundaries, and I can understand why, 
because it was for a third airport when it was within the City 
limits. I think the State legislature should set up a 
commission to run the airports in Illinois, and give the City 
of Chicago a strong voice on that commission so that the City 
is--they are not losing by Peotone or some other place being 
established.
    The cost, they tell us is $6 billion. I am suggesting that 
it is closer to $10 billion. I am suggesting a new airport 
could be built in one-third the time that it is going to take 
to reconfigure the runways that already exist at O'Hare plus 
create two more. So on the questions of time, questions of 
cost, questions of convenience, it just does not make any 
sense.
    I see my time is up and I will not invite the gong, but I 
just suggest that this is a very serious proposition, there is 
another way to do it, and I hope you will consider that. I 
thank you, and I thank Senator Fitzgerald for his impassioned 
plea on the side of the angels.
    Senator Rockefeller. Thank you, Congressman. We are very 
honored that you are here, sir.
    Senator Bayh.

                 STATEMENT OF HON. EVAN BAYH, 
                   U.S. SENATOR FROM INDIANA

    Senator Bayh. Thank you, Mr. Chairman. I too have a 
statement I would ask to be----
    Senator Rockefeller. All statements will be included.\*\
---------------------------------------------------------------------------
    \*\ The information referred to was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Senator Bayh. Thank you. It is a privilege for me to be 
here today before this Committee and with the other 
distinguished Members who are with us.
    I have two essential points, Mr. Chairman. The first is to 
agree with the comments that you made in your opening remarks 
about the importance of getting on with this work. I have a 
tremendous sense of deja vu here today. As Mayor Daley will 
testify, we have been struggling with this issue for many 
years. During my first 2 years, not as Senator, but Governor of 
our State, we actually cut the Gordian Knot, reached an 
agreement to deal with this dilemma. But for reasons beyond his 
control, my control, or the control of the then-Governor of 
Illinois, it came to naught. If we had gone forward with that 
proposal, in all likelihood we would be well on our way to 
resolving this problem today.
    We need to get on with this problem and come up with a 
regional solution that will help alleviate congestion in the 
greater Chicago area. It is a tremendous economic challenge and 
transportation challenge for our country. Billions of dollars 
of investment, Mr. Chairman, will not take place if this issue 
is not addressed. Thousands of jobs will not be created if we 
do not deal with the airport incapacity that currently exists. 
We need to get on with expanding the airport capacity in this 
essential region of our country if we are going to see the kind 
of economic growth, not just for our region, but for the 
country as a whole that we long to see. That is my first point, 
it has been too long, and we must get on with this important 
work.
    Second, I am here to advocate for Gary/Chicago Regional 
Airport. Gary can play an important role, both in the 
intermediate term and in the long term in helping to address 
this challenge. Gary Regional Airport is not a corn field. It 
is a fully functioning airport. It is capable of handling up to 
150,000 flights a year today, not 7 years, not 8 years, not 10 
years from now, but today. So there is an important role that 
Gary can play in alleviating the congestion that currently 
exists, and allowing some of the economic growth to take place, 
and I urge the Committee to give Gary full and fair 
consideration in that regard.
    In the longer term, Gary is located merely a half-an-hour 
from downtown Chicago. The convenience is there, the proximity 
is there, it can serve in the long term much as Newark 
currently serves the greater New York metropolitan area to help 
address their air transportation needs. So those of us from 
Indiana request that Gary receive full and fair consideration, 
that the FAA give priority treatment to implement the master 
plan for Gary, as they have been able to do for Peotone, and 
that this issue be resolved in the best interests of all of the 
airline traveling public and the economic interests of the 
region.
    So Mr. Chairman, I appreciate the ability to be here today. 
Again, I commend you for addressing this critical issue. We 
must move forward after all of these years and resolve it, and 
we feel very strongly that Gary has a positive and constructive 
role to play. I appreciate your forbearance and this is a first 
for me, I made it in within 3 minutes.
    Senator Rockefeller. Less in fact. Senator, thank you very 
very much.
    Congressman Visclosky, you and I have cooperated on a 
number of different issues, and we are delighted to have you 
here this morning, sir.

             STATEMENT OF HON. PETER J. VISCLOSKY, 
                U.S. REPRESENTATIVE FROM INDIANA

    Mr. Visclosky. Mr. Chairman, thank you very much for the 
opportunity to attend. I simply for the record would state that 
in its current form, I am opposed to Senate Bill S-1786 
introduced by my good friend Senator Durbin.
    Senator Fitzgerald touched upon a number of national issues 
of concern relative to this legislation. I would want to talk 
about a parochial interest I have, and join with Senator Bayh 
in referencing the airport at Gary, Indiana. I would agree with 
everyone's contention that this is a national air capacity 
problem, it does need to be solved, and as I think everyone 
here understands, years have been covered as far as 
negotiations and trying to seek a solution.
    At one time, there was a tri-state commission between 
Wisconsin, Illinois and Indiana to try to resolve differences.
    There has been a bi-state commission study between the two 
States of Illinois and Indiana, and we now have a unilateral 
decision made by public officials within the State of Illinois.
    I too would commend the Mayor of the City of Chicago, as 
well as the Governor, for trying to come to grips with this, 
but I think it is inappropriate to impose their will through 
this legislation, short of advancing through the administrative 
process. The fact is, Gary, Indiana has gone through the 
administrative processes. On November 27th of last year the FAA 
approved its 20-year master plan.
    Short of that, if there is a problem that officials have 
with the process, any doubt as to whether or not if can 
effectively resolve differences, I would stress to the chair, 
Mr. McCain and the Members of the Committee, that a regional 
approach needs to be taken, and from my perspective it is not 
taken in this legislation. You have a 17-page bill before you. 
The Gary Airport is referenced once; it is in Section 2 in the 
findings and it takes up seven pages.
    Senator Durbin did add language relative to the bill 
introduced in the House, but essentially the added language 
says by fully utilizing and enhancing these existing and 
immediately available facilities, Gary, Chicago and Greater 
Rockford Airports, can help provide relief to congestion that 
may occur, permissive language, during the modernization and 
reconfiguration process at O'Hare.
    My question, given that language, is then what happens? As 
Senator Bayh pointed out, we have an operational airport at 
Gary. We do have commercial service at Gary. Gary should not be 
an afterthought. They should have a regional perspective and a 
regional solution to this very real national problem that does 
need to be resolved. So I would hope as the Committee considers 
this legislation, it consider the role that Gary plays, and 
that there be a true regional solution to this problem that 
does effectively and meaningfully include the Gary Airport.
    I thank you very much for the permission to testify today.
    [The prepared statement of Rep. Visclosky follows:]

            Prepared Statement of Hon. Peter J. Visclosky, 
                    U.S. Representative from Indiana

    Mr. Chairman, Mr. Rockefeller, thank you for allowing me the 
opportunity to submit testimony regarding S. 1786, the National 
Aviation Capacity Expansion Act, and to discuss the important role of 
the Gary/Chicago Airport (GCA) as a regional partner in resolving the 
Chicago Metropolitan Area's capacity problem. I am opposed to S. 1786 
in its current form.
    Over the last decade-and-a-half, the future lack of air capacity in 
the Chicago Metropolitan Area, and its negative impact on our Nation's 
air transportation system has been recognized. In the past, the States 
of Wisconsin, Indiana, and Illinois attempted to achieve a consensus 
solution. Subsequently, Indiana and Illinois entered into a bi-state 
initiative. The legislation before us today is a unilateral response to 
this problem, and therefore, I find it wanting.
    I am a supporter of increased airport capacity in the Chicago 
Metropolitan Area, and I commend Senator Durbin for seeking solutions 
that will increase our regions capacity. Increasing air capacity in the 
Chicago Metropolitan Area is a national concern. Air congestion is a 
regional problem, not just a Chicago problem, or an Illinois problem. 
It demands a regional answer to address this national concern. As a 
resident of Northwest Indiana, and the Representative of Indiana's 
First Congressional District, I feel that my constituents and I have a 
vested interest in the air traffic congestion challenges facing the 
region.
    The Chicago Metropolitan Area is facing a severe air traffic 
capacity shortage. The growing demand that has been placed on Chicago's 
O'Hare International and Midway Airports has stretched the resources at 
those facilities to their limits. O'Hare has been able to grow by 1 
percent or less for the past 3 years, and Midway, absorbing the excess, 
is estimated to have an additional one million passengers per year for 
the next 2 years. As capacity has become maximized at those facilities, 
GCA, located 25 miles from downtown Chicago, in Gary, Indiana, has 
played an increasingly valuable role in delivering passenger and cargo 
service to the area. With highway connections that include I-90, I-80/
94, I-65, U.S. 12, and U.S. 20, GCA offers convenient access to the 
entire Chicago Metropolitan Area.
    Let me be clear: there already is a third commercial airport now 
servicing the Chicago Metropolitan Area. In 1995, Chicago Mayor Richard 
M. Daley joined Gary Mayor Thomas Barnes to form the Chicago-Gary 
Regional Airport Authority Compact. Consequently, GCA became the 
reliever airport for the congestion in the Chicago Metropolitan Area. 
Subsequently, commercial service was introduced in Gary in 1999, and in 
2000, GCA was designated as a primary airport in the State of Indiana. 
Last year, Congress allocated $1,000,000 for improvements at GCA. Those 
funds have allowed the airport to make significant enhancements in the 
service it provides by improving security and expanding the general use 
apron, providing approximately 11,000 square yards of pavement, enough 
frontage for two medium sized hangars.
    This piece of legislation suggests that part of the solution to the 
problem of congestion in the Chicago Metropolitan Area is to build 
another airport, roughly 40 miles away from the Loop. I believe that 
building another airport at this time would mean unnecessarily spending 
millions of taxpayer dollars and destroying irreplaceable acres of 
green space. Additionally, this crisis cannot wait the length of time 
that it necessitates to build another airport. The region's current 
capacity shortage can not wait 20 years for a solution.
    S. 1786 would create unfair funding preferences by moving the 
expansion of O'Hare and the construction of Peotone to the top of the 
Federal Aviation Administration's (FAA) funding priority list. Airport 
Improvement Program (AIP) funding is very limited, and under current 
law, the FAA must use its judgment to determine which projects will 
have the greatest benefit to the national transportation system. 
Although the O'Hare project may prove the most beneficial for the 
national transportation system, this bill would not allow the FAA to 
come to that decision, rather, it would dictate that decision to the 
FAA. As a result all other airport projects in the country would suffer 
by having their funding either severely limited or reduced.
    Under current law, the people of Illinois have the option of 
deciding which emissions will be allowed, in order to comply with the 
Clean Air Act. S. 1786 would eliminate this option. The Environmental 
Protection Agency would be required to develop a plan that will ensure 
that the added emissions, which will result from construction and 
operation of the O'Hare project, will be allowed, and that necessary 
offsets will be created by limiting emissions from other transportation 
and business activities.
    GCA, located only 30 minutes from downtown Chicago, is well 
positioned to provide immediate relief from many of the congestion 
issues currently facing O'Hare and Midway Airports. GCA can already 
land any plane Midway is now handling. At 7,000 feet, GCA's runway is 
already 450 feet longer than Midway's longest runway. GCA currently 
offers daily passenger service, and has the ability to triple its 
number of flights without additional capital expenditures. The airport 
is severely underutilized, and without further construction, or 
additional funding, GCA could accommodate as many as 150,000 flights 
per year.
    On November 27, 2001, the Federal Aviation Administration approved 
GCA's 20-year Master Plan. The Master Plan outlines the airport's 
existing facilities, ability to handle air traffic, growth and economic 
forecasts, and identifies the short and long-term infrastructure needs 
that will facilitate continued growth and expansion. GCA has 8,200 
acres of an Airport Development Zone, offering tax and investment 
benefits for businesses, and over 13 acres available for developing air 
cargo operations. Additionally, GCA is designated as a foreign trade 
zone. As capacity has become maximized at O'Hare and Midway, GCA has 
played an increasingly valuable role in delivering passenger and cargo 
service to the area.
    In a June 12, 2001 meeting with the Secretary of Transportation 
Norman Mineta, I expressed the importance of the role GCA already plays 
in reducing congestion in the Chicago Metropolitan Area. As you 
continue your efforts to address Chicago's capacity issues, we urge you 
not to ignore GCA as a critical element in resolving many of these 
challenges.
    I thank you for your time and your consideration in this very 
important matter. I look forward to continuing to work with you to find 
a practical solution to this very serious problem.

    Senator Rockefeller. Thank you, sir.
    Congressman Manzullo.

             STATEMENT OF HON. DONALD A. MANZULLO, 
               U.S. REPRESENTATIVE FROM ILLINOIS

    Mr. Manzullo. Thank you very much for the opportunity to 
testify today. I had the opportunity, I believe it was last 
summer when you came to Chicago, to testify about the great 
benefits of the Greater Rockford Airport. Our airport is about 
an hour from the O'Hare Airport. In the past 6 years, $150 
million worth of improvements have gone into Rockford. It has a 
10,000-foot runway; 8,200-foot runway; a Category III ILS, 
state-of-the-art Glycol Detention and Treatment facility, plus 
a 24-hour FAA air traffic control tower. There is unlimited air 
space. The airport can handle up to a million passengers 
annually, and with little investment it can go up to 15 million 
passengers.
    I want to commend Senator Durbin and Congressman Lipinski 
for their leadership in crafting a very difficult bill. Unlike 
my colleague from Indiana, I am satisfied with the language 
that appears on page 4, paragraph 12 of the findings, that 
Congressionally recognizes the following facts: Number one, 
Rockford Airport is a primary airport; number two, it has the 
capability and the capacity to handle a tremendous amount of 
air traffic in and out of that area; and number three, it 
serves as a clarion to any future airlines that would be 
interested in coming to northern Illinois, that the airport is 
all set with an official sanction, as it were, by the U.S. 
Congress, and hopefully as would be signed by the President.
    But more importantly, with all deference to my colleague 
from the State of Illinois, I would rather have Congress 
resolve this than the FAA. I would rather have elected 
officials that are close to the people. I am a pilot. I 
understand a lot of the stuff that is going in this bill, and I 
would rather that the people that elect me, that I represent, 
have me as part of the solution, than people that can sit 
around for 10 years and not ever come up with a solution. That 
is why Senator Durbin acted properly and promptly by doing 
this. He knew it would take so long to have the FAA move on 
this thing that he sat down with the mayor of Chicago and sat 
down with our input and said: ``Look, we need a solution, let 
us get on board.''
    So this bill expands O'Hare. That will tremendously help 
economic growth in the whole northern part of the State, as far 
as I am concerned. The more planes that can come in, the more 
commerce that can come in, the better off it is for the people 
in Winnebago County who are now suffering close to 8 percent 
unemployment.
    As the tide rises, so do all the ships. And as O'Hare is 
improved, that places, as far as I am concerned, greater 
emphasis upon the Rockford Airport for some of the commuter 
airlines, the commuter jets, the 50- and 60-passenger jets that 
can have their own independence in the new era of air traffic.
    So, we are delighted with the bill, we think the bill makes 
sense. I would add this. We would love to have you come out to 
Rockford. That 10,000-foot runway will handle a 747; you can 
fly out there in probably about an hour-and-15-minutes. We 
would have you tour the facility. Senator Durbin and I would be 
there to personally greet you and give you a guided tour.
    Thank you for letting me testify, and I would like to have 
my complete statement made part of the record.
    [The prepared statement of Rep. Manzullo follows:]

            Prepared Statement of Hon. Donald A. Manzullo, 
                   U.S. Representative from Illinois

    Mr. Chairman. I want to thank you for the opportunity to testify 
before you today on the proposed O'Hare expansion bill. I commend this 
Committee for addressing this important issue. O'Hare airport has 
suffered some of the worst flight delays in the Nation over the last 
several years. This is a chronic problem that impairs the entire air 
transportation system in the United States because our Nation's two 
largest airlines have hub operations at O'Hare. The continuous delays 
slow U.S. commerce and shipping, as well as the traveling public.
    The congressional district I represent in northern Illinois 
includes our State's second largest city--Rockford. Rockford is home to 
the Greater Rockford Airport, which is about an hour's drive northwest 
of O'Hare Airport. Over the past 6 six years, the Greater Rockford 
Airport has undergone more than $150 million of infrastructure 
improvements. These improvements include a new 10,000-foot runway that 
can land any jet aircraft flying today, a Category III Instrument 
Landing System, a Glycol Detention and Treatment facility, and upgrades 
to the taxiway system to accommodate wide-body aircraft. The airport's 
other runway is 8.200 feet long. The airport also has an FAA 24 hour 
air traffic control tower.
    The Greater Rockford Airport is primarily a cargo airport and home 
to United Parcel Service's second largest hub. The airport also houses 
a modern passenger terminal that can immediately handle up to 1 million 
enplaned passengers annually. There is sufficient room for expansion 
that would accommodate up to 15 million passengers a year.
    While the proposed construction at O'Hare may go on for years, 
Rockford stands ready today to help relieve the tremendous congestion 
at O'Hare. The Greater Rockford Airport has unconstrained airspace and 
with modest investments can accommodate up to 3 million enplaned 
passengers annually.
    Some have said that the Greater Rockford Airport is too far from 
Chicago to offer serious relief to O'Hare. However, more than 400,000 
people ride the bus each year from Rockford to O'Hare. Another 800,000 
people drive out of Rockford's market service area each year to fly 
from O'Hare and other airports. More than 2.2 million people live and 
work within a 45-mile radius of Rockford.
    Many do not realize that more than half of the 34 million people 
who fly into O'Hare each year are connecting passengers. About 16 
million passengers originate their flights out of the Chicago region. 
When you consider transferring 3 million of those originating 
passengers to an airport such as Rockford, you are talking about 
relieving up to 20 percent of the congestion at O'Hare. Again, that is 
an immediate 20 percent reduction in congestion at O'Hare.
    The Greater Rockford Airport is ready to take on additional air 
passenger service today. In fact, the Rockford Airport is already used 
as a backup for the Chicago airports during bad weather.
    I call on this Committee, the Department of Transportation and the 
airlines to do the right thing for the traveling public and fully 
utilize existing airports that are capable of immediately reducing 
congestion and delays at our Nation's major airports. In the Chicago 
region, that airport is the Greater Rockford Airport.
    Thank you once again for this opportunity to testify. I look 
forward to working with you in the future on this important 
legislation, and I invite you, Chairman Hollings, Ranking Member McCain 
and all other Members of this Committee to Rockford to see our first-
class airport and what it can do to alleviate O'Hare's congestion.

    Senator Rockefeller. All statements will be, and I thank 
you.
    We have 10 minutes left before the vote.
    Congressman Kirk.

              STATEMENT OF HON. MARK STEVEN KIRK, 
               U.S. REPRESENTATIVE FROM ILLINOIS

    Mr. Kirk. Very quickly, thank you, and congratulations, 
Senator McCain, on a big win yesterday.
    Senator McCain. Thank you, Mark.
    Mr. Kirk. I sit on your sister Committee in the House, and 
have joined with Congressman Lipinski in moving the O'Hare 
bill. We have had hearings in the House and we are hard at work 
with your Democratic counterpart, Congressman Oberstar, to 
support the environment in this bill, as Senator Durbin has 
done.
    As a new Member of Congress, I represent probably more 
frequent flyers per capita than anyone else in the country. We 
know that at O'Hare you have probably a one-third chance of 
having your flight delayed when you visit that airport in the 
current configuration.
    I think the intersecting runways also represent a safety 
concern, and the new plan would address that with parallel 
runways. This plan would eliminate much of the noise over my 
communities in Arlington Heights, Palatine, Des Plaines and Mt. 
Prospect, and it would be a visible improvement in 
environmental quality of life for people that I represent in 
northern Illinois.
    But I want to pay particular attention to the work of a 
group in my district. About half of the impacted communities 
have formed a Noise Compatibility Commission. They have led the 
fight against the noisy Stage-two aircraft, and for the AFTPRO, 
accurate departure procedures to make sure the aircraft fly 
over unpopulated areas when they leave O'Hare.
    We have eliminated the Stage-two aircraft, especially 
welcomed the demise of the 727 hush-kitted aircraft, and that 
is a visible improvement for the people that I represent. We 
are aggressively moving forward on a Stage-four implementation 
for quiet engine technology.
    And if I could make one request, I would like the consent 
of the Committee to submit the statement of the Mayor of 
Arlington Heights, Arlene Mulder, who is also the Chair of the 
Noise Compatibility Commission, if there is any objection.
    Senator Rockefeller. Thank you very much, Congressman.
    Mr. Kirk. I just wanted to make sure that the statement of 
the Noise Compatibility Commission is part of your record.
    Senator Rockefeller. It is. Everything is part of the 
record.
    [The material referred to follows:]

    Prepared Statement of Hon. Arlene J. Mulder, Mayor, Village of 
 Arlington Heights, Illinois; Chairperson, O'Hare Noise Compatibility 
                               Commission

    The O'Hare Noise Compatibility Commission was formed in November 
1996 so that suburbs and school districts could more effectively work 
with the Chicago Department of Aviation, the FAA, the Air Traffic 
Controllers, the airlines, the pilots and many other companies and 
organizations in the aviation industry on meaningful noise reduction in 
communities around O'Hare International Airport. The O'Hare Noise 
Compatibility Commission, is the only group of its kind in the Chicago 
area addressing the aircraft noise issues associated with O'Hare.
    The O'Hare Noise Compatibility Commission's work is a matter of 
public record and open meetings. The 34 municipal and school district 
members of the Commission are represented without compensation by 
dedicated, locally-elected officials and appointed representatives. 
Most of the delegates who attend the regular monthly Commission 
meetings and frequent committee meetings are mayors and school 
superintendents.
    The Commission is committed to achieving a balance between the 
regional economic engine that is O'Hare and the quality of life issues 
that are vital to the residents living near the airport. The Commission 
achieves its goals through cooperative relationships and constructive 
dialogue rather than confrontation.
    The Commission works primarily through three standing committees.
    The Technical Committee examines and promotes the use of cutting 
edge technologies and procedures aimed at reducing aircraft noise at 
its sources.
    The School Sound Insulation Committee oversees the world's largest 
school sound insulation program. To date, more than $216 million have 
been spent on effectively sound insulating schools around O'Hare, with 
77 completed and 28 in design or construction.
    The Residential Sound Insulation Committee oversees the most 
aggressive home insulation program in the world. By the end of the 2002 
program year, the Committee will have directed the insulation of more 
than 4,700 homes at an average cost of $33,000 each, totaling over $157 
million.
    While the O'Hare Noise Compatibility Commission is vitally 
interested in the reconfiguration proposal for O'Hare and the National 
Aviation Capacity Expansion Act, the Commission chooses to neither 
officially endorse nor oppose the reconfiguration proposal.
    The Commission prefers to remain focused on aircraft noise issues 
related to the current configuration of O'Hare, analyze the potential 
aircraft noise issues related to the proposed reconfiguration and be 
engaged in discussions and programs aimed at mitigating any future 
aircraft noise impact on O'Hare communities.
    It is important for the Members of this Committee to understand 
that aircraft noise can and has been reduced at O'Hare. It has been an 
evolutionary process that continues to result in subtle day-to-day 
changes, but over time has produced significant, measurable outcomes.
    Since the O'Hare Noise Compatibility Commission's inception, the 
cumulative Day-Night Average Sound Level (DNL) for aircraft as recorded 
at all the permanent noise monitors decreased 3.8 decibels (dB) between 
1997 and 2001. Because noise is measured on a logarithmic scale, a 
nearly 4 dB reduction in noise is considered a significant decrease.
    The Commission desires to see this progress continue, regardless of 
the runway configuration at O'Hare.
    The Commission applauds Mayor Richard Daley and Governor Ryan for 
responding to the Commission's requests by including $450 million for 
sound insulation in the proposal for O'Hare. The Commission encourages 
this continued strong financial commitment to O'Hare residential and 
school sound insulation programs. However, the Commission does not want 
this pledge viewed as a cap on sound insulation funding. It is too 
early in the development of the O'Hare proposal to determine the exact 
impact of aircraft noise from a reconfigured O'Hare runway system, and 
it is too early to assess the exact cost of mitigation efforts.
    In addition, the Commission encourages a strong commitment by 
Congress to continued aircraft noise mitigation through increased, 
funding for NASA Quiet Aircraft Technology (QAT) Programs and funding 
for development and implementation of advanced flight management system 
technology, including global positioning system software in all 
commercial aircraft.
    The Commission also urges the federal government to take a strong 
stand on the new international Stage-4 aircraft noise standard by 
demanding a 14 dB reduction instead of the proposed 10 dB decrease. As 
noted earlier, a 4 dB reduction is a significant difference when 
measuring noise.
    These and other steps must be taken to safeguard the quality of 
life for residents living around O'Hare and the Nation's other 
airports. As the process for considering the reconfiguration of O'Hare 
moves forward, the O'Hare Noise Compatibility Commission will continue 
its role in noise mitigation and will remain focused on enhancing the 
quality of life in communities around O'Hare.
    Through its Technical Committee, the Commission will aggressively 
seek more data and answers with the goal of ensuring that aircraft 
noise issues are addressed comprehensively.
    While safety must be the top priority when considering airport 
design, the O'Hare Noise Compatibility Commission urges all decision 
makers in the process to consider quality of life issues at the same 
priority level as airport efficiency.
    In addition, the Commission will continue to address the aircraft 
noise issues that exist today around O'Hare and it urges the Members of 
this Committee to remain concerned with everyone who must live and 
learn in homes and schools around America's airports today and well 
into the future.

    Mr. Kirk. That is great. And I would urge that the 
Committee also follow the direction of our House committee, to 
make the life around O'Hare compatible, but also any other 
aircraft and airport situation. The House will be moving to 
boost funding for NASA's quiet engine technology program, and I 
would hope that this Committee would take that on as well, so 
that when we conference this bill, we can make sure that we 
give hope to communities around the country that the Stage-
four, and hopefully someday, a Stage-five aircraft can be 
designed and built.
    With that, I want to express my appreciation to you, to 
Senator Durbin, Congressman Lipinski. This legislation enjoys 
bipartisan support, and I hope it can happen, and I applaud the 
leadership of our Governor and Mayor Daley.
    Senator Rockefeller. Mr. Congressman, thank you. The 
statement was excellent, but it did however shut down Senator 
Durbin for a few moments while we go vote, it that is all right 
with Senator Durbin.
    Senator Durbin. That is fine.
    Senator Rockefeller. So, we will be in recess, vote, and we 
will be right back.
    [Whereupon, the hearing was in recess.]
    Senator Rockefeller. Thank you for your patience.
    We call upon Senator Durbin for your statement.

             STATEMENT OF HON. RICHARD J. DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Thank you very much, Mr. Chairman.
    First let me thank the Committee and particularly you, 
Senator Rockefeller, Senator McCain, and my colleague Senator 
Fitzgerald. Last June, you came to Chicago, you understood the 
challenge that we faced with one of the busiest and most 
congested airports in the Nation, that was having a negative 
impact on aviation nationwide. And Senator McCain and Senator 
Rockefeller explicitly issued a challenge to the State and 
local officials in Illinois. I reread your words.
    And you said to us, ``get your act together, reach an 
agreement, or we are going to do it for you; we have reached 
the limit of our patience.'' And I think that that was a 
challenge that was not only heard and understood and 
appreciated, but it was responded to in an historic fashion. 
Sitting behind me in this room today are two individuals who 
have gone so far in reaching this historic agreement.
    The Governor of our State, Governor George Ryan, whom I 
salute for his really unheralded efforts in many regards to 
keep this on track and moving forward. And the Mayor of the 
City of Chicago, who understands better than anyone else not 
only the importance of O'Hare to the Nation, but to the local 
economy. These two men broke through 25 years of inertia, and 
showed the political courage to put this agreement on the 
table.
    Now frankly, I think it is an excellent agreement. It not 
only modernizes O'Hare and makes it safer, there is a 
commitment to keep Meigs Field open, which is important for 
commuter traffic, and also a commitment for a south suburban 
airport. Those three things are integral for the aviation 
future of our part of the country.
    So the obvious question that has been asked by my colleague 
and others, well, if you reached the agreement, why are you 
here? Why do you need us? At one point in the testimony here, I 
think the Federal Aviation Administration is going to say, you 
know, we could do this directly with the State and with the 
City. But the fact of the matter is, we understand that because 
of our laws in Illinois, the fate of this project hinges on 
every election cycle. A new mayor, new governor, new people in 
control could take an agreement 5 or 10 years in the works with 
Federal commitments, and stop it cold in its tracks.
    The reason we are here today is to lock in place an 
agreement reached by State and local officials, an agreement 
you challenged us to come forward with, and we have. The 
revision which I have shared with you over the last day or two 
has tried to address every responsible good faith criticism of 
the original bill.
    And let me say that I must take really strong exception to 
the remarks of my colleague earlier, who suggested that we are 
circumventing the Federal Aviation Administration with this 
legislation. Section 3 of this agreement explicitly says, the 
Federal Aviation Administration will have the very last word on 
all questions of runway design, environmental compliance, and 
safety. There is absolutely no pre-emption whatsoever. So the 
fact that we are not before you with a table full of documents 
merely reflects that fact that any new airport or airport 
expansion is going go take years of preparation and 
engineering, and efforts to find this compliance.
    I see that my time is running out, but I want to say this 
in conclusion. O'Hare is the aviation bridge for America. When 
that bridge is clogged, congested or closed down, aviation 
backs up all across the United States. We have a responsibility 
in Congress to keep that bridge open, to make it lighter and 
stronger for the 21st Century. That is essential for the 
economy of this Nation and it is critical for the economy of 
Illinois. Make no mistake. Walking away from O'Hare 
modernization is walking away from good paying jobs, strong 
businesses, and economic growth that our State needs. I think 
this historic agreement, bipartisan agreement, deserves the 
ratification of Congress so that we can move forward.
    I thank the Committee for all of their fine work in giving 
us this hearing today. Thank you, Mr. Chairman.
    [The prepared statement of Senator Durbin follows:]

             Prepared Statement of Hon. Richard J. Durbin, 
                       U.S. Senator from Illinois

    Chairmen Hollings and Rockefeller, Senator McCain, thank you for 
the opportunity to share my views with you today.
    I commend the Committee for taking the time to review the historic 
aviation agreement reached by your two primary witnesses--Illinois 
Governor George H. Ryan and Chicago Mayor Richard M. Daley. Governor 
Ryan and Mayor Daley put partisanship and regional differences aside to 
reach an agreement on Chicago-area aviation capacity that had eluded 
other leaders for more than two decades. They deserve great credit for 
being the architects of a plan that will move the region's aviation 
system fully into the 21st Century.
    I have introduced legislation that would codify this historic 
agreement. It is called the National Aviation Capacity Expansion Act of 
2002, S. 2039. It is a revision of legislation introduced late last 
year with Congressman Bill Lipinski that had gained bipartisan support 
from 24 Senators and nearly 100 House Members. And groups, ranging from 
the AFL-CIO to the U.S. Chamber to the Air Traffic Controllers to the 
pilots to general aviation have enthusiastically endorsed this 
important legislation.
    But, this hearing is about more than cosponsors and endorsements, 
it's about the very future of the Chicagoland area and its role in our 
Nation's aviation system. Last year, O'Hare International Airport 
regained its distinction as the ``world's busiest,'' but moved up the 
most congested/most delayed list--a dubious honor.
    According to the FAA, O'Hare is the third most delayed airport in 
the U.S., behind New York LaGuardia and Newark. O'Hare delays ripple 
through the national aviation system causing downstream flights to also 
experience delays. When O'Hare sneezes, the entire U.S. aviation system 
catches a cold.
    In good weather, O'Hare's runway capacity is 200-202 operations per 
hour. In reduced weather, 157-160 per hour. Current airport operations 
are very close to these numbers and, in fact, exceed the benchmarks 
approximately 3.5 hours/day in good weather and by as much as 8 hours 
in reduced conditions. The FAA Benchmark Report contends that the only 
real way to significantly increase capacity is by adding runways. The 
State-City agreement and the implementing legislation proposes parallel 
O'Hare runway configurations that would reduce bad-weather delays by 95 
percent. Overall, the runway configuration would reduce 79 percent of 
the delays that have plagued O'Hare.
    For the first time in 25 years, we have a chance to build capacity 
in the Chicago region and help put an end to frustrating delays and 
crippling congestion that have reverberated through our national 
aviation system.
    Quite simply, this legislation would modernize O'Hare; move forward 
with a south suburban airport near Peotone, Illinois; preserve historic 
Meigs Field; and maintain the quality of life around these airports.
    O'Hare is one of the largest employers in the Chicago region, with 
more than 50,000 direct employees and 365,000 O'Hare-generated jobs. 
The Airport generates more than $37 billion in annual economic impact, 
including about $10 billion in annual payroll. And the Airport, 
commercial and public infrastructure around O'Hare--including hotels, 
highways, and transit access--has an estimated value of $50 billion. 
This is an investment we cannot and must not abandon.
    The agreement would increase O'Hare-generated employment by 195,000 
jobs, grow annual economic benefits by an estimated $16-$20 billion, 
and save passengers $380 million annually through reduced delays. 
Failure to grow O'Hare will deprive Chicago's economy of $8-$10 billion 
annually in economic output by 2015.
    The proposed south suburban airport near Peotone is the largest 
single economic development and jobs initiative in that region's 
history. The proposed airport could generate as many as 236,000 jobs 
for the area and $10 billion in new economic activity for the State. 
Common sense dictates that we'll need the capacity that this airport 
could provide in the near future.
    We have revised this legislation to address concerns raised by our 
Senate and House colleagues as well as by other affected groups. Let me 
simply say that modernizing O'Hare and building a south suburban 
airport will go through the same safety, environmental, and funding 
review that any other airport project in this country would endure. 
Safety is not debatable. The FAA is, and always will be, the final 
arbiter. The FAA will review and must ultimately sign off on the O'Hare 
reconfiguration plan. Environmental laws, including the National 
Environmental Policy Act and the Clean Air Act, will be followed.
    Financing will come from many sources, including the Federal 
Government. However, funding applications will still be required to go 
through the same process as any other airport improvement project. 
There will be no Federal funding guarantees. That's why the City of 
Chicago and the State of Illinois have found a number of other funding 
sources, including General Airport Revenue Bonds, Passenger Facility 
Charges (PFCs), landing fees, and airport concessions. These points 
have been clarified and strengthened in the new legislation.
    The State and City want to work with the Federal Government to 
increase aviation capacity in the region while maintaining quality of 
life.
    I have said all along that the implementing legislation that 
Congressman Lipinski and I introduced is not the Ten Commandments. Far 
from it. We continue to accept constructive criticism and suggestions 
from those who want to see the status quo changed. But, indecision, 
inaction, and interference are simply not acceptable.
    Mr. Chairman, I stand ready to work with this Committee as Congress 
continues to consider how best to address the aviation capacity crisis 
that has plagued the Chicago region.
    I would like to add a word of welcome to former Secretary Sam 
Skinner who has made the trip from Chicago to be here today to testify 
in support of this agreement and legislation.
    I thank you again for this opportunity to offer my views today.

    Senator Rockefeller. Thank you, Senator Durbin, very much. 
We are very honored now to go--well, we are not so honored to 
go to the first panel, but we are very honored to have on the 
first panel the Governor of the State of Illinois, George H. 
Ryan, and also the Mayor of the City of Chicago, Richard M. 
Daley. We would ask them to come forward.
    And Governor, we would welcome you, and if you would make 
your comments, sir, we would be very grateful.

STATEMENT OF HON. GEORGE H. RYAN, GOVERNOR, STATE OF ILLINOIS; 
                ACCOMPANIED BY HON. KIRK BROWN, 
                  SECRETARY OF TRANSPORTATION

    Governor Ryan. Thank you very much, Mr. Chairman, for the 
opportunity to be here, and Senator McCain and Senator 
Fitzgerald, I appreciate the opportunity to be with you. And 
Senator Hutchison, nice to see you here this morning. We want 
to thank you for the opportunity.
    I am sure you remember, Mr. Chairman, that sometime back 
you and Members of this Committee came to Chicago, it was early 
last summer, to hold hearings on the state of aviation in 
Chicago and the Midwest region. You heard testimony from 
travelers that were tired of the delays of getting in and out 
of O'Hare. You heard, as the Mayor and I have heard, from 
business executives complaining that business travel was 
increasingly frustrating.
    And if you will recall, Mr. Chairman, many Members of this 
Committee that were there expressed their own frustrations with 
the delays at O'Hare, and the lack of services to cities in 
their home States.
    This Committee challenged the local leaders in Chicago, 
basically they Mayor and myself, to solve the aviation problem 
of gridlock at O'Hare Airport. And you made it very clear, as 
you recall I'm sure, that unless we fixed the problems 
ourselves, you would impose a solution upon us.
    In the more than 3 years that I've been Governor, Mayor 
Daley and I have taken on a lot of big problems and we have 
worked together to solve those problems. The Mayor and I have 
worked together on some big challenges, but the biggest 
challenge yet, an issue that had eluded previous mayors and 
governors for more than 20 years, is the airport challenge.
    Present at this Committee today, we bring to you a regional 
aviation plan. We didn't wait for you to step in, because we 
got your message loud and clear while you were there. And by 
the time this panel came to Chicago last June, I had already 
had a conversation with the Mayor and asked him to present a 
proposal for expanding O'Hare Airport.
    Being one of a handful of governors in the United States 
with the power to approve or disapprove runway expansion at our 
State airports, I had sometimes been accused of standing in the 
way of O'Hare, even though I had never been presented with a 
plan to accept or reject. And I don't believe any governor has 
had a plan to accept or reject for O'Hare, a plan in the last 
20 years. It was just assumed that it would be rejected.
    But the Members of this Committee, and perhaps, because of 
the long running aviation stalemate in Chicago, were somewhat 
skeptical. So today I'm delighted to report that Mayor Daley 
and I did our job, and we did I think everything that you asked 
us to do and wanted us to do.
    Our agreement calls for O'Hare's 7 runways to be 
reconfigured, and the new plan allows for simultaneous arrivals 
and departures. And the plan that we bring to you today will 
almost completely eliminate weather delays at O'Hare. It also 
insures O'Hare's continued pre-eminence as an international 
hub.
    The Mayor got his plan to my desk by the first of July, and 
because of the importance of this issue, I held hearings 
throughout the State of Illinois and around the Chicago O'Hare 
area throughout the summer, to give residents an opportunity to 
express their opinions about the O'Hare plan and about the 
region's other aviation needs. The hearings were attended, I 
might add, by thousands of area residents throughout the 
Chicagoland area.
    But we also had meetings with local mayors and Members of 
Congress, and State legislators, and the meetings and hearings 
made a strong case for improving O'Hare. Business leaders and 
labor leaders strongly stated O'Hare's importance to the 
economy of Illinois and the entire Midwest region.
    And I heard what you have probably heard, that people are 
fed up with the delays. I heard about nightmares of canceled 
flights that ruined family events and business meetings. But I 
think the most troubling thing I heard, Mr. Chairman and 
Members of this Committee, I heard from business leaders in the 
Chicago area and in Illinois, that said that they were no 
longer going to expand their companies in our State, and that 
they were no longer even holding business meetings there, 
because the delays wouldn't allow their meetings to start on 
time or even start in some cases. That's why they just figured 
the problem at O'Hare wasn't worth the problems that they were 
having.
    I heard about the critical role that O'Hare plays in the 
world's aviation system. Chicago, as you know, has always been 
a transportation hub, and Chicago has always played a central 
role in moving the goods and services and people of this great 
country. And today from O'Hare you can travel to virtually 
every point across the globe, and when flights are canceled at 
O'Hare, flights are canceled all across America.
    In fact, because of its important role as a hub to points 
across the globe, delays and congestion at O'Hare are of an 
international concern.
    So important was our role as an aviation center, that I 
heard again and again about the need to build additional 
capacity with a new airport in south suburban Peotone. In fact, 
business, labor and community leaders told me that we needed 
both an airport at Peotone and improvements at O'Hare in order 
to secure our economic and transportation future.
    At our hearings I also heard from residents concerned about 
their quality of life, and in the suburbs near O'Hare they were 
concerned about noise and air quality from increased traffic. 
In the south suburbs, some of the poorest communities in the 
metropolitan area are located, and I heard about their 
desperate need for economic development. At every hearing I 
heard about the need to keep our economy strong, whether they 
were business leaders or union members. They all recognized the 
importance of O'Hare and Midway and Meigs Field to our economy.
    The Chicago airport, without question, is a major economic 
engine, and to secure our future, we needed the Mayor and I to 
agree on a plan for growth and opportunity.
    After the public hearings I presented my counter-proposal 
to the Mayor, one that called for a new airport in Peotone and 
included substantial parts of Mayor Daley's plan for the O'Hare 
Airport. It also included keeping Meigs Field open in downtown 
Chicago.
    Then the terrorist attacks of September 11th occurred.
    For the first time since the dawn of commercial aviation, 
our Nation's air transportation system was grounded, and 
suddenly our airports were empty, and so were our hotels and 
our restaurants, and our convention halls. And our economy 
sputtered. It hurts yet today as a result of that.
    Revenues for our State budget continued to decline. They 
fell by hundreds of millions of dollars. I decided that now 
more than ever, that we needed to develop the boldest plan 
possible for the airport, and I had some reservations. I was 
concerned about the plan for a new south runway that was in the 
Mayor's O'Hare plan, which would dislocate some homes and some 
businesses. So I went up to the control tower at O'Hare and 
visited with the controllers.
    And I visited with them and asked what the program was.
    They took the time to show me the current configuration of 
the airport and how the mayor's plan would work. They told me 
they needed the south runway proposed by the mayor for safety 
reasons. So the mayor and I got to work on negotiating our 
aviation plan, and it was hard work.
    But we put together a very comprehensive package, and I 
agreed to the entire proposal for O'Hare to make it more modern 
and certainly to make it more efficient. Once completed, it 
will reduce weather delays by 95 percent. More than one day out 
of 10, O'Hare suffers bad weather, and that accounts for most 
of the delay problems. And I know that's been a major concern.
    With regard to noise abatement, this agreement will expand 
the soundproofing to every home and school impacted by jet 
noise, and with this agreement we have certainly addressed 
economic development issues.
    Now I am going to close, Mr. Chairman, without finishing my 
written statement because it's too long, but I want to say that 
this issue is probably one of the most important issues that 
can be addressed, and for 20 years it hasn't been addressed, 
because the governor of the State and the mayor of the City 
couldn't come to an agreement. This is the first time.
    If we don't take this opportunity to do what needs to be 
done, it could well be another 20 years before we can correct 
the problems that need to be corrected at O'Hare Field.
    So I thank you for the opportunity to be here to present 
our program, and we look forward to the passage of this 
legislation. Thank you.
    [The prepared statement of Governor Ryan follows:]

              Prepared Statement of Hon. George H. Ryan, 
                      Governor, State of Illinois

    Thank you very much, Senator Rockefeller, Chairman Hollings and the 
distinguished Members of this Committee.
    I want to thank you for the opportunity to come before you today.
    Mr. Chairman, Members of this Committee came to Chicago early last 
summer to hold hearings on the state of aviation in Chicago and the 
Midwest region.
    You heard testimony from travelers, tired of the delays getting in 
and out of O'Hare. You heard from business executives, complaining that 
business travel was increasingly frustrating.
    As you will recall, many Members of this Committee expressed their 
own frustrations with the delays at O'Hare and the lack of air service 
to cities in their home States.
    Mr. Chairman, this committee challenged local leaders in Chicago 
and Illinois to solve the problem of aviation gridlock in Chicago.
    You made very clear that unless we fixed the problem ourselves you 
would impose a solution for us.
    But, in the more than 3 years that I have been Governor, Mayor 
Daley and I have taken on a lot of big problems and worked together to 
solve them. The Mayor worked with me to rebuild the infrastructure of 
Illinois with a $12 billion investment program. Mayor Daley has been a 
great partner with me to ensure we create and retain jobs in Chicago 
and throughout the State.
    So we were ready to work together on the biggest challenge yet, an 
issue that had eluded previous Mayors and Governors for more than 20 
years. We were ready to try to craft a regional aviation plan.
    We didn't wait for Washington to step in.
    By the time this panel came to Chicago last June, I had already 
asked the Mayor to present a proposal for expanding O'Hare.
    Being one of a handful of Governors with the power to approve or 
disapprove runway expansion at our State airports, I had sometimes been 
accused of standing in the way of O'Hare--even though I had never been 
presented a plan to accept or reject.
    But, the Members of this Committee, perhaps because of the long-
running aviation stalemate in Chicago, were skeptical.
    Today, I am delighted to report, the Mayor and I did our job. We 
did everything you wanted.
    Our agreement calls for O'Hare's 7 runways to be reconfigured from 
an intersecting configuration to one in which 6 runways run parallel in 
an east-west configuration. Two cross-wind runways remain. The new plan 
allows for simultaneous arrivals and departures in all weather.
    The plan we are bringing to you will almost completely eliminate 
weather delays at O'Hare. It also ensures O'Hare's continued pre-
eminence as an international hub.
    This was the O'Hare plan Mayor Daley got to my desk by July 1.
    Because of the importance of this issue, I held hearings throughout 
the summer so that residents could express their opinions about the 
O'Hare plan and about the region's other aviation needs.
    The hearings were attended by thousands of area residents 
throughout the Chicagoland area. We also held meetings with local 
mayors, Members of Congress and State legislators.
    The meetings and hearings made a strong case for improving O'Hare. 
Business and labor leaders strongly stated O'Hare's importance to the 
economy of Illinois and the entire Midwest region.
    I heard what you have probably heard, that people were fed up with 
delays. I heard about nightmares of cancelled flights that ruined 
family events or business meetings.
    Most troubling, I heard from business leaders that they were no 
longer expanding their operations in the Chicagoland area because the 
delays at O'Hare had become intolerable.
    I heard about the critical role O'Hare plays in the world's 
aviation system. Chicago has always been a transportation center, from 
the first canoe which paddled down the Des Plaines River, to shipping 
on Lake Michigan; from the railroads to today's jumbo jets. Chicago has 
always played a central role in moving the goods, services and people 
of this great country. Today, from O'Hare you can travel to virtually 
every point across the globe.
    When flights are cancelled at O'Hare, flights are cancelled across 
the country.
    The problems at O'Hare were of national concern. In fact, because 
of its important role as a hub to points across the globe, delays and 
congestion at O'Hare are of international concern.
    So important is our role as an aviation center that I heard again 
and again about the need to build additional capacity with a new 
airport in South Suburban Peotone.
    In fact, business, labor and community leaders told me we needed 
both an airport at Peotone and improvements at O'Hare in order to 
secure our economic and transportation future.
    At our hearings, I also heard from residents concerned about their 
quality of life. In the suburbs near O'Hare they were concerned about 
noise and air quality from increased air traffic.
    In the South Suburbs, where some of the poorest communities in the 
metropolitan area are located, I heard about their desperate need for 
economic development.
    At every hearing, I heard about the need to keep our economy 
strong. Whether they were business leaders or union members, they all 
recognized the important role O'Hare, Midway and Meigs Field play in 
our region's economy.
    The Chicago Airport system is a major economic engine.
    To secure our future, we needed to agree to a plan for growth and 
opportunity.
    After the public hearings, I started to work on my counter-
proposal, one that called for a new airport in Peotone and included 
substantial parts of Mayor Daley's plan for O'Hare. It also included 
keeping Meigs Field open.
    Then the terrorist attacks of September 11th occurred, killing 
thousands of innocent people.
    It has almost become a cliche for people to talk about the lessons 
learned from that tragic day. But, I think everyone in Washington will 
agree it highlighted both the vulnerability of our aviation industry 
and the critical importance of air travel to our economy.
    For the first time since the dawn of commercial aviation, our 
Nation's air transportation system was grounded.
    Suddenly our airports were empty. So were our hotels and convention 
halls.
    Our economy sputtered, revenues to our State budget dropped off by 
almost $800 million as of this month.
    I decided that now, more than ever, I needed to work with the Mayor 
to develop the boldest plan possible.
    I had some reservations. I was concerned about the plan for a new 
south runway in the Mayor's O'Hare plan--which would dislocate some 
homes and businesses. I was giving that runway a lot of thought.
    After the Mayor and I joined President Bush at a rally for the 
workers of United and American at O'Hare, I visited the control tower.
    The controllers took the time to show me the current configuration 
and how the Mayor's plan would work.
    They told me they needed the WHOLE plan proposed by the Mayor for 
safety reasons and to increase capacity. That included the southernmost 
runway.
    So, the Mayor and I got to the hard work of negotiating an aviation 
plan.
    Mayor Daley shared my vision that now, more than ever we need to 
build the air capacity we need for the future. The post-September 11th 
slowdown in the economy was no excuse to delay.
    It was hard work. But I think we put together a comprehensive 
package.
    I agreed to the entire proposal for O'Hare, to make it modern and 
efficient.
    Once completed it will reduce weather delays by 95 percent.
    More than one day out of ten, O'Hare suffers bad weather and that 
accounts for most of its delay problems.
    The delays at O'Hare slow up everything across the country. If you 
are trying to fly to Phoenix, Arizona; Columbia, South Carolina; or 
Clarksburg, West Virginia, you are at the mercy of O'Hare.
    I know that has been a major concern of Members of this Committee 
and the entire Congress. Not only do you represent the flying public, 
you are frequent fliers yourselves.
    You well know the problem of delays and the inconvenience of not 
having adequate air service.
    Our plan will ensure that you can fly from Chicago to virtually 
every market across the country and around the globe. An expanded 
O'Hare, a new airport in Peotone and a renewed Midway Airport will 
provide ample capacity for growth in air service.
    We address the quality-of-life concerns with this agreement. Any 
homes and schools located within the 65 day-night noise level near 
O'Hare during each phase of the construction plan will be soundproofed.
    That is a major commitment. It builds upon the efforts by the Mayor 
over the last several years to address quality of life issues in the 
communities surrounding O'Hare and Midway airports. By working with 
commissions made up of local mayors and school district 
superintendents, the City of Chicago has already soundproofed thousands 
of homes and scores of schools.
    With this agreement we will expand the soundproofing to every home 
and school impacted by jet noise at O'Hare.
    With this agreement, we have certainly addressed the economic 
development issue.
    In addition to the increased air service and reduced delays, this 
agreement will produce nearly 200,000 jobs and $20 billion in annual 
economic impact.
    That to me, was the most compelling reason to make this agreement.
    It creates JOBS.
    Anyone who tells you otherwise about this project is simply not 
telling the truth.
    This package will keep Illinois residents working.
    I would think that every Illinois elected official would support 
this agreement just for that reason alone--it will create jobs for our 
residents for many years to come.
    We also developed the Peotone Airport, which in the short term will 
be a key supplemental airport providing needed additional capacity for 
the region. In the long run, it will help meet the tremendous increase 
in demand that the FAA forecasts over the next 11 years.
    We believe Peotone can be up and running in 5 years.
    Most importantly, it can serve one of the fastest growing areas in 
the region--Will County.
    The Peotone Airport will create thousands of construction jobs and 
thousands more permanent jobs.
    It will be a tremendous shot in the arm to the economy of the South 
Suburbs, where they are badly in need of economic development.
    It will provide convenient air service to South Suburban 
residents--the 2.5 million people who live within 45 minutes of the 
proposed site.
    And finally, with this agreement, the Mayor has agreed to keep 
Meigs open until, at least, 2006. After 2006, the City would need the 
Illinois General Assembly to pass a law to close the airport and have 
that signed into law by the Governor.
    The City will otherwise keep Meigs open until 2026. That is a major 
concession by Mayor Daley and I want to commend him for agreeing to 
that.
    The Mayor has had a great vision for his City and takes great pride 
in the fact that the lakefront is free, open and clear, just as famed 
city planner Daniel Burnham wished. Miles of lakefront are accessible 
for all Chicagoland residents, it is part of what makes Chicago a 
world-class City.
    But keeping Meigs open is important to business leaders and 
aviation enthusiasts. As I heard at the public hearings, it is also 
important to our region's search and rescue capability and for medical 
flights. I want to thank the Mayor for agreeing to this aspect of the 
plan.
    Senate Bill 1786, and its companion piece of legislation, House 
Bill 3479, are being shepherded through Congress by two strong leaders, 
Senator Richard Durbin, Illinois' senior Senator, and in the House, 
Congressman Bill Lipinski of Chicago.
    They have worked extremely hard to round up support for these bills 
which codify the agreement between the Mayor and me.
    I want to thank them for their efforts. They have long called for 
the Mayor and I to come to an agreement. Both Senator Durbin and 
Congressman Lipinski fully appreciate the fact that this agreement will 
create hundreds of thousands of jobs and billions of dollars in 
economic opportunity.
    We have worked closely with them and with your staffs to address 
concerns and clarify our intent.
    For example, both the Mayor and I are strongly in favor of 
environmental protection. This bill has now been clarified to reflect 
our desire to have these aviation projects go through the important 
environmental review process.
    We have clarified our continued commitment to the National 
Environmental Protection Act and the Clean Air Act. We encourage the 
best practices and the use of technology to mitigate air emissions.
    At the same time, we hope to coordinate all of the various reviews 
and to keep them on track. We believe this can be achieved and we hope 
the Administration and Congress would help.
    If the project gets bogged down for some reason, this bill could 
require the FAA to report to Congress to explain why permits and 
approvals have not been made. I believe this is important to the 
Members of this Committee, Mr. Chairman, just as you urged the Mayor 
and I to come up with an aviation plan, you can see to it that the plan 
gets done and gets done right.
    We really don't have time to delay. While we have a temporary 
economic slowdown, it is clear that air travel demand will continue to 
rise, and rise dramatically.
    Last week, the FAA revised its forecasts. Over the next 11 years, 
the number of air travelers will grow from a peak of 695 million in 
2000, to more than a 1 billion by 2013. The time to act is now. With 
your help, over the next 11 years, we can construct significant 
portions of the O'Hare plan while Peotone can be up and running. We 
will be well-positioned to meet demand and serve travelers well.
    Mr. Chairman, Members of Congress came to Chicago last year and 
demanded action. We have now delivered everything you wanted.
    For years, the aviation debate has been caught in a kind of 
gridlock.
    No one ever wanted to discuss it, let alone propose a comprehensive 
plan such as the one the Mayor and I developed.
    One group, the Suburban O'Hare Commission, from whom you have 
probably heard, has tied the City up in litigation for years over this 
issue.
    They are currently spending hundreds of thousands of taxpayer 
dollars on lobbyists, lawyers and image consultants to fight any growth 
at O'Hare. You have probably heard from them.
    What you may not know is that over the past several years, six 
communities have abandoned this organization.
    It is down to 10 communities and two townships.
    By contrast, the O'Hare Noise Compatibility Commission works 
cooperatively with the City of Chicago. It develops a soundproofing 
plan and spends tens of millions of dollars soundproofing homes and 
schools each year. This commission is growing. There are nearly 40 
members, mayors and school superintendents.
    These community leaders enjoy being at the table with Chicago and 
working with their colleagues to bring home soundproofing projects and 
discuss concerns about airport operational issues.
    Until the Mayor and I reached this agreement, as we have on several 
other major economic development projects, the aviation debate was 
mired in partisan politics.
    This bill would prevent future Governors from undoing our 
agreement. O'Hare expansion has been a politically volatile issue for 
more than 20 years.
    It has been a litmus test for candidates for Governor and the 
General Assembly.
    The small but vocal minority of well-organized opponents have 
helped to create a stalemate.
    In more than 20 years, there has never been a Mayor and a Governor 
that could agree on an aviation plan. Never.
    While there is no chance the Mayor or I will break our agreement in 
the remainder of my term, I am not running for reelection. It is a very 
real possibility that future Governors or State legislatures would 
attempt to undo this agreement.
    How can you plan a long-term capital project when it can be stopped 
at any time because of politics?
    This bill would not affect the power of future Governors to make 
decisions about future airport expansion plans in Illinois.
    It merely helps to make our final agreement for O'Hare, Peotone and 
Meigs truly final.
    Mr. Chairman, we have done our job, just as Congress demanded. Now 
is the time for Congress to act.
    Delays and congestion at O'Hare are a national crisis. The strength 
of the Nation's air transportation system is a national priority. 
Chicago's aviation system affects interstate commerce.
    Modernizing O'Hare and developing more capacity with a supplemental 
airport in the Chicago area are issues of national concern. Our plan is 
a long-term investment in keeping our Nation's aviation system strong. 
Approving our agreement will well-serve the American people, our air 
transportation system and this Nation's economy.
    Thank you.

    Senator Rockefeller. Thank you, Governor, very much, and 
your statement as with all witnesses, will be included in the 
record, as well as any other attachments.
    We welcome the Mayor of the City of Chicago.

STATEMENT OF HON. RICHARD M. DALEY, MAYOR, CITY OF CHICAGO, IL; 
               ACCOMPANIED BY JOHN HARRIS, FIRST 
        DEPUTY, DEPARTMENT OF AVIATION, CITY OF CHICAGO

    Mr. Daley. Thank you, Mr. Chairman, Members of the 
Committee, Senator Fitzgerald, Senator Durbin. I would like to 
introduce John Harris, to my right and your left. He is the 
First Deputy, Department of Aviation. I want to thank you for 
the opportunity to testify to enable to modernization of O'Hare 
Field and provide aviation capacity for Chicago, Illinois, and 
the Nation.
    I respectfully request permission for my written testimony 
to be submitted in the record.
    I first want to express my appreciation for the excellent 
work of this Committee in addressing the Nation's critical 
infrastructure needs in aviation as well as modes of 
transportation.
    As Mayor of Chicago, I am responsible for O'Hare Airport, 
the world's busiest. Last year it handled more than 67 million 
passengers, more than half of whom were connecting between 
flights. I'm also responsible for Midway Airport, one of the 
fastest growing airports in the country, and of course, Meigs 
Field on Chicago's lake front.
    Governor Ryan and I are here today because on June 15th, 
2001, this Committee traveled to Chicago to ask us to come up 
with a solution. The FAA has identified O'Hare correctly as one 
of the major choke points in the Nation's aviation system.
    O'Hare is the Nation's third most delayed airport. Because 
of its location at the center of the continent, its delays 
ripple through the Nation's entire aviation system. Governor 
Ryan and I have worked out a solution of O'Hare's problems on 
our own, which is far preferable than having it imposed by the 
Federal Government.
    When the Governor and I announced our plan on December 5th, 
2001, I called it one of the most significant agreements ever 
reached between a Chicago Mayor and the Illinois Governor, and 
it is. Two concerns were raised about the initial version of 
the legislation that codified our agreement and we have made 
changes to address both of them.
    First, we wanted to be clear that environmental safeguards 
will be fully adhered to while modernizing O'Hare Field and 
building Peotone. Second, we have removed the provision that 
could have enabled the Federal Government to build O'Hare's 
runway if the project was unreasonably delayed.
    This agreement is a compromise. In the spirit of 
compromise, the Governor and I each support provisions of this 
legislation to which we would not have otherwise agreed. For 
example, as many of you know, I would rather have Meigs Field 
become a beautiful park on the lake front. The Governor 
supported the entire modernization plan, including the 
southernmost runway. I agreed to the provision in the 
legislation in supporting a new airport in Peotone as well as 
keeping Meigs Field open.
    This legislation benefits the entire region. I know these 
benefits are clear to Mayor Scott King of Gary. We worked 
closely with Gary on the development of the Gary-Chicago 
Airport. In fact, today is the seventh annual meeting of Gary-
Chicago. We have shared financial, technical, operational and 
marketing resources to develop air service for the people of 
southeastern Chicago and northwestern Indiana.
    We look forward to that relationship.
    The Governor and I have reached this agreement because it 
will strengthen the economy of Chicago, which is very important 
to the Governor and myself. It will vastly improve the 
efficiency of the Nation's aviation system, which is important 
to Congress and the Nation.
    Our plan calls for changing O'Hare's outmoded airfield 
design by building a new runway, relocating three existing 
runways for the efficiency of the airport. The result will be 
an airport with 6 east-west parallel runways, similar to the 
runways at Atlanta's airport, which handles approximately the 
same number of operations as O'Hare with fewer delays, despite 
having three fewer runways.
    This is a safe design, one that is common at modern 
airports across the country. The modernization of O'Hare will 
reduce bad weather delays by 95 percent, overall delays by 79 
percent. These are huge improvements. They will be accomplished 
without the use of local or State taxes.
    We expect the O'Hare project to create 195,000 new jobs and 
generate an additional $18 billion in annual economic activity. 
This agreement is a package, delay reduction, capacity 
enhancements, increase economic activity and job creation. For 
example, developments of western access requires the closing of 
existing runway, which in turn requires the building of east-
west runways, including the southernmost.
    In order to expand O'Hare's sound insulation program and 
reduce noise capacity, the airport needs to be fully 
modernized. All the benefits of this agreement are realized by 
the complete implementation. So it should come as no surprise 
that our plan enjoys wide support in northeastern Illinois. 
Business, labor, community and religious organizations, 
chambers of commerce, airlines, airports, as well as countless 
other industries that depend upon strong aviation. This 
agreement has the strong support of many national 
organizations, AFL-CIO, U.S. Chamber of Commerce, Air Traffic 
Controllers, Air Transport Association, Airports Council, 
International North America, American Association of Airport 
Executives, and Aircraft Owners and Pilots Association.
    Opposition to this agreement, of the O'Hare project does 
exist. Much of this centers on the need to relocate homes and 
businesses near the airport. This is a challenge faced by every 
major transportation or infrastructure project. Homes and 
businesses will be relocated in strict accordance with Federal 
procedures, and an open public way to insure fair and adequate 
compensation.
    It is very puzzling why so much of the criticism of the 
O'Hare modernization project is based on opposition to 
relocating homes and businesses. The alternative proposal, the 
airport in Peotone, would ultimately displace 1,200 homes, as 
compared to O'Hare's 500 homes. Businesses at Peotone, 145, as 
compared to 99 at O'Hare. Acreage, 433 acres at O'Hare, 23,000 
acres at Peotone.
    Despite the narrowly focused opposition, I can speak not 
only for myself, but Governor Ryan. We are very proud to have 
solved this problem locally without forcing the Federal 
Government to step in and solve it. I firmly believe that the 
modernization, the commitment to Peotone, as well as the 
opening of, or keeping of Meigs is a solid agreement.
    I thank you for allowing me to make my presentation. I will 
submit the rest of it into the record. Thank you.
    [The prepared statement of Hon. Daley follows:]
Prepared Statement of Hon. Richard M. Daley, Mayor, City of Chicago, IL
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear before this Committee and testify in support of 
legislation that will enable the modernization of O'Hare International 
Airport and the expansion of aviation capacity to meet the needs of the 
Chicago region, Illinois and the Nation.
    Before I begin, I would like to express on behalf of the people of 
the City of Chicago our tremendous respect and appreciation for all the 
great work of this Committee in addressing critical infrastructure 
needs. Whether it has been passage of the landmark Passenger Facility 
Charge (PFC) legislation in 1990 or increasing the PFC and fully 
funding the Airport Improvement Program (AIP) in 2000, Members of this 
Committee consistently have been strong bipartisan supporters of 
airports and a robust, competitive national aviation system. Indeed, 
this Committee's commitment to improvements in our Nation's 
transportation infrastructure insures that the lifeblood of our 
Nation's economy flows freely, and for that you deserve our Nation's 
gratitude.
    Whether by boat, train, truck, or plane, Chicago has always been at 
the center of our national transportation system. The City of Chicago 
is the owner-operator of O'Hare and Midway International Airports. 
O'Hare is the world's busiest airport, and Midway remains one of the 
fastest growing airports in the country.
    Prior to the tragic events of September 11th, the aviation 
congestion crisis was the single greatest transportation problem 
confronting our Nation, and Chicago was again at the center. This 
Committee led the charge in finding solutions to aviation delays and 
congestion by holding a field hearing in Chicago on June 15, 2001. I am 
here today because Members of this Committee and others in Congress 
asked Governor Ryan and me to solve O'Hare's delay and congestion 
problem, which was tying up the Nation. We know, as you do, such a 
solution is uniquely necessary and uniquely important.
    O'Hare truly serves the Nation. Despite the aftermath of September 
11th, O'Hare handled more flights in 2001 than at any other time in its 
history and regained the title of World's Busiest Airport. Last year, 
more than 67 million passengers passed through O'Hare on 911,917 
flights. O'Hare averages more than 2,500 commercial flights each day to 
174 non-stop markets, provided by 45 different passenger airlines, as 
well as cargo flights by 19 different cargo carriers. We offer non-stop 
flights to 47 of the 50 States--serving more destinations than any 
other airport in the Nation. More than half of those passengers depend 
on O'Hare to connect between flights.
    We in Chicago share travelers' frustration with airport delays 
around the country and, perhaps most particularly, at O'Hare. As 
recently as 2000, one in four flights in the U.S. was delayed or 
cancelled--an unacceptable statistic. The frustration of passengers, 
including many Members of Congress who connect through O'Hare, was 
understandable. Furthermore, delays cost money.
    In 2000, O'Hare had 908,977 operations, and 57,545 delays, or 63.3 
delays per 1,000 operations. Flights at O'Hare had an average delay of 
7.60 minutes per operation, which translates into a daily delay cost of 
$480,084 and an annual delay cost of $166,446,704 to the airlines 
(based on an average operation cost of $25.17 per minute of delay for 
the nationwide fleet). Travelers across the Nation experience untold 
lost time, aggravation, and inconvenience.
    Last year, at the urging of this Committee, the FAA issued its 
Aviation Capacity Benchmark Report. It documented that O'Hare's current 
scheduled traffic meets or exceeds good-weather capacity 3.5 hours of 
the day and exceeds bad-weather capacity 8 hours of the day. The FAA 
identified O'Hare--unfortunately the Nation's third most delayed 
airport--as one of the choke points in the national aviation system. As 
FAA Administrator Garvey has observed many times, and you no doubt know 
from your own experience, delays at O'Hare ripple throughout the entire 
aviation system. However, unlike some of the Nation's delay-plagued 
airports, O'Hare has the physical space to modernize its airfield and 
provide needed aviation capacity for decades to come.
    Congress has held several hearings searching for a solution. These 
hearings provided ample evidence of national frustration with O'Hare 
congestion. Last year at this time, Members of this Committee and 
several other Senators demanded that Illinois and Chicago agree to a 
solution or face a solution imposed by Congress.
    O'Hare's antiquated runway layout is the primary cause of flight 
delays. O'Hare struggles with an old-fashioned, inefficient airfield 
design. O'Hare's 7-runway, intersecting airfield configuration is 
consistently cited in the FAA Monthly Summary of Air Traffic Activity 
and Delays in the National Airspace System as a primary cause of delays 
reported in the Runway Delay category. O'Hare's runway geometry, while 
modern in the propeller age, is now out-of-date in the jet age.
    In contrast, Atlanta's Hartsfield Airport, with half the acreage 
and just over half the runways (4 instead of 7), handles approximately 
the same number of operations as O'Hare with fewer delays. Modern 
runway design uses parallel approaches in instrument flight rule 
conditions. With parallel runways, O'Hare would be far more efficient. 
The whole national air transportation system would benefit.
    We need to modernize O'Hare's airfield. We will dramatically reduce 
delay and congestion by building one new runway and relocating three 
existing runways. We will have 6 parallel runways, similar to the 
efficient runway systems in Atlanta and Dallas/Fort Worth. Like DFW, we 
will also have two crosswind runways. This modern airfield will reduce 
bad weather delays by 95 percent, and overall delays by 79 percent. It 
will be phased in, with each step bringing demonstrable reductions to 
O'Hare congestion.
    As Congress demanded, the Governor and I have come to an agreement 
on how best to modernize O'Hare. But we cannot do it alone. We can 
solve the problem Congress wants solved. That is why we are here today.
    We need your help to memorialize the agreement between the City of 
Chicago and the State of Illinois that will enable O'Hare 
modernization, facilitate construction of an airport in Peotone, keep 
Meigs Field open, create a western airport entrance to O'Hare, and 
provide noise mitigation in communities neighboring O'Hare. Our local 
agreement, reached at Congress's insistence, is a balanced approach 
achieved through compromise. Federal legislation is required to protect 
this agreement and provide some certainty to the people of Illinois, 
the traveling public, O'Hare's passenger and cargo airlines, and many 
others who will rely on our agreement. This legislation will end a 
decades-long impasse.
    The legislation will protect our plan to provide congestion relief 
for the over 100 million passengers who will travel through O'Hare 
annually in future years. It will secure O'Hare modernization, which in 
turn will create 195,000 new jobs and produce an additional $18 billion 
in economic activity each year. O'Hare is central to the economy of 
Northeastern Illinois and Northwestern Indiana, generating 
approximately $35 billion in economic activity annually and producing 
more than 400,000 jobs.
    Congressional action will ensure that this nationally important 
project cannot be subject to cancellation by a new State 
administration. Governor Ryan and I agree on this congestion relief 
plan. However, any of his successors can tear up this agreement, renew 
the stalemate and there by keep the region and the Nation mired in 
airport congestion and delay.
    Illinois is one of a number of States that provides some degree of 
airport approval power to State Executive authority. Even though O'Hare 
does not receive any State money, governors have claimed the power to 
deny O'Hare runway improvements. Of the most delayed airports in the 
country, only a handful are in States with executive approval power 
over runway construction. Of those, only O'Hare has been prevented from 
implementing a runway plan because of State opposition. O'Hare is truly 
in a unique situation.
    The Governor and I agree that the State should play an important 
role as we solve airport capacity problems in our region. With or 
without the proposed legislation, both the O'Hare and Peotone projects 
will be subject to State regulation under environmental and other laws. 
We both expect those laws to be fairly administered in good faith. 
However, for twenty years, Illinois governors vowed absolutely to stop 
any relief of O'Hare delays, regardless of the cost to the State and 
the Nation. They based their threat on a single State law that focuses 
on aviation safety. We are confident our projects would survive a fair 
review. But two decades of governors have made it clear that O'Hare 
improvements will not get a fair review. Governor Ryan's administration 
and mine have invested a great deal of time, money and effort to 
realize these projects developed at the urging of Members of this 
Committee and in Congress. Without this legislation, future governors 
can arbitrarily undo the progress we have made without hope of a 
solution.
    O'Hare users, airlines and the Federal Government should be able to 
count on the State's commitment. Contracts will be let, bonds sold, 
people hired, all assuming that we can finish what we start. These 
investments should not be put in jeopardy.
    Let me further explain the legislation and the O'Hare modernization 
plan.
    First, under this legislation the modernized O'Hare will be safe. 
The FAA must follow its customary procedures and apply its safety 
standards. It must determine that the O'Hare plan is safe before 
approving it.
    Second, this legislation does not change the rules for Federal 
funding. O'Hare projects get no preference from this bill. AIP grants 
will follow the usual rules. The project will be funded through 
airline-backed bonds and PFC revenues, with less than 10 percent coming 
from AIP grants. Half of the AIP funding will be entitlement funds that 
O'Hare would customarily receive and we envision that the other half 
will be discretionary funds, for which the City must compete with every 
other eligible airport for in accordance with congressionally directed 
procedures. No local or State tax dollars will be used on the O'Hare 
project.
    Third, our proposal does not change or evade environmental laws or 
standards. It does not change the Clean Air Act or air quality 
standards. It only requires that the State act in good faith when 
enforcing air quality rules. This bill prevents the State from misusing 
those rules to stop O'Hare development. We are confident the O'Hare and 
Peotone projects will fit comfortably within the rules. We need the 
protection of this bill to insure that a future governor does not 
change those rules in order to interfere with the projects.
    Fourth, this legislation and the project it enables provide 
significant noise relief for O'Hare neighbors. Noise impacts under the 
proposed plan should be less than O'Hare noise impacts in 2000. If not, 
the legislation gives the FAA Administrator broad power to enforce a 
noise cap. Chicago's cooperative efforts to minimize noise impacts in 
the communities neighboring O'Hare will be continued under this 
legislation by broadening our existing sound insulation program. 
Through 2001, Chicago has spent more than $130 million insulating over 
3,900 homes and over $190 million on schools. Aircraft noise will be 
all but eliminated in many communities neighboring O'Hare when the plan 
is completed because of the new runway alignment.
    Fifth, western roadway access to O'Hare will at long last become a 
reality. There is no other way to achieve this long-needed project 
except through our plan. That second door to the airport will bring 
better access, road congestion relief and economic development 
opportunities to communities in DuPage County and farther west. Those 
airport-related developments will increase tax revenue for schools, 
parks and other City services. Better access to O'Hare will relieve 
jammed roadways, reduce emissions and enhance the quality of life for 
airport neighbors.
    This agreed upon O'Hare plan is a package. The delay reduction and 
capacity enhancements, as well as the job creation and economic 
activity are made possible by the development of the entire plan. For 
example, western roadway access to the airport requires the closure of 
an existing runway, which in turn requires the building of all the 
east/west runways including the southern-most. And, in order to expand 
the sound insulation program and reduce the noise impacts, the 
modernization needs to be implemented in its entirety. All the benefits 
of this agreement are only realized by the completion of all the 
elements of this agreement.
    Modernization of O'Hare will enhance competition in the Chicago 
aviation market. Chicago already benefits from competition between its 
two hub airlines. With the proposed plan, O'Hare capacity would grow. 
Competition cannot thrive in a constrained airport.
    Access to small- and medium-sized communities would also be 
enhanced. O'Hare serves as a gateway to international markets for many 
cities without international service benefiting travelers throughout 
the United States. Increased capacity at O'Hare allows communities 
throughout the U.S. additional access to the worldwide hub networks of 
the Nation's two largest air carriers and greater service to 
destinations throughout the world.
    Noise relief, western access and better air travel go a long way 
toward explaining why there is widespread and growing support for the 
modernization of O'Hare. Keeping O'Hare competitive insures the 
vitality and future of these neighboring communities and they know it.
    Few issues are supported by the City, State and most suburbs; by 
business and labor, community and religious organizations; by airlines 
and airports, and countless industries dependent on efficient air 
transportation, such as shipping and freight-forwarding, conventions 
and tourism. The Chicago City Council and more than three dozen 
surrounding communities have expressed support for our agreement 
through their Mayors, Village Presidents or City Councils. African-
American, Hispanic, Asian, and women's organizations and contractors 
have all loudly voiced their support.
    Our agreement has earned the strong endorsement of national 
organizations as diverse as the AFL-CIO and the U.S. Chamber of 
Commerce. The aviation industry is also in agreement. Air Traffic 
Controllers, the airlines represented by the Air Transport Association, 
and airports represented by Airports Council International-North 
America and the American Association of Airport Executives, as well as 
the Aircraft Owners and Pilots Association all have expressed their 
support for this legislation and modernizing O'Hare.
    Here in Congress, the legislation already enjoys significant 
support with nearly 100 cosponsors in the House and 23 in the Senate. 
The Governor and I have met individually with Members of this Committee 
and of the Senate, Members of the House and the Administration. In 
recent weeks, nearly 70 people representing all of these groups have 
come to Washington, DC. and met with more than 50 Members of Congress 
to advocate their support and seek cosponsorship for this legislation.
    Opposition to this legislation and the O'Hare project does exist; 
however, the focus and area of concern is narrow. Much of the 
opposition centers on the need to relocate homes and businesses near 
the airport. This is a challenge faced by every transportation or 
infrastructure project undertaken. Homes and businesses will be 
relocated in strict accordance with Federal procedures, in an open and 
public way to insure fair and equitable compensation. Communities 
neighboring the airport will most directly benefit from the hundreds of 
thousands of new jobs, billions of dollars in additional annual 
economic activity, and infrastructure improvements associated with 
O'Hare's modernization.
    From an economic stimulus perspective, can any other project 
provide as much benefit to the Nation for such a small price? As I have 
noted, this legislation does not obligate or secure funds for O'Hare 
and the anticipated Federal discretionary portion of the O'Hare project 
will be sought following customary congressional approvals and reviews. 
It may well be worth pointing out, should Congress choose to approve 
$300 million over the life of this project, it will in turn create 
195,000 new jobs and generate an additional $18 billion in annual 
economic activity. I am not aware of any other proposal being discussed 
or debated that would provide such a dramatic return on investment.
    Finally, I want to say something about the importance of making a 
clear statement about the bright future of aviation. This project will 
tell the traveling public, the Nation and the world that Congress and 
the President have confidence in the future of commercial aviation. The 
tragic events of September 11th will not deter America. No single 
industry was harder hit than aviation. No other development project 
could send a stronger message. Governor Ryan and I have done what you 
asked us to do to move this project and this Nation forward. We need 
you help to make our agreement secure.

    Senator Rockefeller. Thank you, Mr. Mayor.
    Let me just take up the subject with both of you gentlemen 
on the matter of pre-emption, and pre-emption really affects 
only one area here, but we have done this before, the Federal 
Government. The Airline Deregulation Act that prohibits States 
from opposing a passenger facility, charges, diverting airport 
revenue, there are a number of examples.
    Ordinarily, Governors and Mayors do not like to be pre-
empted on anything, and particularly by the Federal Government. 
And so I am just interested as each of you, as Governor and as 
Mayor, how you squared that.
    Governor Ryan. Well, I think, Mr. Chairman, that the need 
speaks for itself pretty much, and pre-emption is not, as you 
said, this is not a precedent. It's been set, we do it at the 
State level on occasion, we pre-empt communities on several 
things. But the need is here, and it doesn't just impact 
Illinois, it impacts the Nation, it impacts world travel.
    This is an issue that needs to be addressed, it has failed 
to be addressed for some 20 years, and if it means pre-emption, 
then I guess that's what it means. But it still leaves the 
authority in the Governor's hand for other aviation projects, 
to have the control that is needed there. This is an exception.
    Mr. Daley. Also, I would like to say that responsibility of 
managing the airport is ours, but the real responsibility comes 
with the FAA, planes landing, taking off, noise, all basically 
on the operation side is really the FAA. We have responsibility 
to manage the airport. In this situation, very few governors 
have this unique power.
    The reason I'm coming forward, I had an experience with a 
governor in about 1991 or so. It dealt with a downtown 
circulator. I think all Senators understand, every city wants a 
downtown circulator. And so we had an agreement prior to the 
new governor with Governor Thompson and myself that we had a 
local tax for a downtown circulator. The State said they are 
committed to put funding in it. We went to the Federal 
Government on that position.
    The Federal Government committed money to us. We in turn 
spent money. New governor gets elected. He makes the oral 
commitment, ``move ahead on engineering, move ahead and spend 
taxpayers money,'' which we did. The final hour came, the 
governor said no. I believe we spent $50 to $70 million of 
taxpayers money, and what a waste. And in turn, what happened, 
we had to return not only Federal money, we had to return local 
taxpayers money.
    In this situation, it is imperative, because if the next 
governor gets elected, he may agree one month, he will disagree 
in the second month, and he will tear the agreement up. There 
is no agreement and basically he says, I'm not participating. I 
think it is really vital to the jobs, the present jobs, and the 
future of Illinois. And we see pre-emption in highways, in 
railroads, and, of course, airports, and not just a local 
airport, basically it's part of interstate commerce.
    Senator Rockefeller. And the governor, as I understand it, 
Mr. Mayor, can unilaterally stop a runway.
    Mr. Daley. That's right.
    Senator Rockefeller. Simply on his or her decision.
    Governor Ryan. Right.
    Senator Rockefeller. Mr. Mayor, on noise effects, Chicago 
has been working on that, but you have to assume it is a factor 
here, and I would just be interested in what Chicago has done.
    Mr. Daley. I think John Harris, my First Deputy, we have 
spent more money than any other airport. We have led the Nation 
in regards to the noise abatement, and I will have John just 
give you a few facts on that.
    Mr. Harris. Thank you, Mr. Chairman. Mayor Daley 
commissioned the O'Hare Noise Compatibility Commission to lead 
the way and serve as a model to other airports around the 
country for providing noise mitigation relief to impacted 
areas. We have spent over $236 million insulating over 4,000 
homes around O'Hare and 99 schools. All these spending 
decisions are made by the surrounding elected officials that 
comprise the Noise Compatibility Commission, as well as the 
hard work of this Committee and your partners in the House 
passing the Noise Compatibility Act, the reduction of noise 
with the advent of Stage-three and improved aircraft 
technology, have resulted in over a 40 percent reduction in the 
impacted area.
    This proposal takes that relief even further. At the end of 
the day, the impacted area would be reduced by over 34 percent 
and the number of dwellings by nearly 49 percent, and that 
material is reflected in your information packets.
    Senator Rockefeller. That is all the questions I have at 
this point.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman, and I want to 
congratulate the Governor and the Mayor for the kinds of 
cooperation that we have seen displayed here. And indeed, there 
is an obligation I believe on the part of this Committee to do 
whatever we can to see that an agreement is assisted here. 
There may be modifications to it, which obviously is a 
responsibility given the Federal dollars and the FAA 
involvement. But the Governor is correct when he said we did 
come to Chicago, not because we wanted to interfere with what 
goes on in Chicago or the State of Illinois, but because of the 
importance of O'Hare Airport to the Nation, and I appreciate 
their efforts.
    Mayor Daley, Chicago O'Hare is presently dominated by two 
airlines, American and United. We hear and have had many 
complaints over the years about the lack of access to Chicago 
O'Hare by other airlines, which would have reduced costs and 
fares. Study after study indicates that where one or two 
airlines dominate a hub, prices are higher than those where 
there is competition. Are you committed to trying to insure 
access by other airlines to O'Hare once it is expanded?
    Mr. Daley. Yes, I am. Not only once it's expanded, as 
quickly as possible. We not only have two hubs, which we are 
really fortunate, both United and American, but we have had an 
opportunity in the last few years, other airlines, new airlines 
seeking gates at O'Hare Field, and I am one who will agree with 
you, that more competition is better for all.
    As you know, Midway Airport is in deep competition with 
O'Hare Field with both Southwest and ATA and other airlines.
    And I have said, we are fortunate to have two hubs, and 
yes, I am in agreement to have those gates opened more to other 
airlines.
    Senator McCain. In your testimony you note that the 
legislation as introduced does not obligate or secure funds for 
O'Hare, and that the Federal discretionary portion of the 
project will be sought following customary Congressional 
approval and reviews. I know that you know that Congress is not 
supposed to approve or review individual discretionary airport 
grants, and I spend a great deal of my time fighting against 
such pork barrel spending, and I would oppose any specific 
earmarking on behalf of O'Hare.
    I am sure that such a project, however, would fare very 
well under the FAA, because of the importance that all of us 
have recognized. It can be argued that this legislation does, 
in fact, obligate the FAA to give O'Hare preferential treatment 
in the competition for Federal funds. The bill says that the 
FAA, ``shall implement the Federal policy, that redesign and 
reconstruction of O'Hare is required to relieve congestion in 
the national aviation system.'' How does that not obligate the 
FAA?
    Mr. Daley. Well, that is not our intent. Our intent is to 
have this agreement to move forward, so it prevents a governor 
from--basically, we start proceeding, and then in turn to deny 
us the right to modernize the airfield, and move forward with 
Peotone, and keep Meigs Field open. This is not our intent. Our 
intent here is to have this agreement, and then in turn follow 
the same procedures that other airports will follow, dealing 
with modernization of an airport or the implementation and 
building of a new airport. We get in line like anyone else and 
proceed like anyone else.
    Governor Ryan. I'd like, if I could add to that Senator, 
Section 4 of the bill, application of existing law, spells that 
out pretty clearly. It says, ``nothing in this Act shall give 
any priority to or affect availability or amounts of funds 
under Chapter 471 of Title 49, U.S. Code, to pay the cost of 
the O'Hare runway redesign plan, or noise mitigation described 
in Section 3.'' So I think we are in line with your procedures 
here.
    Senator McCain. Thank you, Governor. When would this plan 
call for when Peotone would be in operation?
    Governor Ryan. We think that Peotone can be up and running, 
depending on how fast things happen here, within 5 years.
    Senator McCain. Five years?
    Governor Ryan. Right.
    Mr. Daley. Also, the Governor has committed State funding 
on that. I had not opposed it and nobody has made any 
opposition to it in Illinois. So the taxpayers of Chicago are 
paying for that. This is the Governor's plan, he submitted it, 
he is buying land already. There is no opposition at all in 
regards to purchase of land in Peotone.
    Senator McCain. Governor, prior to your agreement with the 
Mayor, you were opposed to the expansion of O'Hare. How did you 
find yourself on the road to Damascus?
    Governor Ryan. Well, I see the light occasionally, Senator 
on issues that come to my attention. I looked at the 
seriousness of this problem and heard from a lot of people.
    And when the business community came to me and said ``we're 
not expanding, we had a plant we wanted to bring in, we can't 
because air transportation is bad, we won't even have meetings 
at O'Hare. We won't even bring our people in to meet there 
because we are not sure they are going to be there on time.'' I 
had an obligation, frankly, to sit down and rethink my 
position, and that's what I did, and I thought without question 
that it was time to continue with the Peotone construction and 
to start to reconfigure O'Hare Airport, and I think it's vital 
to our economy and the State.
    Senator McCain. Well, I thank you. As I mentioned in my 
opening comments, I thank you both for this spirit of 
cooperation over a very, very, very difficult issue in Chicago 
and in the State of Illinois.
    Finally, Mayor, if I might mention, there are some 
specifics here like the number of taxiways, et cetera. I am 
sure that you understand that a decision by the FAA would 
govern, because the FAA is the safety, the last word on safety, 
so if there are modifications that the FAA deems necessary, 
those would not be particularly resisted. Is that right?
    Mr. Daley. Yeah, none whatsoever. FAA has the sole 
responsibility to do that.
    Senator McCain. I thank the witnesses, and I also thank 
them for their patience this morning.
    Thank you, Mr. Chairman.
    Senator Rockefeller. Senator Fitzgerald.
    Senator Fitzgerald. Thank you, Mr. Chairman. And Governor 
Ryan, Mayor Daley, thank you for all being here today. I 
appreciate your coming and pushing this idea.
    Although I disagree with the need for the bill, I think the 
City of Chicago could simply file a proposal with the FAA.
    Now I want to ask you a question that follows up on what 
Senator McCain was asking you. In your testimony you have 
encouraged the perception that all this bill does is pre-empt a 
future governor from changing the State's mind on the issue, 
and you deny that the bill does anything to hamstring or 
predetermine the outcome of the FAA studies. If that is the 
case, can we not just leave in the two or three paragraphs that 
deal with pre-empting the Governor's control over this and get 
rid of the 15 or so other pages that I would argue create 
binding findings that the FAA would have to follow, it would 
essentially predetermine the outcome of all the FAA studies, 
and the FAA would have to approve your plan. Would that be OK 
if we removed all those findings, if all you really want to do 
is just pre-empt the Governor's authority, why do we not just 
do that?
    Governor Ryan. Well, I think there's several proposals 
here. Meigs Field is one, Peotone is another. It isn't just 
O'Hare that's affected here, Senator.
    Senator Fitzgerald. OK. So if we did----
    Governor Ryan. And I want to tell you, I'm only a 
pharmacist, I'm not a lawyer, and I deal in the world with 
lawyers every day. Senator Fitzgerald and Congressman Lipinski 
are the sponsors of this legislation, and they could probably 
best answer that question. Now I am not trying to dodge your 
question, but I never seem to win any arguments with lawyers. 
If it takes 15 pages for a guy like me, it probably takes 30 
for people like that. So, I can't tell you why it is that way.
    But I can tell you that there isn't any way that the Mayor, 
I think would appeal directly to the FAA, knowing that a future 
Governor may come in and say ``no deal,'' and that's the 
concern here, and that's why the pre-emption.
    Mr. Daley. Right. And also, it's not just the modernization 
of O'Hare Field, it's the commitment for Peotone and also of 
course, keeping Meigs Field, which is very difficult for me, 
both in supporting Peotone and also keeping Meigs Field open, a 
beautiful piece of property on the lake front. Like anything 
else, you need a compromise. Like anything else, we have noise 
mitigation. We have to make sure that that money is committed 
and that western access is committed. There are provisions to 
deal with not only O'Hare Field, but Peotone and Meigs as well.
    Senator Fitzgerald. Would you object to putting in a 
paragraph then, that none of the findings in Section 2 of the 
bill would be binding on the FAA?
    Mr. Daley. We will have to find out and listen to people on 
that.
    Senator Fitzgerald. Mayor Daley, does the City of Chicago 
advocate the planning of a third airport in the south suburbs?
    Mr. Daley. We are supporting--it is not in the south suburb 
area, excuse me, it's in Will County, that's another county. 
South suburban area is----
    Senator Fitzgerald. But the City does advocate the planning 
of that airport?
    Mr. Daley. Not in south suburban area, no. It's in Will 
County.
    Senator Fitzgerald. So you support----
    Mayor Daley: It's not in the suburbs of Chicago, it's in 
Will County.
    Senator Fitzgerald. But you do advocate an airport within 
50 miles of Midway?
    Mr. Daley. Yes, we're supporting.
    Senator Fitzgerald. Is Southwest OK with that?
    Because I have the City's agreement with Southwest 
whereby----
    Mr. Daley. As long as it doesn't interfere with basically 
their landing and taking off.
    Senator Fitzgerald. So we can send your testimony to Herb 
Kelleher and he will not have a problem with it?
    Mr. Daley. You can send it to anyone.
    Senator Fitzgerald. All right. Mayor, I assume that prior 
to requesting that Congress mandate a 6-runway configuration, 
the City of Chicago did extensive studies demonstrating that 
this is the optimal solution for Chicago, the region and the 
Nation. Is that correct?
    Mr. Daley. I think in the last 50 years there's been so 
many studies, not only for O'Hare Field, but in the last 10 or 
15 years, for Peotone and keeping Meigs Field open.
    Senator Fitzgerald. But this proposal that came out last 
December, did you do studies that decided that that 6-runway 
configuration was optimal?
    Mr. Daley. Well basically when you look at the parallel 
runways, you look at what's taking place in Atlanta and Dallas 
and all the other airports. It is very important. The number of 
planes landing and taking off, the number of passengers, that 
runway is needed.
    Senator Fitzgerald. So you did or you did not do any 
studies?
    Mr. Daley. I think there has been a lot of reviews. I could 
not tell you if----
    Senator Fitzgerald. Can you share those reviews with this 
Committee?
    Mr. Daley. I'm reviewing it right now. I've told you, there 
are many viewpoints on this, and they have been there.
    Senator Fitzgerald. The FAA, prior to approving a plan such 
as this, would be required to analyze the alternatives, other 
sites, other runway designs, and a no-build option. Did your 
review perform such analyses?
    Mr. Daley. Gee, I really don't know.
    Senator Fitzgerald. OK. Mayor, I also note that the bill 
just forbids the Governor of the State of Illinois from 
changing the State's mind on this issue. But over the years, 
you have supported the construction of an airport in Lake 
Calumet, and then you have opposed the construction of a third 
airport. You have supported the closure of Meigs and then 
opposed the closure of Meigs. You have opposed the expansion of 
O'Hare and now you support the expansion of O'Hare. Why not put 
it in the bill that the Mayor of the City of Chicago cannot 
change his mind?
    Mr. Daley. I think I have to point out, Senator, that 
dealing with the building of a Lake Calumet Airport, I did not 
oppose it. The Republican Party in the Illinois Senate 
basically defeated a bill that the former Governor Etiger and 
myself, and Governor Bayh agreed upon. It had nothing to do 
with me. Basically they defeated the bill, and that's why----
    Senator Fitzgerald. But you have changed your mind over the 
years on these issues?
    Mr. Daley. I hope that people in government and politics 
always have better understandings to be able to change their 
minds.
    Senator Fitzgerald. Why not put into the bill that the City 
would be bound by this agreement and not be allowed to change 
its mind? It could change its mind with respect to Peotone, 
couldn't it?
    Mr. Daley. Well, once we put the agreement forward, we move 
forward, and I will be Mayor for a long time coming.
    [Laughter and applause]
    Senator Fitzgerald. Governor, with respect to Peotone, if 
they double the size and capacity of O'Hare, how is the State 
going to pay for Peotone? What airlines are going to go there 
when they have this already established airport that now has 
plenty of space?
    Governor Ryan. I'm going to leave that to the experts, and 
the experts all tell me that Peotone is a good addition to the 
air transportation system that we are providing in the 
metropolitan area of Cook County and the surrounding areas.
    There are about 2.5 million people that live in that area 
that are not serviced by anything other than O'Hare and Midway 
at this point, and the need is there. And we will have to 
convince airlines, and I think that's possible to do, and 
that's what we are going to do.
    And we certainly encourage your help in doing that, 
Senator.
    Senator Fitzgerald. Governor Ryan, did the State do any 
studies before agreeing to this?
    Governor Ryan. I would introduce the Secretary of 
Transportation, Kirk Brown. Tell us about the studies, Kirk.
    Mr. Brown. All the studies that you are asking for are 
still required to be done by the legislation. There hasn't been 
a master plan done yet for O'Hare. The City will file an 
application and they will follow all Federal environmental 
standards, all guidelines, do all the studies that you're 
requesting, Senator.
    Senator Fitzgerald. Could the FAA change the plan?
    Mr. Brown. Certainly. The legislation gives full authority 
to the FAA to make all final decisions, requires that all FAA 
standards are followed in the development of O'Hare.
    Senator Fitzgerald. So it doesn't have to be the 6-runway 
design that you're proposing.
    Mr. Brown. That's what is accepted for the Governor, for 
the State, getting rid of our disapproval power, the 6-runway 
plan.
    Senator Rockefeller. We can have another round if anybody 
wishes one.
    I just have one question that I would ask to the Mayor, and 
it is in a sense the same question that Senator McCain asked 
the Governor. I just happen to know the very, very strong 
feelings you had about Meigs Field and that, you know, that is 
an unbelievable lake front and that park would have been--I 
just wonder how the dynamics worked so that you could do this, 
make the change.
    Mr. Daley. One thing about Chicago, our beautiful lake 
front is protected by our laws without any development along 
the lake front, and it was always a dream of mine and a 
commitment to basically make that a beautiful park for the 
people of the City of Chicago, the State of Illinois, and the 
Nation. We have the most beautiful lake front. No other city, I 
believe in the world, can really compete with our open space, 
the idea of how important open space is to an urban community, 
which is enjoyed by the surrounding communities.
    And that was a difficult, difficult compromise for me to 
make. I really believed that this should have been a park, and 
that was one thing that was a major issue between the State and 
the City of Chicago. And like anything else, you have to 
compromise, and I compromised on that issue, and I compromised 
on Peotone, in a commitment to support the building of Peotone 
airport.
    Senator Rockefeller. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman. I defer to Senator 
Fitzgerald.
    Senator Fitzgerald. Governor, I am wondering if any 
Governor of the State of Illinois has ever used the veto power 
that is at issue in this bill to deny or block an expansion of 
O'Hare?
    Governor Ryan. I can't answer that, but I don't think there 
has ever been a proposal presented to any governor, at least 
any modern-day governor that would have been around when O'Hare 
was, I don't think there has ever been a proposal presented 
because the atmosphere was just never there for that to happen. 
You had a Republican governor for the last 26 years and a 
Democrat mayor, and it was just kind of an unwritten thing that 
there would be no plan, so there was never any proposed, and 
that's how we got to this stage as a matter of fact. The 
business community complained, people complained that they 
weren't getting the air service. The Congress came in, the 
Senate came in to Illinois and told us we had to do it, and 
that's how we got to the proposal, or part of the reason we got 
there. But I had asked the Mayor to present a proposal because 
I hadn't had an opportunity to accept or reject a plan.
    Senator Fitzgerald. And you could, if Mayor Daley were to 
give you a plan, you could issue permits today for it, couldn't 
you?
    Governor Ryan. I could.
    Senator Fitzgerald. You do not have a plan, do you, and we 
are being asked to approve a plan that really does not----
    Governor Ryan. Yes, we have a plan.
    Senator Fitzgerald. It has not been nailed down, all the 
details have not been nailed down.
    Mr. Daley. I don't think we can nail details down in the 
sense that the FAA has almost full responsibility. We may 
submit a plan in concept and like anything else, as we go 
forward, to me, I learned from the circulator. You understand 
that. Wasting taxpayers' money on a whim in going forward and 
spending hundreds of millions of dollars of taxpayers' money.
    Senator Fitzgerald. Why not go to the Illinois General 
Assembly and ask them to repeal your veto authority in the 
Illinois Aeronautics Act? Why come to Congress and ask us to 
use the supremacy clause of the Constitution to change a State 
of Illinois law?
    Governor Ryan. Well, first let me ask you, or let me tell 
you, Senator, they tell me that most of the permits, the 
permits won't be issued in any of these projects until the 
environmental study has been completed, and that's basically 
what we are waiting for. I think it goes back to what we said, 
that the Illinois law could change back again if that's the 
case, depending on who the governor is and who controls the 
General Assembly.
    This makes this more permanent, I think safer for the 
concerns that the Mayor has about what could happen in the 
future, and I think it's a role that the Federal Government 
should play, frankly. I'm not for giving a lot of issues to the 
Federal Government, but this is one I think that speaks pretty 
loudly as to the need.
    Senator Fitzgerald. So your deal is really just a deal 
between you and Mayor Daley, it's not an agreement between the 
State of Illinois because you have never presented this plan to 
the State Legislature and they haven't signed off on it.
    Is that correct?
    Governor Ryan. Well, formally I can't say that I've 
presented it to the Legislature, but I've talked to the 
legislative leaders, we've had meetings with legislators and 
they were asked for their input to put into it, but no, I have 
never really officially presented it to the Illinois General 
Assembly.
    Senator Fitzgerald. And you both--I guess I just want to be 
very clear on this. The way I read the findings section of your 
bill, there are two things that would have to be done in the 
NEPA process. There has to be a finding of the need and 
purpose, and alternatives have to be ruled out. And I find that 
in my judgment, the findings section of your bill does those 
analyses for the FAA and puts in statute a Congressional 
finding as to the need and purpose for the O'Hare redevelopment 
plan, and it statutorily rules out alternatives.
    Will you state clearly for the record whether that is the 
intent of this bill? Do you not intend to have any binding 
language in the findings sections that would bind the FAA with 
respect to the NEPA requirements, the need and purpose, and the 
alternatives?
    Governor Ryan. I'm going to defer to my attorney, Secretary 
of Transportation, Secretary Brown.
    Mr. Brown. Let me respond to Peotone and we will let the 
City respond for O'Hare. We are completing a full environmental 
assessment for that process considering everything that has to 
be considered under NEPA, and we expect to have Federal 
approval of that for the first tier, for the siting of that 
facility, this spring. And so let me clearly state for the 
record that we intend to follow every NEPA----
    Senator Fitzgerald. Will the FAA be free to find that there 
is not a need and purpose?
    Mr. Brown. Yes.
    Senator Fitzgerald. They would be. And would they be free 
to do an alternative plan?
    Mr. Brown. The FAA is free to do whatever they choose.
    Senator Fitzgerald. After this bill is adopted.
    Mr. Brown. Yes, sir.
    Senator Fitzgerald. So they wouldn't have to construct the 
6-runway plan.
    Mr. Brown. Yes, sir.
    Senator Fitzgerald. Now with respect to Peotone, you are 
fairly more balanced in this version of the bill than earlier 
iterations with respect to Peotone, but the one thing the bill 
doesn't do is pre-empt the governor's authority with respect to 
Peotone. After this bill passes, a future governor, say a 
Governor Blagojevich----
    Mr. Brown. Well, I would say that there is an election.
    There is Jim Ryan, who is presently Attorney General, 
running as a Republican, very well qualified, and Rod 
Blagojevich, Congressman, Democrat, well qualified, are 
running.
    Senator Fitzgerald. I hope Jim Ryan wins. I am a 
Republican, but it is possible the Democrat could win, and he 
would be free to stop going forward with Peotone. Is that not 
correct, after this bill, so Peotone is not even----
    Governor Ryan. The Mayor would never let that happen.
    Senator Fitzgerald. Would you ever let that happen, Mayor 
Daley?
    Mr. Daley. No, that would never happen.
    Senator Fitzgerald. Then why not put it in the bill that a 
future governor couldn't change its mind with respect to 
Peotone?
    Governor Ryan. I don't have a problem with that. I don't 
know if the Mayor does.
    Mr. Daley. You would have to have an appropriation as you 
know, Senator, you're a former Senator in the Illinois Senate. 
Appropriations are reviewed by a legislative body which is part 
of the three branches of government.
    Senator Fitzgerald. Well, I see my 5 minutes are up.
    I appreciate the patience of you two gentlemen, and thank 
you for coming to Washington.
    Senator Rockefeller. I thank both of you. I remember, if I 
remember correctly, when we met in June at the hearing, the 
Chairwoman of the State Legislative Aviation Committee appeared 
and testified that she hoped that the Governor and the Mayor 
would work toward a compromise, so that said a lot to me. 
Gentlemen, I want to thank the two of you, all four of you very 
much for your courtesy and for an extremely effective first 
panel.
    Governor Ryan. Thank you very much.
    Mr. Daley. Thank you.
    Senator Rockefeller. Our second panel consists of Mr. John 
Geils, who is Chairman of the Suburban O'Hare Commission; a 
fairly familiar face, Mr. Sam Skinner, who was our former 
Secretary of the Department of Transportation, I am very happy 
to see you, sir, now with U.S. Freightways, out of Chicago; and 
Ms. Woodie Woodward, who is Associate Administrator for 
Airports from something called the FAA.
    Secretary Skinner, we will start with you, sir.

 STATEMENT OF SAMUEL K. SKINNER, CHAIRMAN, PRESIDENT AND CEO, 
             USFREIGHTWAYS; ON BEHALF OF THE CIVIC 
                   COMMITTEE, CITY OF CHICAGO

    Mr. Skinner. Thank you, Mr. Chairman, I'm delighted to be 
here again, and Members of the Committee, I guess the Members 
of the Committee have all left, but I appreciate the 
opportunity to speak with you for a few minutes today.
    I am here on behalf of the Civic Committee of the City of 
Chicago. This is an organization of chief executive officers 
from virtually all of the major corporations within Chicago and 
its suburbs. We classify the suburbs, by the way, not only in 
Cook County, but suburban Lake, DuPage, Will County, and all of 
the greater suburban area of Chicago.
    We are in full support of the National Aviation Capacity 
Act. We want to commend Senator Durbin, who just left, and the 
bipartisan group of Senators who are supporting it. As you 
know, this is the result of a bipartisan agreement between a 
Republican Governor and a Democratic Mayor. As a former 
Secretary and now chief executive officer of a major Chicago-
based transportation company, I think I do have an 
understanding of the needs of our system and for a strong and 
efficient aviation system.
    I worked diligently with this Committee and others, but 
unsuccessfully when I was Secretary, for a plan similar to 
this. And unfortunately, we were not able to reach an agreement 
because we couldn't get that regional consensus that was 
necessary, the same regional consensus that we had in Denver 
when we built the Denver Airport with the support of this 
Committee and the Appropriations Committee, which is now one of 
the world class airports in the United States and the world, 
and it is doing exactly what we intended.
    We also I believe, in this plan, they have developed and 
expanded not only O'Hare, but they have also put real teeth and 
a real plan together to develop an airport on the south side in 
the south suburban area near Peotone. And of course they 
preserve beautiful Meigs Field. While a park is beautiful, 
there are many of us in aviation that believe that Meigs Field 
is equally beautiful. And I know your love for the parks and 
your family's love for Chicago and what you have committed to 
that, but I can assure you we have a lot of great lake front 
left even without the park at Meigs Field, and many of the 
people at the University of Chicago enjoy that lake front every 
day, thanks to your grandparents.
    Senator Rockefeller. Mr. Secretary, I took off for my 
honeymoon from Meigs Field.
    Mr. Skinner. After being married at the chapel, as I 
recall.
    Senator Rockefeller. That is correct, yes.
    Mr. Skinner. But this plan is not only good for Illinois, 
but it's really good for the entire Nation. Our Civic Committee 
has corporations that have employees, customers and suppliers 
that use O'Hare every day, and on an annual basis hundreds of 
thousands of our employees and other associates use O'Hare. It 
is absolutely key, not only to us maintaining our businesses in 
Chicago, but growing our businesses in Chicago, and that's why 
the Committee feels so strong about the support for this plan.
    As you know, this plan is a modern plan. The configuration 
at O'Hare is not a modern configuration. It will allow us to do 
at O'Hare what we have done at Denver, I mean at Dallas, and 
what they do at Atlanta, where they can handle a lot more 
traffic. It is a plan that can work not only with the 
technology that's available, but frankly, it will be a safer 
plan for aviation. And of course, it will eliminate lot of the 
delays that have been almost an everyday occurrence at O'Hare.
    It also, I believe, does something more importantly. It 
establishes once and for all that not only will we make a 
commitment to O'Hare, but we are making a substantial 
commitment to a south airport in Peotone, and I believe that 
that airport will grow, because I think that's where the 
population of the State of Illinois will grow in that southern 
area. We can't grow a whole lot to the north, but between 
Springfield and Bloomington and Chicago, there's tremendous 
opportunity, and I think by putting that airport there, you 
will see the entire economic activity in that suburban area 
grow, just as it did at Dulles. We flew in from Dulles last 
night, and at least some of us remember when that was in the 
middle of nowhere. I believe that Peotone in the next 50 years 
will represent the same thing for that area that Dulles has 
done for the Washington area.
    This agreement is necessary. We worked in 1990, Senator, 
you and I, and Senator Ford, your predecessor as Chairman of 
the Committee, on a very important act, an act that expanded 
capacity. It gave us noise protection and delineated a lot of 
the noise problems throughout this country, and we did it on a 
bipartisan basis. The President was a Republican and a 
Democratic Congress passed that legislation.
    And yes we did in certain area pre-empt State law and local 
law, and it was necessary to enhance the system of this Nation, 
and as we look back 10 years or 11 years later, we see it has 
not only worked, it has worked well. The skies are quieter, we 
have more capacity, and frankly, everybody is better off as a 
result of that.
    I think it is also important as we go forward that we pass 
legislation, because unfortunately, these things are 
susceptible to political undercurrents, and situation get 
sometimes beyond a particular control of a particular 
legislator or a particular governor. Think for instance if we 
had started the project known in Boston by the nickname the 
``Big Dig,'' the $14 billion public works project, and halfway 
through, some governor or a mayor had just decided for probably 
even smaller petty reasons to stop it. We would have spent 
billions of dollars and then we would find ourselves in a real 
mess. We can't allow that to happen at O'Hare, and I think this 
legislation makes sure that it won't happen.
    And finally, it protects all of the rules and requirements 
for environmental studies. It protects all of the requirements 
for noise studies, for environmental protection statements, and 
all of that will go forward as occurs in a normal basis, and it 
doesn't take funds away.
    These airports will be competitive. Obviously, the FAA and 
the Administrator here can talk a little bit more about that, 
but the competition is obviously fierce. We decided in 1989 and 
1990 to prioritize the funding through a competitive process at 
Denver, and we allocated more money to Denver because it went 
through the competitive screen and it was decided that that was 
the appropriate value that should be placed on that airport in 
that scheme, and that's the same thing that will go on. 
Obviously, O'Hare is the largest airport in the United States 
and the one that's critical to interstate commerce throughout 
the Nation and is obviously going to be a very competitive 
airport, and I believe the one at Peotone will as well under 
this formula.
    [The prepared statement of Mr. Skinner follows:]

 Prepared Statement of Samuel K. Skinner, Chairman, President and CEO, 
    USFreightways; on behalf of the Civic Committee, City of Chicago

    Chairman Rockefeller and Members of the Subcommittee: On behalf of 
the Civic Committee of The Commercial Club of Chicago--a group of 
approximately 70 senior executives from the Chicago region's leading 
corporations, businesses, and professional firms--I respectfully submit 
this statement in support of S. 1786--the National Aviation Capacity 
Expansion Act. The member companies of the Civic Committee have offices 
and plants throughout Chicago and its suburbs, as well as across the 
country and the world. We have employees who use O'Hare for business 
and/or personal travel. We clearly have a huge stake in the economic 
and aviation future of the region and the Nation.
    This legislation will ratify in Congress the bi-partisan agreement 
reached by Chicago Mayor Richard Daley and Illinois Governor George 
Ryan on December 5, 2001, to expand aviation capacity in the Chicago 
region. The agreement between Governor Ryan and Mayor Daley was 
historic. In making this pact they overcame a decades-long political 
stalemate that had blocked meaningful and much-needed improvements in 
the Chicago region's aviation system. The Civic Committee commends the 
Governor and Mayor for setting aside political differences to settle 
this issue locally.
    For nearly 20 years, the Civic Committee has been advocating 
expansion and modernization of O'Hare Airport. The agreement between 
the Governor and Mayor not only provides for such improvements at 
O'Hare, but also provides for a new point-to-point airport in south 
suburban Peotone, and the preservation of Meigs Field in Chicago; and 
we wholeheartedly support the terms of this agreement.
    As a former U.S. Secretary of Transportation and now as the CEO of 
a Chicago-based transportation company, I have a deep understanding of 
the importance of a strong and efficient aviation system. The airport 
agreement between Governor Ryan and Mayor Daley is good not just for 
Illinois, but for the entire county. Accordingly, the Civic Committee 
respectfully asks Congress to approve the agreement to ensure that it 
is not reversed or undermined by future political discord in Illinois 
and to expedite the implementation of these projects. O'Hare Airport is 
the busiest airport in the world and a key hub in the national aviation 
system, and we believe that Congressional action to improve the airport 
is both justified and necessary.
    In the absence of Congressional approval, any Federal funding 
allocated to these projects could be wasted if construction were begun 
and then halted by future Illinois officials. Worse yet, O'Hare 
modernization, which is at least 10 years overdue, and the construction 
of a new point-to-point airport in the region could be delayed 
indefinitely. This is not the proper way to improve the Nation's 
aviation infrastructure.
    O'Hare provides thousands of daily flights to over 165 domestic and 
over 70 international destinations. Both United and American Airlines 
operate strong networks of connecting flights and schedules at O'Hare; 
and over 60 other commercial, commuter and cargo airlines operate out 
of the airport. Only about half of the passengers using O'Hare 
originate or terminate their trips at the airport; the other half of 
the passengers use O'Hare as a connecting point to another destination. 
Similarly, many air freight shippers use O'Hare as an intermediate 
point for their freight shipments. In short, O'Hare provides a vital 
service in the movement of both passengers and cargo across the 
country.
    However, O'Hare operates with an out-dated design of intersecting 
runways, which makes the airport vulnerable to significant delays, 
especially in bad weather. Flight delays and declining service at 
O'Hare adversely impact not only the people of Northern Illinois, but 
also the citizens and businesses in other States, creating a ripple 
effect throughout the country. Chicago has not added new runway 
facilities at O'Hare for decades.
    The agreement between Governor Ryan and Mayor Daley to expand and 
modernize O'Hare to allow for 8 total runways, 6 of them parallel, 
would provide substantial benefits to the national aviation system. It 
would dramatically reduce congestion and increase safety at O'Hare, 
freeing up the national system as a whole, and would provide the needed 
capacity for additional flights around the country and the world. The 
agreement also provides for a new airport in Peotone, which would allow 
the Chicago region flexibility to accommodate the significant growth 
projected in point-to-point traffic, and preserves Meigs Field, a 
valuable general aviation asset for Chicago and the Nation.
    The airport agreement between the Governor and Mayor is also 
notable for its provisions to address quality of life issues. For 
years, little progress had been made with respect to increasing runway 
capacity at O'Hare because of concerns about noise in the communities 
around the airport. Before reaching his agreement with the Mayor, 
Governor Ryan held four public hearings around the region to listen to 
citizens concerned about these issues. In the end, the Mayor and 
Governor recognized that these communities have a stake in the future 
of the airport, and in their plan they committed additional funding for 
soundproofing schools and single-family homes around O'Hare. Chicago 
has already spent over $130 million to soundproof 3,934 homes as part 
of the most extensive airport noise abatement program in the country. 
In an era where airplane noise is decreasing significantly due to 
advanced aviation technology, the Civic Committee commends the Governor 
and Mayor for addressing these quality of life issues.
    For a few years now, the aviation community at-large has been 
stressing the need to close the gap between demand and capacity in the 
national system with new runways and improved technology. That need 
still exists today, even though the aviation industry continues to 
recover from the economic slowdown brought about by the terrorist 
attacks. Indeed, the FAA, which last week released its commercial 
aviation forecasts, projected ever-stronger growth in air travel 
between 2004 and 2013 that will overwhelm the aviation system unless it 
is improved.
    With this measure before you, Congress has an opportunity to take 
an important step to address this critical issue. The Civic Committee 
respectfully urges this Committee to approve S. 1786--the National 
Aviation Capacity Expansion Act--and send it to the Senate floor for 
favorable consideration.

    Senator Rockefeller. Thank you, sir.
    Mr. Geils.

     STATEMENT OF JOHN C. GEILS, CHAIRMAN, SUBURBAN O'HARE 
 COMMISSION; ACCOMPANIED BY HON. RONALD WIETECHA, MAYOR, PARK 
                           RIDGE, IL

    Mr. Geils. Thank you, Mr. Chairman and Senator Fitzgerald. 
My name is John C. Geils, and my colleague to my left is Mayor 
Ron Wietecha, the Mayor of Park Ridge. I am the President of 
the Village of Bensonville, one of the communities living in 
the shadow of O'Hare International Airport. I am also the 
President of the Suburban O'Hare Commission, a consortium of 14 
local governments adjacent to O'Hare that represents the 
interests of 1.5 million citizens.
    On behalf of the Suburban O'Hare Commission, I am grateful 
for the opportunity to present our views concerning the Chicago 
area's airport capacity needs.
    I understand, Mr. Chairman, that SOC's written statement 
will be entered into the record, and I thank you for that.
    Senator Rockefeller. That is correct.
    Mr. Geils. Thank you. I would also like to elaborate on a 
few key points. Legislation is being proposed that would fast 
track a massive new 6-runway redevelopment plan for Chicago 
O'Hare International Airport. This would significantly 
interfere with the established requirements for review of the 
airport development projects by the FAA and the environmental 
agencies.
    I understand that on the eve of this hearing a revised bill 
was submitted, and we have heard a lot of testimony pertaining 
to it this afternoon, softening some of the most blatant 
language that guaranteed the O'Hare expansion would be forced 
through. This amendment, however, in our opinion is nothing 
more than a clever attempt to wrap sheep's clothing around the 
wolf. The purpose and intent of the bill are exactly the same.
    Congress would be directing the FAA in no uncertain terms 
to proceed with a massive reconstruction of O'Hare, and to 
forego alternatives that many of us in the Chicago area 
community believe would be vastly superior. Through the 
proposed findings, Congress would prejudge all the most 
significant issues affecting the development of Chicago's 
airport system. This would eliminate the longstanding neutral 
and expert role of the FAA in evaluating and approving airport 
development projects.
    Rather than giving the $15 billion airport development 
project the hard look it deserves, the FAA would be relegated 
to wetting the ink on the rubber stamp.
    At the outset, we believe it is important for you to 
understand that SOC, the Suburban O'Hare Commission, stands for 
what we stand for and what it does not. SOC is not opposed to 
airport development, nor the need to improve the capacity and 
efficiency of Chicago's airport system. To the contrary, we 
agree that the Chicago area needs significant new airport 
capacity. What SOC does oppose, however, is a narrow minded 
focus on expansion of O'Hare when there is a better, faster, 
safer, less expensive and more environmentally sound 
alternative, the construction of a third new Chicago area 
airport at Peotone.
    The proposed legislation claims to support the construction 
of both airports, but the economic and practical reality is 
that a massive 6-runway redevelopment plan at O'Hare and a new 
airport at Peotone are mutually exclusive. A massive expansion 
of O'Hare would make it difficult if not impossible to justify 
the construction of the new airport.
    There is no need for extraordinary legislation in our mind. 
If the O'Hare Airport development project has sufficient merit, 
the appropriate mechanisms already exist for approval and 
construction. Congress should not interfere with that process 
by injecting a political decision concerning what does or does 
not make sense for the citizens of Illinois that are most 
directly affected by the Chicago region's airport development 
needs.
    The runway capacity needs of Chicago's multi-airport system 
must be considered interdependently and not independently of 
one another. The proposed legislation specifies a 6-runway 
O'Hare layout plan creating artificial constraints on the FAA's 
airport planning judgment for the Chicago region. The FAA would 
be required to think ``in the box'' in terms of a massive 
O'Hare expansion. Without a legislative imperative to expand 
O'Hare, the FAA might well give Peotone higher priority than 
O'Hare based on very real safety, efficiency, cost benefit, 
public interest and environmental considerations.
    Furthermore, by prejudging the issue and specifying the 
construction of an ill-conceived O'Hare runway design plan, 
Congress would condemn the Chicago region and the national air 
transportation system to a future of interminable delays.
    Cramming too many flights into a 6-runway O'Hare super hub 
would create the biggest and most delay-prone airport in the 
country.
    Worse yet, the proposed runway plan will produce a system 
that is guaranteed to fail miserably whenever the weather turns 
bad. The closely spaced parallel runways cannot be used for 
simultaneous operations when the weather requires pilots to use 
instrument procedures. This means that half of the expensive 
new concrete poured at O'Hare will need to be taken out of 
service exactly when it is needed most, under poor weather 
conditions when O'Hare experiences most of its delays.
    Congress should not be involved in the business of 
engineering Illinois airports. Indeed, for Congress to impose 
its' will in this matter would strip away the fundamental 
authority of the State of Illinois with respect to the exercise 
and delegation of State power to build airports.
    This would directly violate, in our opinion, the Tenth 
Amendment, and as represented by Congressman Hyde, we have 
expert opinion from Professor Rotunda on that matter.
    I would also like to emphasize a few very important issues 
from my community of Bensonville and other Suburban O'Hare 
Commission members, the impact of the proposed project on the 
environment, jobs, and the quality of life.
    Even in its current pre-expansion condition, O'Hare is the 
largest source of toxic emissions and hazardous air pollutants 
in the State of Illinois. O'Hare also impacts large numbers of 
Chicago area residents with significant and undesirable noise 
exposure. Adding hundreds of thousands of new flights will make 
matters much worse.
    The proposed legislation will preclude further 
consideration of these important issues, cut off public 
comment, and curtail the thorough evaluation of the public 
health and environmental considerations. The bill pays lip 
service to complying with NEPA, but there is simply no way that 
a project of this scope and scale could be subject to 
meaningful NEPA review before the legislative imposed 
construction date of 2004.
    The legislation would also inflict serious job destruction 
on my community of Bensonville and neighboring Elk Grove 
Village. Under the O'Hare redesign plan, the western ring 
access road would be pushed west immediately into the developed 
industrial and residential areas of our communities.
    This would precipitate huge losses in jobs, tax revenues, 
adversely impacting economic development, schools, and our 
residential quality of life.
    In summary, I would like to reiterate that the Suburban 
O'Hare Commission opposes this bill because it seeks to avoid 
the careful framework established for the review of airport 
development by the FAA in cooperation with State airport 
sponsors. SOC urges the Commerce Committee to reject any 
legislation to establish a unique set of rules to fast track 
construction at O'Hare and preclude the consideration of more 
sound alternatives for Chicago's future airport capacity needs. 
Thank you very much.
    [The prepared statement of Mr. Geils follows:]

    Prepared Statement of John C. Geils, Chairman, Suburban O'Hare 
 Commission; accompanied by Hon. Ronald Wietecha, Mayor, Park Ridge, IL

    Mr. Chairman, and Members of the Senate Commerce, Science and 
Transportation Committee, the Suburban O'Hare Commission (SOC) is a 
consortium of 14 local governments adjacent to O'Hare International 
Airport that represents the interests of over 1.5 million citizens. SOC 
is grateful for the opportunity to present its views concerning Chicago 
area airport capacity.
    Legislation is being proposed that would fast-track a massive new 
6-runway redevelopment plan for the Chicago O'Hare International 
Airport. This would significantly interfere with the established 
requirements for review of airport development projects by the Federal 
Aviation Administration (FAA) and the environmental agencies. Through 
its findings, Congress would have effectively prejudged all of the most 
significant issues--thus curtailing the neutral and expert role of the 
FAA in evaluating and approving airport development projects. The bill 
would silence further meaningful public debate concerning the future 
and direction of Chicago's airport needs. The legislation would also 
substantially erode the protections of the National Environmental 
Policy Act (``NEPA'') that safeguard the environment and the public 
health and welfare.
    At the outset, it is important to understand what SOC stands for, 
and what it does not. SOC is not opposed to airport development, nor 
the need to improve the capacity and efficiency of Chicago's airport 
system. To the contrary, there is broad regional consensus--including 
among the members of SOC--that the Chicago metropolitan area needs 
significant new airport capacity.
    What SOC does oppose, however, is a narrow-minded focus on the 
expansion of O'Hare--when there is a better, faster, safer, less 
expensive, and more environmentally-sound alternative: the construction 
of a third new Chicago-area airport at Peotone. Although legislation 
has been introduced that purports to support the construction of both 
airports, the economic and practical reality is that a massive 6-runway 
redevelopment at O'Hare and a new airport at Peotone are mutually 
exclusive.
    There is no need for extraordinary legislation. These types of 
regional airport development issues are matters that are best left to 
the expert judgment of the Federal Aviation Administration. If the 
O'Hare airport development project has sufficient merit, the 
appropriate mechanisms already exists for approval and construction. 
Congress should not interfere with that process by injecting a 
political decision concerning what does--or does not--make sense for 
the citizens of Illinois that are most directly affected by the Chicago 
region's airport development needs. Congress has neither the 
specialized aviation and airport environmental expertise of the FAA, 
nor the local knowledge necessary to make these determinations.
    The runway capacity needs of Chicago's multi-airport system must be 
considered interdependently, and not independently of one another. The 
proposed legislation specifies a 6-runway O'Hare layout plan, creating 
artificial constraints on the FAA's regional airport planning judgment. 
The FAA would be required to think ``in the box'' in terms of a massive 
O'Hare expansion. Consequently, consideration of important alternatives 
that could produce a more optimal distribution of runway (and airspace) 
capacity for the Chicago region would be blocked.
    The decision of which and how many runways to build within 
Chicago's multi-airport system is one that should by made by the FAA 
through the exercise of its substantial expertise--not by Congress. 
Without a legislative imperative to expand O'Hare, the FAA might well 
determine to give Peotone a higher priority than O'Hare, based on very 
real safety, efficiency, cost-benefit, public interest and 
environmental considerations.
    Furthermore, by prejudging the issue and specifying the 
construction of an ill-conceived 6-runway O'Hare design plan, Congress 
would doom the Chicago region and the national air transportation 
system to a future of interminable delays. Cramming too many flights 
into a 6-runway O'Hare super-hub would create the biggest and most 
delay-prone airport in the country. Worse yet, the proposed runway plan 
will produce a system that is guaranteed to fail miserably whenever the 
weather turns bad. The closely-spaced parallel runways cannot be used 
for simultaneous operations when the weather requires pilots to use 
instrument procedures. This means that half of the expensive new 
concrete poured at O'Hare would need to be taken out of service exactly 
when it is needed most--under poor weather conditions when O'Hare 
experiences most of its delays.
    Congress should not be involved in the business of engineering 
Illinois' airports. Indeed, for Congress to impose its will in this 
manner would strip away the fundamental authority of the State of 
Illinois with respect to the exercise and delegation of State power to 
build airports. This would directly violate the 10th Amendment. 
Chicago's power to build airports stems not from some inherent 
authority of Chicago independent of State law. Rather, Chicago is a 
creation of State law and is exercising State power to build airports 
that has been delegated by the Illinois Legislature. As a creature of 
State--not Federal--law, Chicago can only exercise those powers 
relating to airport construction that have been delegated to Chicago by 
the State of Illinois, and Chicago's delegated powers are necessarily 
limited by the conditions imposed on the delegation of power by the 
Illinois Legislature. Any legislation that attempts to interfere with 
the delegation of State power to a State political subdivision would be 
fraught with constitutional problems and would have national 
implications affecting every State.
    SOC opposes this bill because it seeks to avoid the careful 
framework established for review of airport development by the FAA in 
cooperation with State airport sponsors. The O'Hare redevelopment plan 
is one of the largest proposed airport expansions in aviation history. 
A project of this size, scope, and cost deserves more than a post hoc 
rationalization by the FAA. Before turning to a more thorough 
evaluation of the legislation, I would like to highlight a few of our 
key concerns.
    S. 1786 is unprecedented. It would:
    <bullet> Declare it to be ``Federal policy'' to construct the 
O'Hare expansion project (expected to cost $15 billion or more). The 
FAA would be required to take extraordinary steps to usher the project 
along if the City has not commenced construction by 2004;
    <bullet> Accord the O'Hare runway project special statutory 
priority over other airport projects in the Nation;
    <bullet> Violate the 10th Amendment by pre-empting the State of 
Illinois from controlling and limiting the delegation of the State law 
power to build airports to one of its political subdivisions;
    <bullet> Prejudge and interfere with the FAA's statutory 
responsibility to evaluate the air safety, efficiency and public 
benefits/costs of airport development projects.
    <bullet> Prejudge and interfere with the environmental review 
process under NEPA and the Clean Air Act State Implementation Plan 
(SIP).
    For these reasons, SOC strongly urges the Commerce Committee to 
reject any legislation to establish a unique set of rules to fast-track 
construction at O'Hare, and preclude the consideration of more sound 
alternatives for Chicago's future airport capacity needs.

I. The O'Hare Redevelopment Plan Would Be a National Air Transportation 
        Blunder of Epic Proportions
    The O'Hare ``runway design plan'' expressly specified in the 
legislation calls for a massive expansion of O'Hare by tearing up the 
existing runway complex and laying down 6 new parallel runways. 
However, in terms of well-established FAA safety and efficiency 
standards, several of the runways are too closely spaced (separated by 
only 1,400 feet) to allow for independent simultaneous arrivals or 
departures. The runways can only be used for simultaneous operations if 
one runway is used for arrivals and the other is used for departures--
and even then only if the weather is good. Whenever cloud cover and 
visibility conditions require the use of instrument landing procedures 
(a chronic situation at O'Hare), these closely spaced parallel runways 
could not be used simultaneously at all.\1\ By prejudging both the need 
and design of the proposed runway construction project, Congress would 
relegate FAA's role in evaluating this massive airport project to a 
mere rubber stamp. The FAA would not be able meaningfully to exercise 
its discretion to determine whether the proposed runway system is safe 
and whether it would in fact add capacity to the region.
---------------------------------------------------------------------------
    \1\ See, November 30, 2001 letter of National Air Traffic 
Controllers Association to Senator Peter Fitzgerald. Attached.
---------------------------------------------------------------------------
    The proposed legislation would have Congress make findings that the 
national air transportation is ``dependent'' on O'Hare and that ``the 
reliability and efficiency of interstate air transportation for the 
residents and businesses in many States depend on the efficient 
processing of air traffic operations at O'Hare.'' (Sec. 2). While the 
bill's promoters, most notably the City of Chicago, would no doubt 
prefer that interstate air traffic have no alternative but to flow 
through O'Hare, in reality, this is far from the truth.\2\
---------------------------------------------------------------------------
    \2\ There is general consensus that O'Hare can accommodate the 
needs of local Chicago traffic until at least 2020; thus, the purpose 
of any current expansion at O'Hare is to carry more connecting traffic, 
which constitutes over half the passengers using the airport.
---------------------------------------------------------------------------
    Passengers traveling via O'Hare have their option of any number of 
viable connecting hubs. Rather than trying to cram more flights through 
O'Hare, SOC believes that the best way to enhance the Chicago region's 
role as a pivotal hub in the national air transportation system is 
through the development of a modern alternate third airport at Peotone. 
Chicago's large population and economic base makes it an attractive 
hub, and a new South Suburban airport will attract more air carrier 
service and more connecting passengers.
    The proposed legislation pays lip service to the development of a 
new airport at Peotone, but in practical effect would thwart the 
development of a South Suburban Airport. If O'Hare is massively 
expanded with the six parallel runway plan called for in the proposed 
legislation, the viability of a new airport would be undermined. Such a 
massive (and misguided) expansion of O'Hare would make it difficult or 
impossible to justify the construction of the new, more modern, more 
economical, more environmentally sound, and more efficient airport at 
Peotone.
    The runway capacity needs of Chicago's multi-airport system must be 
considered interdependently, and not independently of one another. The 
legislation's findings expressly calling for a 6-runway O'Hare layout 
create artificial constraints on the FAA's judgment, forcing the FAA to 
plan ``in the box'' of a massive O'Hare expansion--and not to consider 
critical alternatives that would produce a more optimal distribution of 
runway (and airspace) capacity for the Chicago region at a new South 
Suburban Airport. As a result, the legislation guarantees the expansion 
of O'Hare, but leaves Peotone to wither as a secondary afterthought.
    The allocation of new runway capacity within Chicago's multi-
airport system is a determination that should not be made by Congress, 
but rather by the FAA through the exercise of its expertise. Absent the 
legislative directive, the FAA might well determine to give Peotone a 
higher priority than O'Hare, based on very real safety, efficiency, 
cost-benefit, public interest and environmental considerations.
    Worse yet, by prejudging the issue and specifying the construction 
of an ill-conceived 6-runway O'Hare design plan, Congress would be 
condemning the Chicago region and the national air transportation 
system to a future of interminable delays. Attempting to cram too many 
flights into a 6-runway O'Hare super-hub would create the biggest and 
most delay-prone airport in the country. Moreover, the Achilles Heel of 
the O'Hare redevelopment runway plan is that the system is guaranteed 
to collapse in bad weather. Since safety standards require that the 
closely-spaced parallel runways could not be used for simultaneous 
operations when the weather requires pilots to use instrument 
procedures, half of the expensive new concrete poured at O'Hare would 
effectively be taken out of service exactly when it is needed most--to 
alleviate bad weather backups, which are a leading cause of delays.
    Far from enhancing capacity and efficiency, if Congress were to 
adopt this legislation it would saddle the national air transportation 
system with an enormously expensive and delay-prone airport. That is 
why SOC believes this is a matter best left to the FAA's expert 
judgment, instead of the legislative process.

II. Laying New Concrete on Top of Functional Existing Runways Flunks 
        the Cost-Benefit Test
    There is compelling evidence demonstrating that the development of 
a third Chicago airport at Peotone would provide more effective 
capacity expansion for the region, and could be brought on line more 
quickly, at less cost, with less disruption to existing operations, and 
with less environmental impacts, than the proposed mandatory 
development project at O'Hare.
    Cost estimates released by the State of Illinois indicate that a 
new 6-runway airport at Peotone would cost in the vicinity of $5 
billion. Cost estimates for new runways at O'Hare are between $1 to $2 
billion per runway. Chicago itself estimates that terminal expansion at 
O'Hare would cost another $6 billion, bringing the total tab for the 
O'Hare expansion project to a whopping $15 billion. Even this massive 
figure does not include the additional cost of access roads, parking 
facilities, and mitigation measures for the immediately impacted 
communities.
    Given that Peotone would provide substantially more new incremental 
capacity at substantially less cost, the O'Hare construction plan is a 
spendthrift nightmare. Under existing law, the FAA is responsible for 
weighing the ``project benefit and cost.'' 49 U.S.C. Sec. 47115(d)(2). 
Congress added this responsibility to avoid situations in which 
taxpayer dollars are expended on projects that do not represent the 
best use of limited airport development funds. Under the required cost-
benefit analysis, the FAA must consider various alternatives and 
evaluate issues such as whether the addition of new runways at an 
existing airport is a better or worse investment than building a new 
airport. SOC submits that the O'Hare construction plan flunks this 
test.
    The legislation also contravenes the established Federal policy to 
``give special emphasis to developing reliever airports.'' 49 U.S.C. 
Sec. 47101(a)(3). By concentrating an ever-increasing number of 
airplanes in the finite volume of airspace over O'Hare, Congress would 
be frustrating the very reliever program it mandated the FAA to 
promote.
    Another important consideration for airport development funding 
requires the Secretary to be satisfied that ``the project will be 
completed without unreasonable delay.'' 49 U.S.C. Sec. 47106(a)(4). 
Attempting a massive redevelopment project at one of the busiest 
airports in the country is a recipe for project delays and massive 
disruption to the existing air carrier activities at O'Hare.

III. The O'Hare Expansion Plan Would Result in the Needless Destruction 
        of Jobs by Its Immediate Adverse Impacts on the Elk Grove 
        Village and Bensenville Communities
    The legislation under consideration also fails to take into account 
the ``job destruction'' that would be inflicted on the regional economy 
by the demise of valuable and important industrial areas necessary to 
accommodate a massive expansion of O'Hare. Under the O'Hare redesign 
plan, the Western Ring access road would be pushed west--immediately 
into the developed industrial (and residential) areas of the 
neighboring communities of Elk Grove and Bensenville. This would 
precipitate huge losses in jobs and tax revenues, and would adversely 
impact economic development, schools, and residential quality of life.
    By contrast, a new airport at Peotone--to be built on currently 
undeveloped land--would not displace any jobs or businesses. Such a 
proposal is win-win, as compared to expanding O'Hare. No jobs or 
residences are destroyed, and a thriving new industrial area is likely 
to sprout in the South Suburban area, fueled by the large-scale 
economic development that a new third Chicago Airport would provide.

IV. S. 1786 Constitutes an Unprecedented Interference with FAA's 
        Airport Development Responsibilities
    SOC is extremely concerned about the shift in decisionmaking 
responsibilities over airport development that would be brought about 
by S. 1786. The bill would drastically interfere with the FAA 
Administrator's and the Secretary of Transportation's authority to 
review and approve airport development projects. The exercise by the 
FAA of independent, objective and expert judgment with respect to 
airport projects is essential to ensuring that public resources are 
well-spent to optimize the safety and efficiency of the air 
transportation system and to protect against harmful environmental 
consequences--particularly on a highly controverted and extremely 
costly project such as the O'Hare proposal. For the reasons discussed 
above, SOC believes that the critical future planning decisions about 
what Chicago-area airports and which particular runways should be built 
are best made on the technical merits, rather than through the Federal 
political process.
    Under current law, the FAA and DOT have the responsibility to 
determine whether any proposed airport development project is 
consistent with promoting the public interest and the safe and 
efficient management of the national air transportation system. The 
proposed legislation would substitute a political judgment by Congress 
for the expert judgment of the agencies that are charged with that 
responsibility under the Transportation Code (Title 49 U.S.C. Subtitle 
VII).
    The legislation would erode the FAA's independent and deliberative 
role in reviewing the O'Hare project. It would have Congress make the 
decisions now vested in the FAA, even though details of the development 
plan have yet to be disclosed, the need for the plan has yet to be 
documented, the environmental impacts have yet to be determined, and 
the alternatives and cost-benefits have yet to be evaluated.
    The legislation is unprecedented. It accords unique and special 
priority for O'Hare not applicable to any other airport in the country. 
This is not streamlining; it is red-lining for the benefit of a single 
airport!
    By directing the FAA to give the O'Hare project special statutory 
priority for approvals and expenditure of Federal Government resources, 
other vitally important airport development projects around the country 
would be adversely impacted. If this legislation is enacted, airport 
projects at San Francisco, Dallas/Ft. Worth, Los Angeles, Atlanta, San 
Jose and Seattle may experience FAA review delays or reduced funding in 
order to accommodate the preference accorded to O'Hare by Congress.
    DOT and FAA currently have discretion to approve airport 
development funding for those projects that will ``preserve and enhance 
capacity, safety and security'' at airports throughout the country. 49 
U.S.C. Sec. 47115(c)(1). The Secretary is required to take into account 
``the effect the proposed project will have on the overall national air 
transportation system and capacity.'' 49 U.S.C. Sec. 47115(d)(1). In 
addition, the DOT and the FAA now have the authority to approve changes 
in an airport's configuration (the airport layout plan) and to review 
the safety, airspace efficiency and environmental impacts of such 
changes.
    The important issues the FAA is required to consider, but which the 
proposed legislation prejudges include the following:
    <bullet> Will the air traffic control airspace resources around 
O'Hare allow the substantial increase in operations (projected to 
increase from 900,000 per year to 1.6 million per year)?
    <bullet> Is the O'Hare expansion plan the best choice to meet the 
future needs of the Chicago region?
    <bullet> How much will the O'Hare expansion project cost?
    <bullet> Will six, closely-aligned parallel runways (several of 
which are only 1,400 feet apart) be cost-effective to maximize the 
region's capacity?
    <bullet> What will be the impact of the proposed project on 
surrounding neighborhoods?
    <bullet> Is it possible to tear up two major runways and build four 
additional runways at the same time O'Hare is attempting to operate at 
full capacity? What specific, detailed operational plan has been 
prepared and how does it propose to make these massive alterations 
while O'Hare continues to function as a key U.S. hub?
    <bullet> Will the preferences accorded to O'Hare in the legislation 
effectively preclude the development of Peotone? Will such preference 
impact future developments at Midway or Milwaukee or other airports in 
the Great Lakes region?
    <bullet> What impact would the expenditure of billions of dollars 
for, and according special Congressional preference to the O'Hare 
project have on critically needed airport development and aviation 
security projects for other major airports throughout the Nation?
    The legislation would erode the FAA's independent and objective 
role in reviewing major airport expansion projects, since, under the 
legislation, Congress will substitute its determination for that of the 
FAA on all of these important policy questions.
    It is critical for the expert Federal agencies entrusted with 
responsibility in this area to evaluate and make a determination on 
whether the crowded skies over O'Hare--with the closely-abutting busy 
airspace used by Midway, Meigs and other very active general aviation 
airports in the area--are the safest, and most efficient conduit for 
additional air traffic moving to and from Chicago and through the 
national air transportation system, as opposed to the development of a 
new airport in the South Suburban area.

V. S. 1786 Shortcuts NEPA and a Host of Other Statutes that are 
        Essential to the Protection of the Environment and the Public 
        Health and 
        Welfare
    This is result-driven legislation that would curtail meaningful 
evaluation of the environmental consequences in order to lay runways 
and pavement at O'Hare. The legislation would shunt aside vital 
considerations that, under current law, would otherwise require careful 
scrutiny by the FAA and other agencies, including such issues as: the 
tremendous noise impacts over surrounding communities, the massive 
amounts of ozone and other airborne pollutants that would be emitted 
into the Chicago-area airmass, the millions of additional gallons in 
toxic deicing fluid and other chemical runoff that would flow into 
waterways, and the impact of the project on wetlands, endangered 
species and other natural resources.
    Even in its current pre-expansion condition, O'Hare is the largest 
source of toxic emissions and hazardous air pollutants in the State of 
Illinois. Moreover, monitoring data shows that O'Hare impacts large 
numbers of Chicago area residents with significant and undesirable 
noise exposure. Adding hundreds of thousands of new flights will make 
matters much worse. SOC is extremely concerned that the proposed 
legislation will effectively preclude further consideration of these 
important issues, cut off public comment, and curtail thorough 
evaluation of the public health and environmental considerations NEPA 
was enacted to protect.
    While the legislation pays lip service to compliance with NEPA, 
there is simply no way that a project of this scope and scale could be 
subject to meaningful NEPA review in the scant period of time the 
legislation allows before the FAA is compelled to begin runway 
construction ``as a federal project.'' Airport development projects of 
this magnitude ordinarily take several years to complete the NEPA 
process under current law and procedures.
    Thus, while the bill states that implementation of the O'Hare 
construction plan ``shall be subject to application of Federal laws 
with respect to environmental protection and environmental analysis 
including [NEPA],'' as a practical matter the artificial urgency of a 
2004 construction deadline would make it impossible for FAA to conduct 
the necessary NEPA review. Courts have held that when Congress imposes 
a mandatory action under an impossible deadline, NEPA has, in effect, 
been legislatively overruled. See, Flint Ridge Development Co. v. 
Scenic Rivers, 426 U.S. 776 (1976). That is exactly what Congress would 
be doing here, despite token language to the contrary.
    The FAA is the lead agency responsible for coordinating NEPA review 
of airport construction projects, along with the involvement of other 
Federal agencies and the public. In discharging these obligations, the 
Transportation Code and NEPA charge the FAA with the duty to 
objectively and independently analyze the proposed airport expansion, 
and its impact on the environment, without prejudging the outcome.
    Section 3(f) of the bill--which compels the Administrator to begin 
building the runway development plan at O'Hare by 2004 if the City has 
not begun construction--effectively eliminates that independence. FAA 
would do all it could to avoid having to assume construction of O'Hare 
as a Federal project. A statutorily-imposed construction ultimatum by 
Congress would have the effect of forcing the environmental review 
process to be so truncated as to effectively preclude meaningful 
evaluation by the FAA of the environmental consequences.
    The massive 6-runway redevelopment and expansion plan at O'Hare 
raises serious and significant adverse environmental questions bearing 
on air quality, other pollutants, and noise. If an application has 
significant adverse environmental effects, under the Transportation 
Code, the FAA Administrator may grant approval ``only after a finding 
that no possible prudent alternative to the project exists and that 
every reasonable step has been taken to minimize the adverse effect.'' 
49 U.S.C. Sec. 47106(c). The proposed legislation would foreclose 
consideration of the otherwise legally-required alternatives.
    Indeed, the alternative endorsed by SOC--that of a new South 
Suburban Airport--can readily be shown to produce far fewer negative 
environmental impacts. A new airport at Peotone would have an extensive 
non-residential environmental land buffer to mitigate the noise and air 
pollution created by the facility. In contrast, the environmental 
``buffer'' for O'Hare currently consists of Bensenville, Wood Dale, Elk 
Grove and a host of other DuPage County communities--a residential 
``buffer'' that would be severely negatively impacted if hundreds of 
thousands of more flights are added at O'Hare.
    It is highly significant that Congressman Hyde and Congressman 
Jackson, two Chicago area Congressmen from different districts, 
different political parties, and with different political philosophies, 
are united against the O'Hare expansion project, based, in large part, 
on the disastrous environmental impacts to the region. Allow me to 
quote here from their open letter to State and Regional Leaders:
    ``Rather than build an environmentally sound new airport, Chicago 
wants to add new runways at O'Hare.
    ``Adding runways at O'Hare would compound what is already an 
environmental disaster. Even Chicago in its Master Plan acknowledged 
that adding runways would allow a level of air traffic that would be 
environmentally unacceptable. Despite this environmental 
unacceptability, Chicago is aggressively fighting a new airport and is 
actively pushing the option of new runways at O'Hare.''
[Hyde/Jackson Open Letter, October, 1997 at 9.]
    These are precisely the types of critical environmental issues that 
NEPA requires to be thoroughly examined prior to a major Federal action 
like the O'Hare redevelopment project. However, NEPA and its companion 
environmental statutes would be effectively gutted by the proposed 
legislation. Viable, prudent, and indeed more desirable environmental 
alternatives exist than re-developing an inherently delay-prone airport 
in close proximity to the City. This legislation eliminates the FAA's 
independence and forces the FAA, as the lead agency on this project, to 
short-circuit its environmental review.

A. National Environmental Policy Act (NEPA) and its Companion 
        Environmental Statutes Would Be Rendered Ineffective by the 
        Proposed Legislation
    NEPA (42 U.S.C. Sec. 4321 et seq.) would either be eliminated or so 
truncated by S. 1786 as to preclude meaningful review by the FAA 
Administrator, coordinating Federal agencies and the public. NEPA is 
the Nation's core environmental statute that requires Federal agencies 
to give careful consideration to the potential environmental impacts of 
the project, to consider practical alternatives to the project, and to 
give the public adequate opportunity to participate in the review 
process.
    The Department of Transportation, in its May 21, 2001 Report To 
Congress on Environmental Review of Airport Projects, recognizes the 
important role of NEPA and public participation as critical to the 
airport development process:
    <bullet> ``[NEPA] requires Federal agencies to prepare 
[Environmental Impact Studies] for projects significantly affecting the 
environment. Since most new commercial service runways and major runway 
expansions produce significant environmental impacts, an EIS is usually 
required. (Page iii).
    <bullet> ``Public involvement is an essential part of the 
environmental review process. . . .There is usually a high degree of 
public interest in airport projects, including a certain amount of 
public opposition.'' (Page v).
    <bullet> ``[P]ublic opposition to airport projects continues to 
rise. The NIMBY effect should not be dismissed as an environmental 
fringe element. It is based on real environmental concerns and has an 
increasingly broad-based constituency.'' (Page iii).
    S. 1786 is diametrically opposed to the objectives of NEPA and the 
important public policies recognized by the Department of 
Transportation in its Report. For starters, the airport environmental 
review process for a runway expansion project of this magnitude 
requires the preparation of an EIS, as well as the opportunity for 
substantial public involvement. That cannot happen under the timetable 
contemplated by the proposed legislation, and the public's right to 
participate in the NEPA process would be rendered meaningless.
    In addition to the FAA's express NEPA obligations, the Clean Air 
Act further authorizes the EPA Administrator to conduct a NEPA review 
on Federal projects for construction and major Federal actions that are 
subject to NEPA. If the EPA Administrator determines that the proposed 
action is unsatisfactory from the standpoint of public health and 
welfare, or environmental quality, she must make public that 
determination and refer the matter to the Council on Environmental 
Quality for mediation. The mandatory 2004 Federal construction deadline 
under the legislation for the O'Hare project forecloses meaningful 
review.

B. State Implementation Plan (SIP) Conformity Determination [Clean Air 
        Act]
    The Chicago O'Hare area is classified as a severe nonattainment 
area for ozone, and parts of the Chicago region are designated as 
moderate nonattainment for particulate matter. Without amendment of the 
Clean Air Act, the O'Hare expansion program would face difficult or 
insurmountable burdens under that statute.
    O'Hare is a huge polluter, and will be far worse if expanded to 
nearly double the level of flight operations. Air pollution from O'Hare 
consists of burned and unburned jet fuel aerosols containing dozens of 
carcinogenic organic compounds--including Benzene and Formaldehyde. If 
flights are expanded from 900,000 to 1.6 million annually, O'Hare and 
its immediately surrounding communities will experience an inevitable 
and unacceptably high concentration of Ozone and a host of toxic 
pollutants hanging in toxic cloud over O'Hare. By contrast, a South 
Suburban Airport would have a significant land buffer to assist in the 
dispersal of these toxic pollutants and to keep them away from 
residential areas. No such buffer exists at O'Hare.
    As required by Section 176 of the Clean Air Act, the State of 
Illinois has, after extensive public consultation and comment, 
developed a State Implementation Plan (SIP), which is the State's plan 
to come into compliance with the national air quality standards under 
the Clean Air Act. The SIP reflects a careful balance between the 
protection of the public health and welfare from air pollution, on the 
one hand, and the need for commerce and other activities, on the other 
hand. Each Federal agency involved in an airport expansion project must 
make a determination that the proposed action conforms to the SIP.
    Because of the huge increase in air pollution, there is a major 
inherent conflict between the existing SIP and O'Hare expansion. Under 
normal SIP processes, the City of Chicago, the airlines, the State of 
Illinois, the U.S. EPA, the FAA, other Federal agencies, and the public 
would work together to amend the SIP to accommodate O'Hare's needs 
while balancing competing interests. S. 1786 completely avoids that 
consultative and deliberative process.
    If this legislation is enacted, the City would be empowered to 
define O'Hare's SIP allocation, without the normal public participation 
process and without the participation of the State and Federal agencies 
and other interested parties. Moreover, the legislation directs the 
Administrator of the EPA to amend the SIP to accommodate O'Hare's 
expansion (Section 3 (a)(5): ``. . . the Environmental Protection 
Agency shall forthwith use its powers under the Clean Air Act 
respecting approval and promulgation of implementation plans to cause 
or promulgate a revision of such implementation plan sufficient for the 
runway redesign plan to satisfy the requirements of section 176(c) of 
the Clean Air Act.'') This is unprecedented legislation. There is no 
public process, no balancing, only O'Hare claiming for itself the level 
of emissions it wants.
    Under the proposed statute, O'Hare's needs (as determined by the 
City) are accepted as given, and the EPA would force other institutions 
to reduce their emissions pursuant to the EPA's judgment on how to 
reach SIP goals. This fails to allow other businesses and the public 
the critical opportunity to contribute to and participate in the 
process. Power companies, railroads, truckers, buses, heavy industry, 
and the Peotone Airport will, in all likelihood, have their target 
emissions cut by the EPA to satisfy O'Hare's runway plan. And, because 
this is a legislative mandate, none of those other vitally interested 
parties would be allowed to challenge O'Hare's claims or the EPA 
Administrator's solutions.
    The proposed legislation would radically alter the SIP and would 
drastically impact other industries. The statute before Congress would 
do tremendous damage to the existing processes and the other businesses 
impacted by this unique power granted the City.

C. Other Impacted ``Cross-cutting'' Environmental Laws
    In addition to NEPA, Congress has passed a number of environmental 
laws addressing Federal responsibility for recognizing and protecting 
special national resources. These laws, referred to as ``cross-
cutting'' laws, require Federal agencies to consider the impact that 
their programs and some private actions might have on such national 
resources. They include the Endangered Species Act, 16 U.S.C. Sec. 1531 
et seq., the Clean Water Act, 33 U.S.C. Sec. 1251 et seq., the 
Floodplains (Executive Order 11988). If enacted, this legislation would 
result in the approval of the O'Hare project without adequate 
consideration of the potential impacts under these important 
environmental laws.

VI. S. 1786 Would Violate the Tenth Amendment of the United States 
                    Constitution

    SOC believes that it is inappropriate and unlawful for the Federal 
Congress to decide which airports and what runways should be 
constructed within the borders of the State of Illinois. Decisions 
involving airport and infrastructure development have historically been 
delegated to the States. S. 1786 would strip the State of Illinois of 
its vested authority to delegate and authorize the City of Chicago to 
construct airports in the State. Doing so would be a clear-cut 
violation of the Tenth Amendment.
    Under the framework of federalism established by the Constitution, 
Congress is without power to dictate to the States how the States 
delegate power, or to limit the delegation of that power, to their 
political subdivisions. Unless and until Congress takes over complete 
responsibility to build airports, airports will continue to be 
developed by States, or their delegated agents, as an exercise of State 
power and law. The construction of airports by State political 
subdivisions such as Chicago is by definition an exercise of State 
power to build airports delegated to the political subdivision. 
Compliance by the political subdivision with the conditions imposed by 
the State as limitations on the delegation of the State power to build 
airports is an essential element of State authority and power and an 
essential element of the power of the political subdivision to 
undertake the proposed action.
    The proposed legislation would strip away such State authority over 
the delegation of State power, fundamentally intruding upon the State's 
sovereign authority to take action under its own laws. The legislation 
would prohibit the State from restricting or limiting the delegated 
exercise of State power by the State's political subdivision. It would 
nullify the decision of the State of Illinois legislature allocating 
the State's authority with respect to construction of airports located 
within the State, particularly the limitations and conditions imposed 
by the State on the delegation of that power to the City. The law is 
clear that Congress does not have the power to intrude or interfere 
with a State's decision as to how to allocate State power.
    Under the U.S. Constitution, the State's authority to create, 
modify, condition, and impose limitations on the structure and powers 
of the State's political subdivisions is a matter left to the exclusive 
control of the States:
    ``Municipal corporations are political subdivisions of the State, 
and created as convenient agencies for exercising such of the 
governmental powers of the State as may be entrusted to them. The 
number, nature and duration of the powers conferred upon these 
corporations and the territory over which they shall be exercised rests 
in the absolute discretion of the State. The State, therefore, at its 
pleasure may modify or withdraw all such powers, may take without 
compensation such property, hold it itself, or vest it in other 
agencies, expand or contract the territorial area, unite the whole or a 
part of it with another municipality, repeal the charter and destroy 
the corporation. All this may be done, conditionally or 
unconditionally, with or without the consent of the citizens, or even 
against their protest. In all these, respect for the State is supreme, 
and its legislative body, conforming its action to the State 
constitution, may do as it will, unrestrained by any provision of the 
Constitution of the United States.'' Commissioners of Highways v. 
United States, 653 F.2d 292,297 (7th Cir. 1981) (quoting Hunter v. City 
of Pittsburgh, 207 U.S. 161, 178 (1907) (emphasis added).
    Under State of Illinois law, the delegation of State powers from 
the State to its political subdivisions to construct or alter airports 
and runways is subject to the requirements of the Illinois Aeronautics 
Act. This Act requires that the State issue a permit approving airport 
alterations. The proposed legislation would expunge this State 
oversight in violation of the Tenth Amendment. The law would commandeer 
the City of Chicago, which is an instrumentality of the State of 
Illinois, to do what the State has prohibited it from doing: i.e., 
expanding the airport without receiving a permit from the State. Under 
State law, any airport construction without the required State permit 
would be unlawful.
    Congress does not have the authority to interfere with the State of 
Illinois' determination as to how to allocate State power to the City 
of Chicago. By impairing the State's delegation, the legislation would 
have the effect of undermining the delegation of the authority from the 
State to the City and thereby extinguish that delegation. As a result, 
any effort by the City to build new runways would be without the 
required State delegation and ultra vires under State law.
    The national implications of this legislation are profound and go 
well beyond Illinois, impacting States throughout the Nation. Many 
States have laws providing for some level of oversight over airport 
expansions, including State environmental laws and permitting 
requirements. Indeed, some 26 States have laws requiring local airport 
authorities to submit applications for Federal funds through the State, 
rather than directly to the FAA. This legislation would set a dangerous 
and unlawful precedent nullifying State oversight laws.

VII. Conclusion
    SOC strongly urges the Committee to reject any legislation fast-
tracking an ill-conceived runway construction project at O'Hare, that 
would be inconsistent with the careful Federal framework established to 
govern the review and approval of airport development projects. 
Congress should not prejudge and interfere with the FAA's ability to 
exercise its expert independent and objective oversight functions with 
respect to airport development projects, to carry out its environmental 
review responsibilities under NEPA, and to make sure that whatever 
airport development is undertaken will be the best possible solution 
for the Chicago region and the national air transportation system.
    The proposed legislation removes the FAA's neutrality and 
discretion. SOC believes that a rational and reasoned evaluation will 
establish that the development of a new South Suburban Airport is 
superior to O'Hare in every respect--that a new airport at Peotone 
would offer more capacity, and can be built at less cost, more quickly, 
and with fewer adverse environmental consequences. These are extremely 
important considerations which need to be resolved though the 
established Federal review process. Congress should not attempt to 
resolve them here by political fiat.

    Senator Rockefeller. Thank you, Mr. Geils.
    Ms. Woodward.

            STATEMENT OF WOODIE WOODWARD, ASSOCIATE 
         ADMINISTRATOR FOR AIRPORTS, FEDERAL AVIATION 
                         ADMINISTRATION

    Ms. Woodward. Mr. Chairman, Senator Fitzgerald, it is a 
pleasure to appear before you here today. I think it is very 
fitting that my first appearance before this Committee in my 
new position as Associate Administrator for Airports is to 
discuss the issue of increased airport capacity in the Chicago 
region. Helping to enhance airport capacity system wide is one 
of my office's main functions.
    The situation in the Chicago metropolitan area brings into 
sharp focus all of the elements of managing the growth of our 
aviation system, adequate planning for growth, modernization of 
facilities, environmental protection, safety, financing, and 
the role of local, State and Federal Government authorities. 
The effort to address those challenges with both short and 
long-term solutions will not only benefit the Chicago region, 
but will reverberate throughout the system by reducing delays. 
On behalf of Secretary Mineta and Administrator Garvey, I wish 
to commend the Committee for its interest and leadership in 
bringing attention to these issues.
    Aviation security has understandably been the focus in 
recent months, but the capacity of our aviation system, one of 
the underlying causes of aviation delays, is also critical to 
the efficient and safe operation of the system. Although air 
travel is down due to last year's recession and the terrorist 
attacks of September 11th, we must still focus on the future 
needs of our system.
    Last week the FAA released its most recent annual airspace 
forecast, 2001 through 2003, which predicts that the decline in 
passenger traffic will continue through this year, but will be 
followed by strong recovery in 2003. By fiscal year 2004 we 
expect a return to more normal levels of growth.
    That is 3 years later than predicted in last year's 
forecast; however, as Administrator Garvey emphasized, 
regardless of the short-term decline in air traffic, our 
forecast underscores the need for the government and the 
aviation industry to continue adding capacity to our system to 
meet the demands that will return and grow.
    It is important to understand our many ongoing efforts to 
address the challenges posed by congestion. Our airport 
capacity benchmark report 2001 documents that there are a 
handful of airports, including Chicago's O'Hare International 
Airport, at which demand exceeds capacity and where in adverse 
conditions the resulting delays have impact throughout the 
national airspace system. In 2000, O'Hare was ranked as the 
second busiest and the third most delayed airport in the 
country. For example, in bad weather, our report indicated that 
scheduled traffic at O'Hare exceeds capacity for 8 hours of the 
day. We concluded that the imbalance between capacity and 
demand growth over the next 10 years can be expected to 
significantly increase delays at O'Hare.
    Over the years, there has been considerable controversy 
about how the Chicago region should deal with this imbalance.
    Broad consensus proved elusive, until last December. The 
FAA applauds both Governor Ryan and Mayor Daley for reaching an 
agreement regarding the redesign of Chicago's O'Hare runways 
and the development of a south suburban airport. We believe the 
agreement marked significant progress toward increasing 
aviation capacity that will not only benefit the people of 
Chicago's metropolitan area, but air travelers nationwide.
    Chicago is a vital link in our aviation system. A 
resolution of the longstanding debate over Chicago's congestion 
is what all parties discussed and we were hoping for when this 
Committee held its hearing last June on the capacity needs of 
the Chicago metropolitan region. We think that it is key that 
the agreement provides the region with both near and long-term 
airport capacity expansion.
    The City has put in a great deal of effort and developed 
its preferred concept for redeveloping O'Hare. While that 
concept has been well received, it is important to remember 
that it is still a concept. There are established procedures 
for technical and environmental reviews which are as 
appropriate for improvements in Chicago as they are elsewhere.
    While these reviews take time, they are worthwhile, and I 
assure you that the FAA is doing all it can to move the process 
ahead, while maintaining a strong focus on reducing 
environmental impacts. We will employ the environmental 
streamlining initiatives that we described in our May 2001 
report to Congress toward that end.
    With regard to legislation to implement the agreement, our 
informal discussions with City and State officials have been 
both informative and productive. We received a revised draft 
bill shortly before this hearing and will be reviewing it. We 
are very pleased that the proponents appear to have taken into 
account many of our concerns. We look forward to working with 
them and the Committee as action on the legislation develops.
    However, I want to emphasize that the FAA is already 
working to move forward on the aviation goals of the Mayor and 
the Governor. Two weeks ago we issued a $4.5 million AIP grant 
for development of an airport master plan that will evaluate 
the O'Hare reconfiguration. We anticipate that the master plan 
study and associated airport layout plan will address many of 
the proposals outstanding issues, included anticipated 
benefits, schedule, forecast, and runway safety concerns.
    We plan to work in partnership with the City, State and 
other stakeholders to expedite the master plan review and 
environmental process. The FAA must also address significant 
airspace reconfiguration associated with the proposal.
    We are also working hard on the environmental review 
related to the proposal for a new south suburban airport.
    Illinois Department of Transportation requested FAA to 
prepared a tiered EIS for designating the location as a future 
airport site and for land banking at State expense. The 
decision to construct a new airport to provide additional 
capacity in the south suburban area of Chicago will have to be 
addressed in a future tiered EIS is and when a decision is made 
to proceed with development.
    We have all possible resources working on the tier one EIS 
to complete it as fast as possible. It is one of our high 
priority airport proposals nationwide, where FAA has 
established an elite EIS team to guide and expedite the work.
    In our view, discussion about increased use and/or 
improvements to any or all of the Chicago metropolitan 
airports, including increase in the capacity of airports 
through runway construction, is welcome and necessary.
    Improvements to the region's other airport facilities can 
proceed along with the ongoing consideration of a possible new 
supplemental airport for the region. Here in Chicago, as 
elsewhere, it does not have to be an either/or position.
    Mr. Chairman, it is a very positive development that the 
City and State have come together to reach consensus for both 
near and long-term measures to deal with the predicted growth 
in operations at the region's airports. We stand ready to 
assist in any way we can. Thank you very much for the 
opportunity to be here today.
    [The prepared statement of Ms. Woodward follows:]

  Prepared Statement of Woodie Woodward, Associate Administrator for 
               Airports, Federal Aviation Administration

    Chairman Hollings, Senator McCain, and Members of the Committee:
    It is a pleasure to appear before you today. I think it is very 
fitting that my first appearance before this Committee in my position 
as Associate Administrator for Airports is to discuss the issue of 
increased airport capacity in the Chicago region. Helping to enhance 
airport capacity system-wide is one of my office's main functions.
    The situation in the Chicago metropolitan area brings into sharp 
focus all the elements of managing the growth of our aviation system: 
adequate planning for growth, modernization of facilities, 
environmental protection, safety, financing, and the role of local, 
State and Federal government authorities. The effort to address those 
challenges with both short and long-term solutions will not only 
benefit the Chicago region but will reverberate throughout the system 
by reducing delays. On behalf of Secretary Norman Mineta and 
Administrator Jane Garvey, I wish to commend the Committee for its 
interest and leadership in bringing attention to these issues.
    Aviation security has understandably been the focus in recent 
months, but the capacity of our aviation system--one of the underlying 
causes of aviation delays--is also critical to the efficient and safe 
operation of the system. Although air travel is down due to last year's 
recession and the terrorist attacks of September 11th, we must still 
focus on the future needs of the system. Last week the FAA released its 
most recent annual Aerospace Forecasts, 2001-2013, which predicts that 
the decline in airline passenger traffic will continue through this 
year but will be followed by a strong recovery in 2003. By fiscal year 
2004, we expect a return to more normal levels of growth, expanding at 
an average annual rate of 4 percent for the next ten years, reaching 1 
billion passengers in fiscal year 2013. That is three years later than 
predicted in last year's Forecast. However, as Administrator Garvey 
emphasized: ``Regardless of the short-term decline in air traffic, our 
Forecast underscores the need for the government and the aviation 
industry to continue adding capacity to our system to meet the demand 
that will return and grow.''
    It is important to understand our many ongoing efforts to address 
the challenges posed by congestion. The Airport Capacity Benchmark 
Report 2001, which the Secretary released last April, documents that we 
are faced with very challenging capacity issues. It provides valuable 
data that has helped the FAA, airports, airlines, and other system 
users make informed decisions and investments to better meet the ever 
increasing demand for capacity and relieve the causes of delays. Our 
report documents that there are a handful of airports--including 
Chicago's O'Hare International airport--at which demand exceeds 
capacity and where, in adverse conditions, the resulting delays have 
impacts throughout the National Airspace System (NAS).
    In 2000, O'Hare was ranked the second busiest and the third most 
delayed airport in the country. Overall, slightly more than 6 percent 
of all flights were delayed significantly (i.e. more than 15 minutes). 
On good weather days, scheduled traffic is at or above the capacity 
benchmark (200-202 flights per hour) for 3\1/2\ hours of the day and 
about 2 percent of the flights are delayed significantly. In adverse 
weather, which may include poor visibility, unfavorable winds, or heavy 
precipitation, capacity is lower (157-160 or fewer flights per hour) 
and scheduled traffic exceeds capacity for 8 hours of the day. 
Furthermore, the number of significantly delayed flights jumps to 12 
percent. Although the report uses year 2000 data, its conclusion, that 
the imbalance between capacity and demand growth over the next ten 
years can be expected to significantly increase delays at O'Hare, is 
still valid.
    As we all are aware, there has been considerable controversy over 
the years about how the Chicago region should deal with this imbalance. 
There was a lack of consensus on capacity increases at O'Hare, a 
suitable site for a new airport, the size of airport infrastructure, 
the role of existing airports, and the degree to which air carriers may 
institute service at a new site. Studies were conducted, task forces 
formed, alternatives were debated, but resolution was elusive--until 
last December. The FAA applauds both Governor George Ryan and Mayor 
Richard Daley for reaching an agreement regarding the redesign of 
Chicago O'Hare's runways and the development of a south suburban 
airport near Peotone, Illinois. As we understand it, under the 
agreement, both the Mayor and Governor will support the reconfiguration 
of O'Hare's runways and the addition of a new southern runway in 
accordance with the Mayor's plan, construction of a western entrance to 
O'Hare, and investment of an additional $450 million in soundproofing 
homes and schools near O'Hare. They will also support application for 
Federal funds for the construction of a new airport near Peotone, 
Illinois, and agree that Chicago Meigs Field (Meigs) could be closed 
anytime after January 2006, with the State's concurrence but, barring 
no opposition, it could remain open until January 1, 2026, under 
certain prescribed conditions (enforced by partial withholding of AIP 
grant funding).
    We believe the agreement marks significant progress toward 
increasing aviation capacity that will not only benefit the people of 
Chicago's metropolitan region but air travelers nationwide because 
Chicago is a vital link in our aviation system. A resolution of the 
long-standing debate over Chicago's congestion challenges is what all 
parties discussed and were hoping for when this Committee held its 
hearing last June on the capacity needs of the Chicago metropolitan 
region. We think that it is key that the agreement provides the region 
with both near and long term airport capacity expansion. It does so in 
the near term, meaning over the next 10 to 20 years, by redesigning 
O'Hare's runways and maintaining Meigs Field as an open and viable 
facility, and the longer-term by the plan for additional capacity 
through the construction of a new south suburban airport.
    The City has put in a great effort and developed its preferred 
concept for redeveloping O'Hare. While that concept has been well 
received, it is important to remember that it is still a concept. It 
should now be subject to a variety of reviews and analyses, and it is 
possible that it will be further refined and improved. There are 
established procedures for technical and environmental reviews, which 
are as appropriate for improvements in Chicago as they are elsewhere. 
While these reviews take time, they are worthwhile, and I assure you 
that the FAA is doing all it can to move the process ahead as quickly 
as possible, while maintaining a strong focus on reducing environmental 
impacts. We will employ the environmental streamlining initiatives that 
we described in our May 2001 report to Congress towards that end.
    I assure you that we at the FAA will continue to work closely with 
both City and State officials as they move from the planning stage to 
implementing the agreement. As you know, the current Airport 
Improvement Program (AIP) is well suited to assist State and local 
governments make needed airport capacity improvements not only in 
Chicago, but nationwide. Although Federal funding and standards are a 
significant component of this successful formula, the State and local 
decisionmaking that shapes projects is key to balancing needs across 
the country. Above all, under current law, States and localities can be 
confident that, as they formulate plans, the overall Federal resources 
and commitment are available to their projects under uniform statutory 
criteria.
    There is legislation to codify and implement this agreement, 
introduced by Senator Richard Durbin, S. 1786, now pending before this 
Committee and there is a companion bill in the House, H.R. 3479, 
introduced by Representative William Lipinski, which was the subject of 
a recent House hearing. However, we understand that the proponents of 
the bills are considering changes in light of informal discussions with 
government, industry, and environmental interest groups, and that a 
revised proposal will address many of the concerns that have been 
raised. Those areas where we have concerns include unique priorities 
for the O'Hare redesign, changing how the project would be considered 
during environmental reviews, and providing for Federal responsibility 
for ``enforcing'' the agreement by federalizing the construction of the 
project and transferring noise mitigation responsibility from local 
authorities to the FAA. Our discussions with City and State officials 
about the legislation have been productive and we will continue to work 
with them and the Committee to resolve remaining issues.
    Federal legislation is not necessary for the FAA to work with the 
parties and begin to implement some capacity solutions in the Chicago 
region. The fact that eight, and soon nine, major runways are now being 
built in major metropolitan areas at large hub airports provides clear 
evidence that major airport redevelopment can occur when there is local 
political consensus. In the case of Chicago, the FAA is already working 
to move forward on the aviation goals of the Mayor and Governor. Two 
weeks ago, the FAA issued a $4.5 million AIP grant for development of 
an airport Master Plan that will evaluate the O'Hare reconfiguration. 
We anticipate that the Master Plan study, and associated airport layout 
plan (ALP), will address many of the proposal's outstanding issues 
including anticipated benefits, schedule, forecasts, and runway safety 
concerns. Prior to receiving Federal funding for development, the FAA 
must approve an ALP and an Environmental Impact Statement (EIS). We 
plan to work in partnership with City, State, and other stakeholders to 
expedite the Master Plan review and environmental process. The FAA must 
also address significant airspace reconfiguration associated with the 
proposal.
    We are also working hard on the environmental review related to the 
proposal for a new south suburban airport. In early 2000, the Illinois 
Department of Transportation (IDOT) presented a proposal to the FAA to 
landbank a new airport site near Peotone. IDOT requested FAA to prepare 
a ``tiered'' EIS for designating the location as a future airport site 
and for landbanking at State expense. IDOT's intent is to develop 
airport infrastructure at the site as aviation demand develops.
    The Tier 1 EIS addresses the Federal action of site approval for a 
potential, future air carrier airport in the south suburban area of 
Chicago. The decision to construct a new airport to provide additional 
capacity in the south suburban area of Chicago will have to be 
addressed in a future tier EIS, if and when a decision is made to 
proceed with development. We have all possible resources working on the 
Tier I EIS to complete it as fast as possible. It is one of the high 
priority airport proposals nationwide where FAA has established an 
elite EIS team to guide and expedite the work. The Tier 1 EIS is 
currently on schedule for a Spring 2002 completion. In advance of the 
FAA Tier 1 EIS/Record of Decision, and at its own risk, the State of 
Illinois has started the initial phase of land acquisition within the 
boundary of the proposed airport site. The Illinois legislature has 
appropriated $75 million for that purpose.
    In our view, discussion about increased use and/or improvements to 
any or all of the Chicago metropolitan airports, including increasing 
the capacity of airports through runway construction, is welcome and 
necessary. Improvements to the region's other airport facilities can 
proceed along with the ongoing consideration of a possible new 
supplemental airport for the region. Meaningful discussion must include 
both near and long-term plans for improvements to the system. Here in 
Chicago as elsewhere, it does not have to be an ``either/or'' 
proposition.
    Mr. Chairman, it is a very positive development that the City and 
State have come together to reach consensus for both near and long-term 
measures to deal with the predicted growth in operations at the 
region's airports. We stand ready to assist in any way we can.
    That concludes my prepared statement. I will be happy to answer any 
questions at this time.

    Senator Rockefeller. Thank you, ma'am. Thank you, Ms. 
Woodward, very very much.
    Secretary Skinner, you indicated yourself that you were a 
key player in 1990, and there was a lot of really good 
repercussions out of that. And something that people, I do not 
actually think has been mentioned that much, is that a lot of 
the Stage-two aircraft and a lot of the noise reduction is not 
just what is being done by local governments, but also the fact 
that Stage-two began to go and Stage-three began to come on. 
And in essence, the passenger facility charges matter also, 
both of these things created in my judgment great benefits, but 
they were pre-emptive actions.
    And so, going from that to this legislation, if we were not 
to pass this legislation, what in your judgment would be the 
effect on interstate commerce and commerce in general?
    Mr. Skinner. Well, I think it would put an uncertainty into 
the entire process that would probably slow the process just by 
the nature of the uncertainty, as many as several years. And 
that does not mean that somebody would have to take an overt 
action, a governor or a mayor would have to take an overt 
action to stop it. Just the threat of it would put a cloud over 
the entire project and in doing so, would slow down the 
development, and by slowing down the development, we would lose 
another 5 to 10 years.
    We lost 10 years. We came close 10 years ago on a project 
similar to this at a different location and it did not work 
out. We have lost 10 years, 10 valuable years. It could put it 
back.
    The marketplace wants certainty, and uncertainty creates, 
or slows the entire process down, so I think we need certainty. 
And when we passed the Act in 1990 with your support and as I 
said, Senator Ford's support, your predecessor as the Chairman 
of the Subcommittee, we balanced, and this Committee balanced 
that, and they made the important decision that we needed to 
balance the individual interests with the interests for the 
Nation as a whole, and it has turned out to be one of the most 
significant pieces of legislation this Committee has passed, I 
would suggest, in the past 30 years.
    And I think this is appropriate here because of the nature 
of O'Hare, which is so unique, in the middle of this Nation, 
half of the passengers going through there are going somewhere 
else, and we just cannot delay this system or this project any 
longer, and it needs certainty. This legislation, without 
compromising the process of government, gives it certainty.
    Senator Rockefeller. I thank you, sir.
    Mr. Geils, virtually, and I am just taking right off of 
what the Secretary indicated, virtually everybody here has 
talked about O'Hare as a national as well as an international 
facility, and in fact, there has been as much talk about that 
implicitly as there has been about as a local facility 
affecting a series of counties or even the State of Illinois.
    I said in my opening statement something which you may not 
understand because of the advantages of air transportation that 
are available to you. People mentioned regional jets in a very 
casual way. When we say regional jet in West Virginia, we go 
bananas with happiness. You know, I am accustomed to propellers 
and it takes 2 or 3 days for my spine, at 66\1/2\, to unwind 
after just a trip back. So, I am really interested.
    If O'Hare is as people appear to be saying that it is, you 
know, a national asset with national responsibilities, I mean, 
it is a little bit like we do not, as far as I have been able 
to determine, have any large oceans or lakes in West Virginia. 
I have looked carefully and I have not found any, but we do 
also participate in paying for the Coast Guard, because part of 
our duty as a State as part of a Nation.
    Now what would you say to the folks from Iowa and West 
Virginia and all kinds of rural end of the food chain in terms 
of aviation people from all over this country, who in fact, 
depend upon what happens at O'Hare, or in the current situation 
suffer? If you have bad weather at O'Hare because of runway 
configuration or whatever, the very first people who suffer are 
not your constituents, they are mine, and that is true in all 
other rural communities that live off of feeding into and out 
of O'Hare. What would you say to them?
    Mr. Geils. Well, it is a very good question, Senator, and I 
would say this. That we agree that the modernization of O'Hare 
Field is very important, not only to the region, to the State, 
but to the Nation. Unfortunately, I think we need to look at an 
integrated airport system in Illinois and how it impacts the 
Nation's needs as well. We believe very strongly with the 
development of a third airport, we can increase capacity by 1.6 
million operations, and would have a tremendous advantage over 
trying to cram 700,000 more operations into O'Hare Field.
    We can build it faster, we can build it for less money, it 
can be environmentally sound. We can work in coordination with 
Midway, O'Hare Field, a modernized O'Hare Field, and a Peotone 
airport, and take care of all the capacity demands for the 
region from this point forward. And we think that would be a 
very advantageous position for those in Iowa, those in West 
Virginia, those throughout the Nation who want to use this 
particular hubbing area as a transfer site for future 
destinations.
    Senator Rockefeller. So you are predicating your answer on 
O'Hare's not being reconfigured, but simply having another 
facility to be built, if at all, and hopefully it would be, 10 
or 12 years from now, or some say 5, and I have never heard of 
an airport being built in 5 years, but I would like to think 
about that, and Kay Bailey Hutchison and I are working on 
exactly that.
    But is that true, in other words, you are saying leave 
O'Hare, let the problems continue for West Virginia and Iowa, 
and then the other airport, wherever that may be, will take 
care of it when it comes on line?
    Mr. Geils. Well, Senator, we would agree that delays are an 
important consideration, and if that is what you are alluding 
to, I can only say this. Based on the best information we have 
from the City and the State, under this configured plan, this 
proposed 6-runway configured plan, in bad weather situations 
delays would, in fact, increase, not decrease, because of the 
close proximity of the interior parallel runways.
    In addition, as we look to the whole system of delays and 
networking to try to reduce those delays, we need to find an 
alternative plan that will also allow us to address the 
capacity needs of the region to keep delays at a minimum in the 
future. If you look in the fine print of Chicago and the City's 
analysis, you will find that the delay factors that they 
suggest are being reduced by 79 to 95 percent are predicated on 
the current capacity of the airfield at 900,000 operations. 
They are not projecting this delay reduction based on the 
potential for large increases, as much as 700,000 operation 
increases, in that airfield design.
    So, we don't really know all the facts and we have been 
saying all along, full disclosure, lay the alternatives side by 
side, let the best plan for the region, for the State, for the 
Nation win, and we will support that plan. We just want to see 
what the other alternatives are, and make those comparisons in 
detail before we pass judgment and ask Congress to effectively 
usurp the Illinois Aeronautics Act and essentially have 
Congress be the decisionmaker instead of the FAA and the 
environmental agencies, to move a design forward.
    Senator Rockefeller. Before I go on to Senator Fitzgerald, 
I want to say for the record, I am trying to figure out if what 
you said gives some comfort to the people that I represent. I 
am working on that and I will reread your testimony to see if I 
can find something, because I happen to believe that our people 
that live in Iowa and West Virginia, this is just as important 
to the people that you represent.
    But I also will introduce into the record a complete 
contradiction about what you said about the parallel runways 
and the danger there, and simply make the point that the FAA 
would never allow anything like that to happen. I mean, I think 
that is one of the most case closed type situations possible.
    Senator Fitzgerald.
    Senator Fitzgerald. Well, thank you. All of you, again, 
thank you for being here. I do want to follow up on what Mayor 
Geils was saying, because I do believe that the delays would be 
worse under the Mayor's revised plan, because the runways would 
not be able to be used in bad weather for the simultaneous 
takeoffs and landings. There would have to be a 4,300-foot 
separation and they only have a 1,300-foot separation. But that 
is why we need expert testimony, I think, in a future hearing 
to resolve that, if we are going to go forward and substitute 
ourselves for the experts at the FAA.
    But Ms. Woodward, I wanted to follow up with you. I noted 
in your testimony, you said that Federal legislation is not 
necessary here. I wholeheartedly agree with that. No one is 
standing in the way of Mayor Daley from submitting a plan to 
the FAA and letting you approve it, and I fear that if we give 
a special dispensation to this one project, then we are going 
to have Dulles Airport in, they are going to want priority 
consideration; we are going to have LAX, we are going to have 
Seattle, we are going to have San Francisco, we are going to 
have Atlanta; we will probably have Dallas/Fort Worth in. 
Everybody will want this special deal that rigs the game and 
puts a gun to the FAA's head and says, you must improve this.
    Now I want to explore specifically the language in the 
bill, because I believe it really is an extraordinary 
Congressional intervention into the FAA's airport development 
and funding process. In particular, the bill proposes to make 
findings that the FAA would usually make in the course of its 
exercise of its existing authority, and I would like to discuss 
some of those points with you.
    The bill says that it finds that it is the policy of 
Congress that given the agreement between the Governor and the 
Mayor, the redesign and reconstruction of Chicago O'Hare in 
accordance with the runway design plan and the development of 
the south suburban area are each necessary to improve the 
efficiency of and relieve congestion in the national air 
transportation system. Then it says, the ``Administrator of the 
FAA shall implement this Federal policy by facilitating 
approval funding, construction and implementation of those two 
projects.''
    Now I would like to explore your understanding of the term 
facilitate. Has Congress ever directed the FAA to facilitate 
its consideration of an airport's design review, environmental 
review, funding, et cetera, to your knowledge?
    Ms. Woodward. Senator, I think that is an excellent 
question. As you know, the new legislation was just introduced 
yesterday so we have done a quick read of it, but our initial 
reading of it is that it allows us--and in effect, requires us 
to proceed with all of the current requirements that we have in 
terms of environmental reviews, safety reviews from an air 
traffic operations and procedural standpoint, and every other 
kind of review that not only the FAA, but other Federal 
agencies and the State agencies will do. So I do not view this 
as giving it any preferential treatment. We will treat all of 
these airports as we do in any case, and treat them the same. 
They will have to make their own cases. We will review all 
alternatives. We will look at everything as we do traditionally 
and have throughout the years.
    The one thing I will say, as I said in my testimony, which 
is, we are feeling somewhat under pressure from Congress and 
others to expedite environmental assessments in the building of 
runways and airports in general. So we are looking for ways to 
do that, but not to diminish in any way our oversight, and we 
will not shortchange the environmental process or any other 
operation.
    Senator Fitzgerald. Would the FAA not be concerned that if 
they had this Congressional directive to facilitate this 
project, that other airports would want to come in with a 
Congressional directive that their projects be facilitated?
    Ms. Woodward. I understand there are folks that think that. 
From our reading, however, I think this follows the traditional 
roles that we have seen in airport development projects. In 
this case, the local and State governments have come to us with 
a proposal which is the traditional role, and we will fulfill 
our traditional role and carry out our responsibilities under 
the law.
    Senator Fitzgerald. Now would the FAA not normally make its 
own finding of purpose and need?
    Ms. Woodward. Yes, and we will in this case.
    Senator Fitzgerald. But it has already been done for you in 
the findings section of this bill if this bill passes, has it 
not?
    Ms. Woodward. As I said, we reviewed it very very quickly, 
but our reading is that it does not do that and that we have 
the full authority as we have in any other project to fulfill 
the environmental laws as it relates to purpose and need.
    Senator Fitzgerald. So I would think the City would be 
willing to take out all these findings which I feel would be 
argued, or they could use to argue in court that you are in 
fact bound by these findings. If everybody is saying that they 
do not mean anything, I would think the City would want to take 
these out.
    Ms. Woodward, do you know a fellow by the name of Rich 
Giuliano?
    Ms. Woodward. Yes, I have met him, yes.
    Senator Fitzgerald. Does he work in the Department of 
Transportation?
    Ms. Woodward. Yes, I believe he works in the Secretary's 
office in some capacity.
    Senator Fitzgerald. You do not know what that capacity is?
    Ms. Woodward. Not any more. I know he was on the job 
originally and he is----
    Senator Fitzgerald. Has he ever talked to you about this 
issue in Chicago's aviation?
    Ms. Woodward. He has attended a couple of meetings. In 
fact, I think he was at a meeting that I attended with you and 
Secretary Mineta several months ago, he sat in on meetings, but 
I have never one-on-one talked with him about it, no.
    Senator Fitzgerald. And you have not talked with him 
recently about it?
    Ms. Woodward. No, not at all.
    Senator Fitzgerald. What about the bad weather delay issue? 
There is a little bit of a controversy here. Do you allow 
simultaneous instrument landings on runways that are 1,400 feet 
apart with big jumbo jets?
    Ms. Woodward. Senator, I am not the air traffic expert 
here, but I will assure that if you have a specific case, I 
know there are some proposals in the O'Hare plan dealing with 
simultaneous takeoffs and landings both in adverse and good 
weather conditions, and that will be part of the air traffic 
review, to make sure that they are totally safe.
    Senator Fitzgerald. Has the City given you any studies here 
that it has done with respect to its proposed redesign of 
O'Hare?
    Ms. Woodward. We are just beginning that review. As I said, 
about 2 week ago we began the master planning process, so we 
are just in the very initial stages of the review, and that is 
being handled in our Great Lakes region with our oversight from 
headquarters.
    Senator Fitzgerald. So you have not seen a master plan for 
the O'Hare project?
    Ms. Woodward. That whole process is just beginning. I have 
seen their original configuration, but that is just a starting 
point for the discussion.
    Senator Fitzgerald. I know that Senator----
    Senator Rockefeller. I was just going to say, I will be 
glad to come back for a third round if you wish, but Senator 
Hutchison, who I refer to as, we are co-chairs of the Aviation 
Subcommittee, and she has a lot to say and may want to say it.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I appreciate 
that, and I have been wanting all morning to be here to make a 
statement, and I am sorry I had other commitments. I am very 
interested in this legislation.
    Certainly I want to do what the local community leaders ask 
for us to do. If my governor and the mayor of a City came 
before Congress to try to get help in putting forth a project, 
I would be certainly amenable to supporting what the local 
people want.
    I think that this bill has some good potential aspects, and 
I hope that we can work together to put it forward. But it 
needs some work and it needs to be changed in several ways.
    Now first I would say that we must work language that does 
not put this project ahead of any other project in our country 
or give it any advantage that other airports would not get. 
Second, there is no circumstance in which I would support a 
bill that would have a Federal takeover of the project.
    So we must work on those issues and certainly I hope that 
the issue of the other airport will become satisfactory to 
others in the delegation who have disagreements with this 
approach, and hopefully there would be something that would be 
able to go forward that would plan ahead for the Chicago area.
    I can tell you from my experience in working with airports 
that you can never plan soon enough for a new airport. So 
making sure that your airport has the maximum capacity, O'Hare, 
is very important, but also anything that is done for the next 
generation of airports is always going to be behind when you 
really needed it. And I speak from experience in the DFW area 
where we are still behind in the number of airports that we 
could use in the region.
    That is one part of my view of what would make this bill be 
able to go forward. The second part is that Senator Rockefeller 
and I have worked very hard to have the expedited environmental 
reviews and other ways of streamlining the process of building 
new runways and new airports. We passed a bill through this 
Committee and I think it has all of the right environmental 
protections, but it also allows the reviews to be done at the 
same time rather than one stacked on another, so that we will 
not have a 20-year wait. Because if an area needs a new airport 
or new runway, they have already started too late, you can 
count on that. Ask the people at Phoenix about the airport 
there, and there are several in California, but if you have to 
wait 20 years beyond when you start, you are going to have a 
glut in the air traffic system.
    So even though air traffic is down today, it is going to be 
back up next year and it will be in a crisis very shortly 
thereafter, and we need to plan ahead rather than always coming 
in when it is too late and we are in a crisis mode.
    So, it is going to be very important to me that Senator 
Rockefeller's and my bill, which is S-633, move forward as this 
bill moves forward. We have already gotten our bill out of 
Committee, I would like to see it move ahead of this bill, and 
I think it would help the Chicago situation, but it would also 
help other airports that will be looking at new runways in the 
very near future.
    So, I want to say that I hope we can push our bill onto the 
Senate floor. This bill and our bill are compatible if 
everything else is worked out in this bill.
    With that, Mr. Chairman, I am not going to ask questions, 
because I know you have had many panels before I was able to 
get here and many of the questions have been answered. But, I 
will work with you on this bill and I certainly hope, Mr. 
Chairman that your bill and my bill can be brought to the 
Senate floor very soon so that we can get it passed and help 
every airport in our country deal with the glut that we are 
going to have in the system, probably starting again next year. 
Thank you.
    Senator Rockefeller. Thank you, Senator Hutchison.
    Ms. Woodward, there has been sort of the feeling here that 
airports are just kind of being built everywhere, and that is 
not my impression. Now what we did when we passed the 
reauthorization of the FAA under most extraordinary 
circumstances, what the Congress was saying is come on, we have 
got to build runways. We have delays and we love to complain 
about it, but when it comes to the Congress doing anything 
about it, please do not look to us. Well, who are we meant to 
look to? There is nobody else to look to. We have to provide 
the funding. And so, we went ahead and did it, not sufficient, 
but substantial.
    One of the absolutely cruelest ironies to me would be if 
we, having that aviation which is already what, 2 years old, 
that legislation already 2 years old, if we passed it and then 
nothing happened. And I am sort of predicating for a response 
out of you, that in this sort of Seattle is doing this, St. 
Louis is doing that, and this and that, but in essence, we 
really have not done anything, and Secretary Skinner can 
reflect on this too. I mean, he referred to the Denver airport, 
and we really have not done anything in a major way since the 
completion of Denver, and that was 5 or 6 years ago.
    So, I mean this sort of concept that somehow airports just 
kind of pop up and get built, and runways get built, and we 
solve the Nation's air traffic, one, I would stipulate is not 
true. and second, are we in the process were this approach here 
not to prevail, of simply saying oh yeah, we will appropriate 
the money, but good heavens, please do not expect us to build 
any airports or do any runways.
    Now no age in that question, you understand, but I just 
wanted to----
    Ms. Woodward. Well, I think while progress has definitely 
been slow, we are seeing a lot right now, I do believe. We have 
two new runways that have been opened since the year 2000, 
Phoenix and Detroit. We just opened the Detroit one in 
December. We have eight airports with new runways under 
construction right now. We have Denver, Orlando, Miami, 
Houston, all to come on line in 2003, so about a year from now. 
We have Minneapolis in 2004, Atlanta in 2005, and Seattle and 
St. Louis in 2006. We have two airports that just got 
environmental EISs approved. In fact, Cincinnati will be doing 
their groundbreaking very soon. And we have five other airports 
considering new runways or reconfiguration.
    So while this has taken a while, I think we are going to 
see some progress. We did in this past year, and in the next 
couple of years we are going to see considerable progress, 
which is a good sign that your money is being well spent.
    Senator Rockefeller. All right.
    Secretary Skinner.
    Mr. Skinner. Well, I think you are correct. We built one 
new airport really, Denver. We did make a major commitment, 
Northwest Regional in Arkansas, and we have the new airport, 
Alliance Airport down near Dallas/Fort Worth.
    But other than those, we have basically been doing runway 
configurations and reconfigurations, and the busiest area for 
aviation in the country is off that list as of now, because we 
are not dealing with it, and the time has come to deal with it.
    Congress does not develop airports. Local municipalities 
working together develop airports. They have now done it.
    All this legislation does is make sure, just as everybody 
has said, that everybody understands the importance of it, and 
make sure it gets through its normal process, but it is done so 
in a way that at least places some kind of importance as they 
are doing on other airports, to accelerate the process, similar 
to what you have already done when you have suggested, and as 
Senator Hutchison suggested, we want to send a message to the 
FAA and the Administration that analyzing airports in their 
normal process is not good enough. We have to take all of these 
projects, prioritize them, and basically put them as a group, 
not individually picking them out to the top of the analysis 
bin, so to speak, so we can move forward.
    And it is a long process, and this legislation will help do 
that. Not only will I suggest will it help for O'Hare and 
Peotone, it will also help for all these other airports that 
are being held up.
    Senator Rockefeller. Thank you, sir.
    Senator Fitzgerald.
    Senator Fitzgerald. Thank you.
    Mr. Skinner, I want to welcome you here. You have had a 
very distinguished career in Chicago and nationally too, having 
been Secretary of Transportation, President of Commonwealth 
Edison, now President of U.S. Freightways, and probably you 
were most distinguished as U.S. Attorney going way back when, 
in Chicago.
    But I do want to ask you questions about the environmental 
part of this bill, because the way I read the bill, it exempts 
two airports from the Clean Air Act, both O'Hare and Peotone. I 
know that Senator Durbin was trying to change that, and I am 
sure that he was very well intentioned and well meaning here, 
and I am not sure that he recognizes how diabolical the 
attorneys who drafted the revised language actually are. I want 
to be clear on what the bill does. I believe the revised bill 
makes the Clean Air Act problem in the bill worse, not better.
    The key provision in the substitute bill is Section 
3(a)(5). This section literally states that an implementation 
plan shall be prepared by the State under the Clean Air Act for 
the new airports, but that the State shall, ``take no action 
with respect to the implementation plan that interferes 
directly or indirectly with timely construction of the O'Hare 
runway redesign plan or the south suburban airport.''
    Let me make clear for you what this means in plain English. 
The State of Illinois, which is responsible for bringing the 
Chicago area into compliance with EPA health standards, will be 
required to change its Clean Air Act plan to permit the two new 
airports, and in revising the plan, it cannot reject or require 
any kind of a change to either of these airport projects. And 
in effect, the State is required to give Clean Air Act approval 
to both airport projects.
    Now, other parts of Senator Durbin's bill pay lip service 
to the Clean Air Act and to not changing the law, but 
nonetheless, the effect of this provision is to turn the Clean 
Air Act on its head. If the State literally cannot require any 
change to either airport plan for Clean Air Act purposes, if it 
cannot do anything that would even indirectly affect timely 
construction of the new O'Hare runways or Peotone, then these 
projects have effectively been exempted from the Clean Air Act. 
The bill effectively requires the State to approve both 
projects and then adjust its Clean Air Act plan after the fact.
    Now, I am interested in hearing how you feel as President 
of U.S. Freightways, are you prepared to put the burden for 
reducing emissions in the Chicago area, the increased burden 
once O'Hare has doubled in size and Peotone is added, are you 
prepared to accept that burden for your shareholders at U.S. 
Freightways so that you do an additional load in reducing 
emissions in the Chicago area?
    Mr. Skinner. Well, I don't read--we are both lawyers and I 
suppose we could have an interesting dialog on what this means 
or doesn't mean. Neither one of us have been judges so I guess 
it will eventually probably go to the courts, I would guess 
based on what I have seen. But I noted the language at the 
bottom of that section you were quoting that says, ``nothing in 
this section shall be construed to affect the obligations of 
the State under Section 176(c) of the Clean Air Act.'' I would 
say that language probably modifies whatever is up here above 
and I would suggest that I know it is not the intention of 
anyone to get around the Clean Air Act, the environmental 
impacts statements, or the requirements of analysis based upon 
noise or safety. What they are trying to do is make sure that 
an obstructionist, an obstructionist whose purpose is not good, 
but partisan, does not unnecessarily use his--you know, fail to 
fulfill his obligations by doing nothing.
    Senator Fitzgerald. But they will have to put the burden of 
reducing emissions off on other industries, on trucks, on 
Commonwealth Edison, on power plants----
    Mr. Skinner. No, I don't think that's right. I think they 
have an analysis to make, they will make it as they are 
required by law, the State is. It will be reviewed at the 
Federal level and they will then make a determination whether 
it is appropriate. There is nothing in this legislation, 
Senator that says that they are going to shift the burden or 
bypass the process.
    Senator Fitzgerald. So you believe the State could require 
O'Hare to reduce its emissions?
    Mr. Skinner. Well, I think they clearly have it required 
under this Act. If the Federal law requires the State as part 
of this process to submit an environmental review and put 
certain requirements on the airport dealing with emissions or 
in the EIS, then they will meet those requirements.
    Senator Fitzgerald. I am just asking about whether it is 
placing a burden on them, and you do not think that is a 
possible interpretation?
    Mr. Skinner. Well, I think the interpretation is they can't 
sit on a study that they are obligated by law to do, and slow 
up the project because they haven't done what they are supposed 
to do under the Federal law.
    Senator Fitzgerald. And you do read this as saying that the 
State could require O'Hare to lower its emissions?
    Mr. Skinner. Well, I think the State could require O'Hare 
to do whatever they are obligated to do as part of a plan that 
they have submitted under Federal law under this legislation, 
whether it is before or after the passage.
    Senator Fitzgerald. Well, I believe this will put the 
burden for reducing nitrous oxide emissions on other 
industries. O'Hare is the leading source of pollution in the 
State of Illinois and if O'Hare as I read this, must be 
accommodated in the State's Clean Air Act implementation plan, 
then other industries such as yours will have to reduce their 
emissions to accommodate O'Hare. That is the way I read this, 
and I think that a lot of businesses in Chicago are not aware 
that they are going to be paying a lot of the price.
    Mr. Skinner. I don't read it that way and as I say, maybe 
we will have to get an independent arbitrator.
    Senator Fitzgerald. Maybe they can just take this provision 
out if none of these provisions are supposed to mean anything.
    Mr. Skinner. Well, I think, Senator, I know that you would 
like the bill to be a lot shorter and cleaner than it probably 
is, and no pun intended by the way, we all want it to be 
cleaner. But what I think we really are striving for is to make 
sure that the necessary findings are in here to justify the 
legislation so that when it is challenged, as it will be, that 
we made the proper Congressional findings, and that is what 
they are doing in the front of this bill. At the same time they 
are putting language in there that says that doesn't mean that 
you don't have to follow Clean Air, that you don't have to file 
an EIS.
    It asks that it receive normal consideration. O'Hare is 
going to go to the top of the pile under any scenario because 
of the magnitude of what's happened, the fact we haven't done 
anything for 20 years, and the fact that we have 15 airports 
that have runways under construction, and we have zip.
    Senator Fitzgerald. So the findings, you believe, would be 
binding in a later court challenge, but you do not think they 
are binding on the FAA?
    Mr. Skinner. Well, I think they are binding as to the 
purpose that the Congress took when they enacted this 
legislation. They are findings that said this is why we are 
doing what we are doing. It does not mean they are binding on 
the FAA because the language in there says it is not binding on 
the FAA.
    Senator Fitzgerald. Well, it does not quite say that.
    It says, ``this does not abrogate current laws,'' and it 
doesn't, because the FAA has to have a finding of purpose and 
Congress has done the finding of purpose for them.
    Ms. Woodward, if those findings were binding on you, would 
you object to them then?
    Ms. Woodward. Senator, unlike you and Secretary Skinner, I 
am not an attorney. I will have to have somebody look at that.
    Mr. Skinner. You can take my advice, Woodie, come on.
    [Laughter.]
    Senator Rockefeller. If you want to have a third round----
    Senator Fitzgerald. We pretty much covered most of the 
ground, Mr. Chairman, I think. These witnesses have been very 
patient, and you have been very generous with your time sitting 
through all this and being in Chicago last year, and I 
appreciate your interest, and I hope we can figure out a way of 
getting more flights to your State and accommodating delays 
too.
    Senator Rockefeller. If we improve the delay situation, 
Secretary Skinner, do we not save a little bit of fuel, which 
cleans up the air just a bit?
    Mr. Skinner. There is all kinds of advantages. The lost 
productivity. We have already placed, correctly so, we have 
already placed additional challenges to the air traffic system 
and the traveler today with the passage of our new security 
requirements. That means productivity. I mean, one of the 
reasons this country has done so well in a very difficult 
downturn, and we have held inflation down, is increases in 
productivity across this Nation. We want to make sure that 
those people, our customers, our employees, our vendors, are 
productive. It is hard to be productive when you are sitting at 
O'Hare waiting on a delay, and we are hopeful that this 
legislation will help us eliminate that, increase productivity 
for the Nation, and still keep our air clean, our environment 
quieter, and our Nation more productive.
    We thank you very much. I do on behalf of the Civic 
Committee and all of us in Illinois and Chicago, we thank you 
especially for your consideration. You came to Chicago, you put 
this in a proper priority on your agenda and we appreciate it, 
and we look forward to working with the Committee, with the 
Governor, with the Mayor in making this happen, and even 
working with Senator Fitzgerald, although he and I seem to have 
a disagreement here that I am not sure we are going to resolve 
today. Thank you very much.
    Senator Rockefeller. Thank you. You know, I have to put in 
a plug for the Mayor, because I was told after he left that his 
wife was heavily involved, potentially in charge of the making 
of the parks at Meigs Field. Is he still here, the Mayor?
    Mr. Geils. No.
    Senator Rockefeller. So that really impresses me.
    [Laughter.]
    I mean, you talk about making a tough compromise. I mean, 
this man had to do it.
    Mr. Skinner. That explains why it was one of the last items 
on the table.
    Senator Rockefeller. I want to thank all three of you very 
very much. Mr. Secretary, it was great to see you again.
    Mr. Skinner. Good to see you, Senator. Thank you very much.
    Senator Rockefeller. Mr. Geils, thank you very much.
    Ms. Woodward, you passed with flying colors your first 
testimony, and we look forward to working with you for years to 
come.
    Ms. Woodward. Thank you.
    Senator Rockefeller. Thank you. This hearing is adjourned.
    [Whereupon, the hearing adjourned at 12:15 p.m.]

                            A P P E N D I X

 Prepared Statement of Gerald J. Roper, President and CEO, Chicagoland 
                          Chamber of Commerce

    Good morning and thank you for the opportunity to speak on behalf 
of the Chicagoland business community.
    I'm Jerry Roper, President and CEO of the Chicagoland Chamber of 
Commerce. The Chicagoland Chamber of Commerce has served independent 
business throughout the Chicagoland region since 1904. The Chamber's 
over 2,600 members employ more than one million workers in the region.
    I come before you today to reiterate our full support of the 
National Aviation Capacity Expansion Act--a comprehensive plan to 
address congestion and delay in our Nation's aviation system.
    Modernizing O'Hare International Airport and adding aviation 
capacity in the Midwest is not just a regional economic issue. It is a 
national crisis.
    Congestion and delays at O'Hare, the world's busiest airport, 
disrupt the entire Nation's aviation system and cost businesses 
millions of dollars in lost productivity. Improving O'Hare will yield 
annual passenger-delay savings of over $300 million and will 
drastically reduce weather-related delays that have plagued the 
national system for years.
    In addition to improved operational efficiency, modernizing O'Hare 
and adding capacity in the south suburban Peotone, IL, will create 
thousands of jobs and spur economic growth throughout the State and the 
entire Midwest region.
    Chicago's airports--O'Hare, Midway and Meigs--inject over $35 
billion annually to the Nation's economy and sustain over 500,000 jobs. 
No other activity or industry has a greater impact on our regional 
economy.
    If O'Hare is left in its current State, our national aviation 
system will continue to suffer delays and businesses around the Nation 
that rely on an efficient and stable transportation system will 
continue to endure millions of dollars in' lost time and revenue. In 
today's economy, every business competes in a global market and must 
have the ability to efficiently ship goods, services and employees 
across the Nation and around the world. Costs imposed by an inefficient 
air transportation system hamper American businesses in the 
international market.
    I am pleased the debate has begun in Congress and I'm encouraged by 
the reception the National Aviation Capacity Expansion Act has received 
thus far. I look forward to further public debate on this legislation 
because I feel the benefits of the plan will become apparent to all who 
seriously consider the proposal. This plan is essential to creating a 
strong national aviation system. The cost of inaction is too high and 
this issue is too important to be delayed any longer. Failure to pass 
the National Aviation Capacity Expansion Act will cost this Nation 
billions of dollars and hundreds of thousands of jobs.
    We have developed a strong coalition of Business, organized Labor, 
transportation officials, professional associations and economic 
development experts in support of the plan. Both the U.S. Chamber of 
Commerce and the AFL-CIO support the measure, and I believe that speaks 
volumes about its importance.
    Members of Congress from around the Nation have called on our 
region to develop a consensus solution to this issue and we have done 
so. We ask that you now act to support this essential piece of the 
national aviation system and our economy. We stand ready to support you 
in this effort. Thank you again for your concern and effort regarding 
this matter.
                               __________
   Prepared Statement of John W. Creighton, Chief Executive Officer, 
                            United Airlines

    Chairman Hollings, Ranking Member McCain, and other Members of the 
Committee, on behalf of United Airlines' 84,000 employees worldwide, 
thank you for the opportunity to submit testimony for this critical 
infrastructure hearing. As Chicago's and Illinois' hometown airline, we 
appreciate the chance to explain why we strongly support the National 
Aviation Capacity Expansion Act, and believe swift passage of this 
legislation is vital to the United States and Chicago area economies, 
consumers and our air transportation system.
    At the outset, I wish to express United's gratitude to four 
individuals who have made the National Aviation Capacity Expansion Act 
and this hearing possible. Senator Durbin has worked tirelessly to 
ensure that the Chicago region remains the pre-eminent aviation 
crossroad both domestically and internationally. We greatly appreciate 
his steadfast leadership for Chicago aviation and his efforts writing 
this legislation and shepherding it through the Senate. Presiding 
Chairman Rockefeller, thank you for holding this timely hearing. You 
have been one of the most outspoken Congressional aviation leaders 
supporting much needed capacity expansion in the national aviation 
system. We are grateful for that leadership. Last but certainly not 
least, I wish to express our deep appreciation to Chicago Mayor Richard 
Daley and Illinois Governor George Ryan whose historic agreement is the 
foundation of this legislation. It took a great deal of political 
courage, vision and hard work to reach this agreement paving the way 
forward for Chicago aviation to fully meet its needs up to 2030. After 
nearly two decades of inaction and political gridlock, thank you for 
helping position Chicago aviation to soar even higher.
    A little over six months ago, aviation debate in the United States 
focussed largely on the long overdue need to expand national air 
transportation system capacity. The state of United States aviation 
conjured up images of gridlock, system choke points and congestion-
related cancellations and delays. The horrific events of September 11 
necessarily refocused national aviation policy. None of us ever 
imagined that a time might come when we looked back nostalgically on 
the chance to focus on system capacity as our Nation's key aviation 
priority.
    Mr. Chairman, while the downturn in commercial flights resulting 
from September 11 has temporarily masked our Nation's air 
transportation infrastructure challenges, the need to address them 
remains more critical than ever before. As an industry, we are seeing a 
gradual increase in flights from September 11-related lows. As the 
economy recovers and the travelling public continues to gain confidence 
in heightened security measures, I predict that commercial flights will 
resume the steady path of annual growth that has been the hallmark of 
our industry since deregulation over two decades ago. While now 
certainly is the time to continue focussing on security and other 
impacts of September 11 on our industry, United Airlines believes it 
also is the time to look forward and proactively address aviation 
capacity challenges that inevitably will reemerge. Now, during this 
temporary capacity pause, Congress has the opportunity to take historic 
action.
    That brings me to the situation at our hometown airport, Chicago's 
O'Hare
    International Airport. As Secretary Norman Mineta and others have 
acknowledged, O'Hare is the single worst choke point in our Nation's 
air transportation system. Too many flights operating on inefficiently 
designed runways have proven to be a recipe for O'Hare-related 
congestion cancellations and delays that literally ripple nationwide.
    Simply put, O'Hare is a remarkable facility but badly in need of 
modernization. Despite the inefficient design of its seven, runways, 
O'Hare has once again earned the title of the world's busiest airport 
back from Atlanta's Hartsfield International Airport. However, most 
telling is the fact that Hartsfield runs neck-and-neck with O'Hare in 
terms of total annual operations with just four efficiently designed 
parallel runways while O'Hare competes to stay ahead while operating 
seven runways based on an outdated and inefficient design.
    The runway capacity shortage at O'Hare did not sneak-up on United 
Airlines, Senator Durbin or the City of Chicago. The need for 
additional runway capacity at O'Hare has been recognized for years. For 
instance, in 1991, the Chicago Delay Task Force in its final report 
concluded that new O'Hare runways ``represent the greatest opportunity 
to reduce delays in Chicago, particularly during bad weather 
conditions.''
    More than a decade ago, a Task Force that included Chicago's 
Department of Aviation, the Federal Aviation Administration, airport 
users and air traffic controllers correctly diagnosed the problem. This 
group prescribed precisely the right remedy. Yet, while O'Hare-related 
delays increasingly rippled throughout our national air transportation 
system, no corrective action was taken.
    The problem was political gridlock. For nearly two decades, 
differences in opinion among local and State officials prevented a 
solution from being reached to meaningfully address capacity problems 
confronting all Chicago airports. This impasse finally ended when 
Governor Ryan and Mayor Daley agreed on a historic runway redesign plan 
to modernize O'Hare. It is a hard fought and delicately balanced 
agreement between two leaders with strong views on how best to meet the 
air transportation needs of the Chicago area and the entire region, as 
well as the State. It is an agreement that United Airlines, the 
Chicago-area business community and an overwhelming large percentage of 
local residents strongly support.
    The National Aviation Capacity Expansion Act simply codifies the 
Ryan-Daley agreement into Federal law. Importantly for any Senator 
sensitive that the legislation may raise Federalism issues, it does not 
impose a Federal decision on local decisionmakers. To the contrary, it 
codifies a local decision. By making the Ryan-Daley agreement Federal 
law, the National Aviation Capacity Expansion Act ensures that O'Hare 
expansion will become a reality in the near future by prohibiting the 
next Governor or Mayor from changing the terms of the agreement. The 
stars aligned when Governor Ryan and Mayor Daley brought their unique 
leadership skills to bear to meet Chicago's current and future aviation 
challenges. It took nearly two decades for this to happen. In the 
absence of Congressional action, there is no guarantee a future 
Governor or Mayor will not modify the agreement in a way that leads 
back to political gridlock, inaction for perhaps decades and continuing 
harm to our Nation's air transportation system and the traveling 
public.
    As Chicago's hometown airline, United Airlines obviously has a 
significant interest in the modernization of O'Hare. O'Hare is the 
anchor of our global network so the efficiency of O'Hare and the 
efficiency of our network are inextricably linked. Moreover, United's 
ongoing ability to fully respond to the traveling needs of our valued 
customers depends on O'Hare becoming a 2111 century airport. If the 
Ryan-Daley agreement is permitted to modernize O'Hare, United Airlines 
finally will have the operational flexibility to fully expand 
competitive service offerings.and small community flights as market 
conditions warrant. Importantly, modernization of O'Hare is also an 
important part of United's financial recovery plan and critical to our 
long-term success.
    Mr. Chairman, aside from the interest of United Airlines and our 
customers in the modernization of O'Hare, there is a broad array' of 
other stakeholders who are depending on the Ryan-Daley agreement. I 
would like to take a few moments to briefly mention some of the other 
stakeholders in the National Aviation Capacity Expansion Act.
    First, modernizing and expanding O'Hare is a national economic 
issue and should be considered to be a national economic priority. One 
fact that was reinforced in the aftermath of September 11 is that 
commercial aviation is an economic engine. When our national air 
transportation system is vibrant and efficient, the United States' 
economy benefits. When it is not, our economy suffers.
    I think few would argue with the fact that O'Hare congestion-
related cancellations and delays are not just frustrating and 
inconvenient, they also negatively impact our economy. It is impossible 
to place an economic value on the disappointment a parent traveling on 
business feels when an O'Hare-related congestion problem prevents her 
from participating in an important family event in Orlando. However, it 
is possible to quantify some of the many economic costs of congestion 
delays. For instance, initial analysis showed delays in 2000 cost the 
airlines an estimated $6.5 billion, up from $5.4 billion in 1999. A 
sizeable portion of that amount is attributable to O'Hare. This is just 
one economic cost of delays, and does not include the cost of missed 
sales meetings, cancelled appointments, and lost productivity resulting 
from delays. Passage of the National Aviation Capacity Expansion Act 
will help eliminate the myriad of national economic losses resulting 
from O'Hare-related congestion and that clearly is in the best interest 
of our country.
    Second, the Chicagoland regional economy is a very significant 
stakeholder in passage of this legislation. In fact, swift passage of 
the National Aviation Capacity Expansion Act would be tantamount to 
approving an economic stimulus bill for the United States' economy, 
with the Chicago area and our entire economic region being the 
principal beneficiaries. O'Hare is one of the largest employers in the 
Chicago region with more than 50,000 direct employees and an additional 
365,000 jobs that indirectly depend on it. Currently, O'Hare generates 
more than $37 billion in annual economic impact, including about $10 
billion in annual payroll. It has been estimated that modernization 
would increase O'Hare related employment by nearly 200,000 jobs and 
increase annual economic benefits by an estimated $16-$20 billion. 
Conversely, it is estimated that failure to modernize O'Hare will 
deprive Chicago's economy of $8-$10 billion annually in economic output 
by 2015.
    Third, consumers are key beneficiaries and stakeholders in the 
passage of this legislation. In the first phase of. the Ryan-Daley plan 
alone, it is estimated that O'Hare customers will see a 36 percent 
decrease in overall delays. Additionally, 50 percent of bad weather 
delays will be eliminated. Moreover, it is estimated that the first 
phase will bring $171 million in annual passenger delay savings. The 
consumer benefits of this legislation are even more dramatic when the 
projected benefits of the fully implemented Ryan-Daley plan are 
considered. It is estimated that by its final phase 95 percent of bad 
weather delays will be eliminated. At the same time, consumers will 
experience a 79 percent decrease in overall delays and enjoy $380 
million in annual passenger delays savings.
    Finally, our national air transportation system will benefit 
greatly if this legislation is passed. Given its importance as a 
national and international hub, improving and modernizing O'Hare is 
essential for a safe, efficient and on-time national aviation system. 
From a national system standpoint, if O'Hare were to remain a 
congestion choke point, this likely would marginalize any congestion 
relief progress we make elsewhere in system. Simply put, while solving 
the O'Hare congestion problem is not a silver bullet for all capacity 
challenges in our system, it is difficult to imagine any meaningful 
progress on a system-wide basis if the O'Hare problem is not addressed.
    Let me summarize my remarks and conclude them. In the summer of 
2001, this Committee issued a challenge to the leadership of the State 
and local governments to end the political gridlock and to craft a 
realistic blueprint for modernizing O'Hare. Governor Ryan and Mayor 
Daley rose to the occasion and met that challenge. Now, United Airlines 
believes it is time for Congress to do its part by passing the National 
Aviation Capacity Expansion Act to codify their agreement and ensure 
their vision for putting Chicago aviation back on-course until 2030 
becomes a reality. It has been a very long journey for the traveling 
public to this point. Passage of this legislation will guarantee there 
is light at the end of the tunnel.
    Mr. Chairman, United Airlines believes the National Aviation 
Capacity Expansion Act is in the best interest of the United States 
economy since it will help eliminate the substantial nationwide adverse 
economic costs O'Hare-related congestion imposes on our air 
transportation system. It will provide very welcome economic stimulus 
for the national economy, the Chicago area and our entire region. It 
also will significantly benefit consumers, represents a huge step 
forward in addressing our national aviation infrastructure challenges, 
and is critical to United's continuing ability to fully and efficiently 
serve our customers. For all these reasons, we strongly support the 
National Aviation Capacity Expansion Act and urge this distinguished 
Committee to seize this historic opportunity to modernize O'Hare by 
supporting its swift passage in the Senate.

                               __________

    Prepared Statement of R.E. Ruthenberg B.S.E.E., Principal Staff 
                               Engineer, 
                             Motorola, Inc.

    Illinois cancer incidence statistics from the Illinois State Cancer 
Registry were examined for all zip code areas within a 10 mile radius 
of O'Hare airport, to attempt to determine whether there appear to be 
any zip code-based ``hot spots'' with significantly higher than average 
area incidence rates, that might be related to O'Hare emissions. Source 
data can be obtained at: http://www.idph.state.il.us/about/epi/
cancer.htm
    Zip code area identification resulted in 69 areas, after deleting 
zero-population areas (e.g. major corporate sites). Year 2000 
population for each area was obtained and combined with the sorted 
cancer incidence statistics to create the final comparison figures.
    All figures in this report summarize the 5-year period 1994-1998. 
The State overall rates for this period were: LCI=1.981 percent, Mean: 
1.998 percent, UCI: 2.015 percent. That is, a mean 1.998 percent of the 
State population experienced cancer incidence during this period, with 
a 95 percent confidence level range of 1.981-2.015 percent. [``LCI/
UCI''=Lower/Upper Confidence Interval, here for 95 percent 
probability.]
    A word on statistical methods is in order here. A ``Normal 
Distribution'' is often experienced in nature or in statistics 
involving large quantities that are randomly distributed around some 
mean level. The data set for the entire State is large enough (some 
280,000 incidences) that a normally distributed result would be 
expected. However, a normal distribution cannot be assumed for the 
results of this analysis because (a) the number of zip code areas (69) 
is small and (b) the actual variation across the zip code set is 
presumed to have a high probability of a decidedly non-random 
variation.
    Thus, median levels are used here instead (half of the points 
greater than and half less than) and ``standard deviations'' and 
confidence intervals based on a ``normal'' distribution assumption are 
not established.
    The median cancer incidence rate for the 69 zip codes within 10 
miles of O'Hare is determined to be 2.57 percent for the 5-year period 
[see Appendix for specific data.] This is about 29 percent greater than 
the 2 percent Illinois State; average and as such would already be 
considered high. Further, since these large population areas make up a 
part of the State average, it would be expected that areas outside; of 
the Chicagoland urban pollution influence might be experiencing 
substantially lower rates than that average (perhaps around 1.5 
percent).
    Though this (high) median incidence level and its relativity to the 
State average is of interest, the primary objective here is to look for 
geographical variation patterns within the 10 mile radius area and to 
determine if there appears to be any O'Hare proximity correlation.
    The first examination is characterized in figure 1, which plots the 
overall incidence rate (again, the reader is reminded that this is a 5 
year rate) for each of the 69 zip code areas, generally comprising a 1-
4 percent range. The Harwood Heights 60706 zip code area shows an 
extreme incidence of 7.43 percent, well beyond the range of the other 
areas and, after rechecking source data, the reason for this anomaly 
remains unknown. Figure 1 generally demonstrates a middle range of 
incidence rate data points between 2-3 percent, a low range of <2 
percent and a high range of >3 percent.
    Another broad scale data examination for potential O'Hare 
correlation is shown in figure 2, where cancer incidence rates are 
plotted versus the zip code area's distance from the airport. No clear 
correlation appears. This might be expected, as distance by itself is 
not the only key variable to pollutant travel; direction relative to 
prevailing winds as well as pollutant distribution in and near the 
airport confines will affect results. Thus two areas of equal distance 
but on opposite sides of the airport could experience significantly 
different pollution levels with correspondingly different pollution-
caused cancer rates. Any such trends are hidden in figure 2 by the 
congestion of all the data points.
    The figure 3 area map brings direction as well as distance into the 
data examination. Zip code based incidence rates (rounded to one 
decimal place) were classified into the three previous categories i.e. 
Middle=2-31 percent (median=2.57 percent), Low=<2 percent and High=>3 
percent. Though somewhat arbitrary, it is felt that reasonable people 
would consider a range of 33 percent-50 percent (4 percent/3 percent 
range upper limits and 3 percent/4 percent lower limits) increase in 
incidence rates versus the middle range to be very ``high'' relative to 
that rangeand rates less than the State average of 2 percent to be 
``low''. BAs compared to the 2 percent State average level, the 
``High'' rates would be considered ``Very High'' (50-100 percent 
greater).]
    The 12 High incidence rate areas are plotted on the map, as these 
are the areas of interest. The 9 Low and 47 Middle range areas are not 
plotted, as they can generally be visualized as ``everything else''.
    The mapped results clearly show a preponderance of cancer incidence 
``hotspots'' to the northeast of the airport. This airport correlation 
may not be surprising considering that the prevailing winds here, 
especially in the summer when people are outdoors more, tend to blow 
toward the northeast. Also, inversion layers occurring over the lake or 
breezes off the lake (land/water temperature difference) may tend to 
create ``walls'' that traps pollutants in the area between the airport 
and the lakefront.
    There also are some hotspot areas directly south of the airport and 
these would tend to correlate with the relatively heavy flight traffic 
to the south. A good way to see where the average airport traffic flows 
are is to look at the figure 4 noise contour map, as the contours tend 
to follow the flight pattern intensity. Further, the contours 
inherently factor in aircraft altitudes, as higher aircraft create less 
noise and considering that ground level pollution is the primary 
concern, higher altitude aircraft will result in longer ``drift'' 
distances before their emission by-products reach the ground (with 
correspondingly greater dispersion). It would be expected that the 
greatest emission concentrations would be at or near ``ground zero'' 
i.e. the airport confines and perhaps a few mile radius (departing 
aircraft will generate greater net emissions, including from ground 
idling/run-up, but will reach greater altitudes at a given distance 
than arriving aircraft).

                              CONCLUSIONS

    Mapping of the cancer incidence data for the 5-year period of 1994-
1998 appears to show a clear tendency for the incidence rates to be 
significantly higher in and correlated to the O'Hare airport 
``downwind'' areas to the northeast. Those living in the northeast 
areas are experiencing between 50-100 percent greater cancer incidence 
rates than the State average and 33-50 percent greater than the local 
area median.
    There seems on the surface to be no other logical reason for this 
incidence concentration; automobile traffic distributions are fairly 
even throughout the general area and the ``hotspot'' areas are 
relatively dispersed such ass to mitigate any extreme local conditions 
e.g. a nearby manufacturing facility. Though not studied, age and life 
style distributions would seem to be fairly uniform throughout these 
similar neighborhoods.
    The cancer incidence rates studied here are reported from the 1994-
1998 period, which is about 6 years ago already. Cancer due to 
pollution exposure is generally not an instantaneous function. That is, 
there is some latency exposure period, with the time frame generally 
measured in years and latency an inverse function of the pollution 
concentration. Thus, the cancer incidences of 1994-1998 were a result 
of pollution exposure years or even decades prior to that time. It can 
be safely stated that the levels of airport pollution are much higher 
today than decades ago and if airport traffic continues to expand, will 
be substantially higher in the future.
    Thus, the high cancer (hotspot) incidence rates summarized here are 
probably precursors of much worse times to come, if nothing changes, 
since children and the middle-aged are already exposed to increasingly 
higher pollution levels than years/decades ago (the elderly's fate is 
pretty much already determined).
    The odds are not good, remembering that the incidence rates here 
are not cumulative i.e. they are for one 5-year ``window''. Thus if the 
High rate is nominally 3.5 percent per 5 years, today's 5 year old 
child can look forward to a cancer probability of 14 percent at age 25, 
28 percent by age 45 and 42 percent upon retirement at age 65! But the 
situation is actually worse, because the pollution levels are already 
much higher than during the exposure period related to the 3.5 percent 
rate.
    It seems clear that O'Hare airport pollution generation must be 
substantially reduced (50:1?) in the near future in order to avoid 
future medical crises.

[GRAPHIC] [TIFF OMITTED] T9638.001



[GRAPHIC] [TIFF OMITTED] T9638.002




                                                    Appendix
                                      [Statistics Summary by Zip Code Area]
----------------------------------------------------------------------------------------------------------------
                                                                                                       Percent
                 ZIP                           City              Miles         POP       Total No.      Total
                                                                                          Cancers    Cancers/POP
----------------------------------------------------------------------------------------------------------------
60004...............................  Arlington Heights.....          9.1       52,962         1343         2.54
60005...............................  Arlington Heights.....            7       31,504          872         2.77
60007...............................  Elk Grove Village.....          5.6       36,390          800         2.20
60008...............................  Rolling Meadows.......            9       22,859          486         2.13
60016...............................  Des Plaines...........          3.8       59,046         1654         2.80
60018...............................  Des Plaines...........          1.5       28,814          729         2.53
60025                                 Glenview..............            7       48,580         1453         2.99
60026...............................  Glenview Nas..........          7.8        1,476            0          [0]
60029...............................  Golf..................            7           70           12      [17.14]
60053...............................  Morton Grove..........          6.5       23,032          779         3.38
60056...............................  Mount Prospect........          5.6       55,508         1420         2.56
60062...............................  Northbrook............          9.6       41,363         1383         3.34
60068...............................  Park Ride.............          3.1       37,274         1319         3.54
60070...............................  Prospect Heights......            8       16,156          383         2.37
60076...............................  Skokie................            9       33,874         1104         3.26
60077...............................  Skokie................          7.7       24,507          941         3.84
60082...............................  Techny................          8.8        1,385           25         1.81
60101...............................  Addison...............            7       17,583          685         1.82
60104...............................  Bellwood..............          7.6       20,492          421         2.05
60106...............................  Bensenville...........          3.8       22,614          437         1.93
60126...............................  Elmhurst..............          7.2       44,761         1289         2.88
60130...............................  Forest Park...........          9.2       15,446          366         2.37
60131...............................  Franklin Park.........            4       19,874          536         2.70
60141...............................  Hines.................          9.9          976           15         1.54
60143...............................  Itasca................          6.5       10,248          243         2.37
60153...............................  Maywood...............          8.4      217,415          624         2.28
60154...............................  Westchester...........          9.6       16,656          670         4.02
60157...............................  Medinah...............          8.4        2,321           81         3.49
60160...............................  Melrose Park..........          6.5       22,823          536         2.35
60162...............................  Hillside..............          8.1        7,971          236         2.96
60163...............................  Berkeley..............          7.3        5,195          157         3.02
60164...............................  Melrose Park..........          5.1       21,545          613         2.85
60165...............................  Stone Park............          6.1        4,927           47         0.95
60171...............................  River Grove...........          5.2       10,896          320         2.94
60172...............................  Roselle...............          9.2       25,849          433         1.68
60173...............................  Schaumbur.............          8.8       11,479          122         1.06
60176...............................  Schiller Park.........          2.6       11,701          241         2.06
60181...............................  Villa Park............          8.8       31,046          683         2.20
60191...............................  Wood Dale.............          4.8       14,394          363         2.52
60203...............................  Evanston..............           10        4,540          126         2.78
60301...............................  Oak Park..............          8.6        1,944           50         2.57
60302...............................  Oak Park..............          8.6       33,021          776         2.35
60304...............................  Oak Park..............          9.8       17,541          300         1.71
60305...............................  River Forest..........          7.8       11,665          353         3.03
60630...............................  Chicago...............          7.1       53,732         1468         2.73
60631...............................  Chicago...............          4.3       29,179         1051         3.60
60634...............................  Chicago...............          5.9       74,513         2186         2.93
60639...............................  Chicago...............          8.7       96,666         1282         1.33
60641...............................  Chicago...............          8.2       74,270         1459         1.96
60645...............................  Chicago...............           10       45,174         1301         2.88
60646...............................  Chicago...............          7.1       27,019         1022         3.78
60656...............................  Chicago...............          4.1       35,744          920         2.57
60659...............................  Chicago...............          9.8       41,504          844         2.03
60666...............................  Amf Ohare.............            0        1,739            0            0
60706...............................  Harwood Heights.......          4.6       12,277          912         7.43
60707...............................  Elmwood Park..........          6.2       44,733         1132         2.53
60712...............................  Lincolnwood...........          8.2       12,321          465         3.77
60714...............................  Niles.................          4.9       30,935         1252         4.05
 ...................................  TOTALS................                 1,549,529        40720
 ...................................   .....................                                Median=        2.57%
----------------------------------------------------------------------------------------------------------------

                              ----------                              

     Prepared Statement of National Air Transportation Association
    Mr. Chairman and Members of the Subcommittee:
    The National Air Transportation Association (NATA), the voice of 
aviation business, is the public policy group representing the 
interests of aviation businesses before Congress, Federal agencies and 
State governments. NATA's 2,000 member companies own, operate and 
service aircraft. These companies provide for the needs of the 
traveling public by offering services and products to aircraft 
operators and others such as fuel sales, aircraft maintenance, parts 
sales, storage, rental, airline servicing, flight training, Part 135 
ondemand air charter, fractional aircraft program management and 
scheduled commuter operations in smaller aircraft. NATA members are a 
vital link in the aviation industry that provides services to the 
general public, airlines, general aviation, and the military. On behalf 
of these members, thank you for the opportunity to present this 
statement.
    Our members are pleased that Chicago's Mayor Daley and Illinois 
Governor Ryan were able to reach an effective compromise on Meigs Field 
before the current agreement on the Airport expired last December. NATA 
has always maintained that Meigs is not only a vital resource for the 
City of Chicago but also truly a national one warranting long-term 
preservation. It is an asset for all of general aviation but especially 
for critical activities like the City's emergency services including 
search and rescue operations.
    S. 1786, offered by Senators Richard Durbin (D-IL), Tom Harkin (D-
IA), and Charles Grassley (R-IA), and H.R. 3479, offered by Congressman 
William Lipinski (D-IL)--more commonly known as the ``National Aviation 
Capacity Expansion Acts''--provide for the long-term viability of Meigs 
Field. Ensuring the continued viability of Meigs should at the same 
time alleviate congestion at Midway and O'Hare and help enhance 
aviation's access to the Chicago area.
    Under the legislation, the Airport must be kept open through 2006; 
development of an additional airport near Peotone, Illinois, may 
proceed; and a 4-runway expansion of O'Hare International Airport is 
guaranteed. After 2006, the State legislature has the ability to close 
the Airport, although that possibility is considered remote because the 
legislature has traditionally been supportive of maintaining Meigs. 
Barring any unforeseen problems, Meigs would then be open through at 
least 2026.
    NATA believes there are several critical factors arguing for 
enactment of this legislation to solidify the agreement between 
Governor Ryan and Mayor Daley:
    <bullet> As a critical reliever airport to O'Hare and Midway 
airports, Meigs Field plays an integral role in our national air 
transportation system by providing quick access to Chicago's downtown 
business district and for emergency support services.
    <bullet> Closing Meigs would result in more congested airspace at 
and around O'Hare and Midway and would undoubtedly reverberate in the 
form of additional delays at America's airports.
    <bullet> With its air traffic control tower, the continued 
operation of Meigs enhances aviation safety in and around the downtown 
area by providing positive aircraft control.
    <bullet> A 4-runway expansion of O'Hare International Airport is 
desperately needed to alleviate future nationwide congestion and 
delays.
    <bullet> Development of an additional airport near Peotone, 
Illinois, will play a critical role in easing congestion and delays 
throughout our Nation's air transportation system in the decades ahead.
    NATA congratulates Mayor Daley and Governor Ryan on their efforts 
to craft an effective compromise on Meigs field before the current 
agreement on the Airport expired. We anxiously look forward to 
enactment of the concepts embodied in S. 1786 and H.R. li 3479 as the 
means by which Meigs Field may be preserved and the long-term viability 
of air transportation to and from Chicago may be enhanced.
    Thank you for the opportunity to present this statement. We stand 
ready to answer any questions the Members may have.

                               __________

             Prepared Statement of Phil Boyer, President, 
                 Aircraft Owners and Pilots Association

    Chairman Hollings, Ranking Member McCain, and members of the 
Committee, I would like to thank you for the opportunity to submit 
written testimony for today's hearing. My name is Phil Boyer, and I am 
President of the Aircraft Owners and Pilots Association (AOPA). AOPA 
enjoys the financial support of over 380,000 dues-paying members. Our 
objective as an association is to promote the interests of those who 
contribute to our economy by taking advantage of general aviation 
aircraft to fulfill their business and personal transportation needs. 
More than half of all pilots in the United States are members of AOPA, 
making it the world's largest pilot organization.
    I am very pleased to have the opportunity to submit comments for 
the record regarding the National Aviation Capacity Expansion Act. On 
December 5, 2001, Illinois Governor George Ryan and Chicago Mayor 
Richard Daley inked an historic political deal that will preserve 
Chicago's flagship GA airport Meigs Field for another 25 years, expand 
O'Hare International, and expedite the creation of a new airport at 
Peotone. AOPA is a strong supporter of this agreement, focusing on its 
importance to preserving Meigs Field. We believe it is vital that the 
Governor and Mayor's compromise agreement be embodied in Federal 
legislation. AOPA has pledged its support to both Senator Dick Durbin 
and Representative William Lipinski and continues to work to ensure 
passage of the National Aviation Capacity Expansion Act.

                       CONGRESSIONAL LEGISLATION

    The Senate and House bills (S. 1786/H.R. 3479), identical in title 
and similar in content, sponsored respectively by Senator Dick Durbin 
and Representative William Lipinski, would codify the agreement reached 
by Governor Ryan and Mayor Daley. The congressional decision to address 
the agreement legislatively reflects the importance of Chicago's 
airports in the National Aviation System. Not just an Illinois issue, 
there are national benefits to meeting capacity needs by keeping Meigs 
Field open, expanding O'Hare, and building a new airport at Peotone.

Chicago Area Airport Capacity is a National Issue
    Chicago area airport capacity affects air transportation virtually 
everywhere in the United States and has an impact on international 
flights. Chicago is a key transportation center, both as an originator 
of traffic and a connecting point for flights. Chicago airports are 
national airports and essential to the flow of traffic throughout the 
United States and around the world--delays in the Chicago area affect 
airports across the country and around the world.

System Capacity Enhancements are Critical
    The National Aviation System capacity is returning to crises 
proportions. According to the Federal Aviation Administration, traffic 
is quickly returning, by as much as 99 percent of the levels reported 
prior to the events of 9/11. February traffic levels were actually 
higher in 2002 than last year. Additionally, more people are turning to 
general aviation. This combination of factors means that the Nation is 
once again going to face the need for comprehensive planning that 
affects the Nation's air traffic and transportation. Earlier this year 
Secretary Norman Mineta stated that 50 miles of new runways in this 
country need to be added in the next 10 years to handle the growth of 
aviation. Without Meigs Field, the amount will increase to 51 miles--
shutting down a perfectly good airport makes little sense when we are 
desperately trying to expand capacity.
    Capacity enhancements require massive amounts of Federal funds; and 
the Nation must ensure that these investments are managed in the most 
efficient and effective manner. Chicago O'Hare is designated as one of 
the Nation's four slot-controlled (High Density Traffic) airports, 
where the Federal government limits the number of large aircraft taking 
off and landing. The O'Hare slot controls, which will be eliminated by 
July 1, 2002, as outlined in provisions contained in AIR-21, clearly 
illustrate a national interest in the Chicago area's aviation 
improvements. Additionally, hundreds of millions of Federal dollars 
have already been spent in soundproofing and other local investments, 
clearly illustrating a national interest in the Chicago area's aviation 
improvements. It is proper in these times of fiscal accountability for 
the U.S. Congress to provide strong assurances for Federal investments 
in the aviation infrastructures in the Chicago area.

       HOW THE CONGRESSIONAL LEGISLATION AFFECTS THE GA COMMUNITY

    Chicago's airports, some of the busiest aviation hubs in the 
nation, are also among the most delay ridden. With the ongoing concern 
with respect to capacity problems in the Chicago area and nationwide, 
it is logical to keep Meigs Field--Chicago's premier GA airport--open. 
The 14 general aviation airports in the area, including Meigs Field, 
are part of the solution to airspace congestion in the Chicago area and 
the overall system. AOPA was happy to learn that the Senate version of 
the legislation concerning Meigs Field has been amended to reflect that 
of the House bill, requiring funding for Chicago's O'Hare airport to be 
withheld by the FAA unless the Administrator is reasonably satisfied 
that Meigs Field either is being operated by Chicago as an airport or 
has been closed by the FAA for reasons beyond Chicago's control.
    Meigs Field serves as an important air transportation access point 
for both airplanes and helicopters to Chicago's business district, and 
State office building. The close proximity of the airport saves over an 
hour for those conducting business in the Loop--closing it has been 
compared to eliminating a perfectly good off-ramp from the interstate 
highway system. No other facility provides access to downtown like 
Meigs Field--it is an essential part of Chicago's economy.

        HISTORY OF CHICAGO'S MEIGS FIELD--ICON THE GA COMMUNITY
 
   Opened in 1948, Chicago's Merrill C. Meigs Field is an important 
reliever airport to Midway and O'Hare Airports for business and general 
aviation aircraft--with approximately 50,000 operations per year. 
Located on Lake Michigan, aircraft safely arrive and depart over the 
water rather than the City itself, with the noise footprint over the 
lake rather than over inhabited areas.
    In 1994, however, Mayor Daley announced that Meigs would be closed 
and the grounds turned into a park. This prompted an outpouring of 
support for the airport by the aviation community as well as a lawsuit 
by the State of Illinois against the City. The airport actually closed 
for a brief period of time but with the settlement of the suit, the 
City agreed to leave it temporarily open until February 2002. It is 
only with the codification the agreement between Mayor Daley and 
Governor Ryan that this airport will remain open.
    AOPA has waged a 6-year battle to save Meigs Field. The association 
has participated in lawsuits, lobbied the Illinois legislature and the 
United States Congress, produced television commercials and newspaper 
ads to gain legislative and public support, and worked with Chicago 
area citizens on an extensive local effort to preserve the historic 
airport. Wherever I go, the status of Meigs is one of the first 
questions I always get. This little airport is important to the Nation 
and important to the general aviation community.
    Thanks to support from the aviation community and the leadership of 
Mayor Daley and Governor Ryan, Meigs Field will remain open for at 
least another 25 years if the Governor and Mayor's agreement on Chicago 
airports is signed into Federal law.
    Mr. Chairman, thank you again for the opportunity to present our 
views.

                               __________
            Prepared Statement of Jack Saporito, President, 
                 US-Citizens Aviation Watch Association

    Locally, the Alliance of Residents Concerning O'Hare (AReCO) 
represents members in 41 communities, including Chicago, that are 
affected by O'Hare Airport operations.
    Nationally, US-Citizens Aviation Watch Association is the leading 
public-advocacy group focusing on aviation issues, representing various 
municipalities and organizations; it speaks for about 1.5 million 
individuals in the United States. Internationally, the Association is 
also a nongovernmental organization, representing member and associate 
organizations in 27 countries. Its mission is ``Protecting the public's 
health, environment, and property; promoting safety; and advocating a 
sustainable, equitable and accountable aviation industry.''
    Among others, our membership includes physicians and individuals 
who are employed in the aviation and aerospace industries: pilots, air-
traffic controllers, employees of NASA and Boeing, Williams Aviation 
Consultants, and Baylor University's School of Aviation and Air 
Sciences, as well as cities, citizens and civic groups. As a result, we 
have in-depth knowledge of the issues, bringing strong factual evidence 
to the table.
    First, one must ask the question, ``How could putting in more 
runways and hundreds of thousands of more flights into O'Hare relieve 
congestion?''
    According to the Government Accounting Office,\1\ building more 
runways is not the answer to O'Hare congestion. Among other problems 
stated in the report, they would be overcrowded before they were 
finished, and there are. questions as to whether the mandated runway 
design would cause more weather delays, as the airport is situated in 
the northern climate zone.
---------------------------------------------------------------------------
    \1\ GAO. National Airspace System: Long-Term Capacity Planning 
Needed Despite Recent Reduction in Flight Delays. GAO-02-185. Dec. 
2001.
---------------------------------------------------------------------------
    We oppose the expansion of Chicago's O'Hare Airport for. the many 
reasons. For one, setting this airport expansion into Federal law sets 
a horrible precedent for all States, airports and communities in our 
Nation. According to the Government Accounting Office, over 2,000 
airports in the United States are either planning or already expanding 
\2\ to handle the predicted massive increase in flights. You cannot 
just steamroll the rights of the American people!
---------------------------------------------------------------------------
    \2\ GAO. General Aviation Airports: Unauthorized Land Use Need 
Highlights Need for Improved Oversight and Enforcement. GAO/RCED-99-
109, May 1999.
---------------------------------------------------------------------------
    Airports rank among the top ten industrial emission sources, and 
yet they are virtually unregulated. We are extremely concerned about 
serious public health, environment, noise, and other quality of life 
problems that are related to air transport operations and the limited 
protections for them that the O'Hare expansion bills will strip away.
    Our organizations have a vital interest in assuring that any 
modifications of the airport comply with all existing laws and 
regulations. We oppose this bill and any attempt to force any more 
flights, in addition to the almost one million flights a year that 
Chicago O'Hare International Airport now has, especially since there 
are better options for the communities and air travelers.
    Along with noise, airport and aircraft operations produce. massive 
and unusual types of air, water, and ground pollution . . . all of 
which are serious and deadly. As a result, we already have a 
significant public health problem that is, epidemic in nature, 
affecting a large percentage of the population that lives even many 
miles away from the airport. This includes those living in the flight 
tracks of this mega-airport that has already about three times the 
number of flights than most other major airports.
    According to O'Hare's own data,\3\ it already produces more than 18 
percent of known carcinogens \4\ in Cook County (pop. 5.4 million); 
Cook is the second largest producer in the Nation. That is enormous! It 
should come as no surprise; we already suffer from some of the highest 
cancer and respiratory rates in the Nation. Adding more flights is 
inhumane.
---------------------------------------------------------------------------
    \3\ See attachment #1.
    \4\ Industrial carcinogens
---------------------------------------------------------------------------
    As evidence that aircraft emissions are the culprit and not other 
sources, we and introducing to the Senate select pages from an U.S.-
Environmental Protection Agency 10-mile vicinity cancer study of 
Chicago's Midway Airport, showing that it is the aircraft engines and 
not the cars and trucks that are problematic to public health: 
``Overall, emissions from aircraft operated at Midway in 1990 
contribute up to 99 percent of the total cancer cases. This was 
expected since the vehicular emissions estimated at Midway are 
insignificant compared to the aircraft emissions at Midway.'' (see: 
attachment #2)
    Also, as evidence that flight. operations at O'Hare Airport must be 
reduced, not increased as has been proposed, we are introducing a new 
study of O'Hare Airport cancer epidemic problems: INVESTIGATION OF THE 
CANCER INCIDENCE RATES IN THE VICINITY OF O'HARE AIRPORT. 3/19/02. 
(see: attachment #3)
    While the Midway Airport study predicted the rates of cancers, the 
following O'Hare Airport cancer incident study shows the high numbers 
of actual cancers and concludes that it is O'Hare Airport-aircraft 
operations that are a major cause of the cancer epidemic.
    The conclusions of the O'Hare Airport cancer study are as follows:
    ``Mapping of the cancer incidence data for the 5-year period of 
1994-1998 appears to show a clear tendency for the incidence rates to 
be significantly higher in and correlated to the O'Hare airport 
``downwind'' areas to the northeast. Those living in the northeast 
areas are experiencing between 50-100 percent greater cancer incidence 
rates than the State average and 33-50 percent greater than the local 
area median.
    There seems on the surface to be no other logical reason for this 
incidence concentration; automobile traffic distributions are fairly 
even throughout the general area and the ``hotspot'' areas are 
relatively dispersed such as to mitigate any extreme local conditions 
e.g. a nearby manufacturing facility. Though not studied, age and life 
style distributions would seem to be fairly uniform throughout these 
similar neighborhoods.
    The cancer incidence rates studied here are reported from the 1994-
1998 period, which is about 6 years ago already. Cancer due to 
pollution exposure is generally not an instantaneous function. That is, 
there is some latency exposure period, with the time frame generally 
measured in years and latency an inverse function of the pollution 
concentration. Thus, the cancer incidences of 1994-1998 were a result 
of pollution exposure years or even decades prior to that time. It can 
be safely stated that the levels of airport pollution are much higher 
today than decades ago and if airport traffic continues to expand, will 
be substantially higher in the future.
    Thus, the high cancer (hotspot) incidence rates summarized here are 
probably precursors of much worse times to come, if nothing changes, 
since children and the middle-aged are already exposed to increasingly 
higher pollution levels than years/decades ago (the elderly's fate is 
pretty much already determined).
    The odds are not good, remembering that the incidence rates here 
are not cumulative i.e.--they are for one 5-year ``window''. Thus if 
the High rate is nominally 3.5 percent per 5 years, today's 5 year-old-
child can look forward to a cancer probability of 14 percent at age 25, 
28 percent by age 45 and 42 percent upon retirement at age 65! But the 
situation is actually worse, because the pollution levels are already 
much higher than during the exposure period related to the 3.5 percent 
rate.
    It seems clear that O'Hare airport pollution generation must be 
substantially reduced (50:1?) in the near future in order to avoid 
future medical crises.''
    O'Hare is located in an area of dense development. At least several 
hundreds of thousands of Chicago-area residents oppose O'Hare 
expansion. Many others, including policy makers, are being fooled by 
the heavy lobbying and marketing of this ill-conceived scheme.
    Letters from and newspaper articles about Craig Burzych, President 
of National Air Traffic Controllers Association at O'Hare, state the 
expansion plan is unsafe. Obviously, as a professional, he is 
profoundly aware of the imposition on flight safety by the proposed 
doubling of aircraft operations and the resulting communication 
congestion in both the approach to the O'Hare airspace and approach and 
landings at the airport. The plan is unsafe in an already congested 
airspace around O'Hare and would add to the fear of the controllers of 
impending disaster. Other experts too, have voiced their concern.
    The O'Hare expansion plan places reported backroom deals above our 
health and that of our children's health and future. The politically 
connected, pushing O'Hare expansion, are acutely aware of the damage it 
does and that is why they have introduced the Ryan-Daley deal and the 
language with associated case law that will take away the meager 
protections that do exist. We understand at this late date (March 19, 
2002) that Senator Durbin has introduced revised legislation that is 
attempting to pacify the significant environmental concerns; however, 
that cannot be done.
    Constructing new runways or reconfiguring the existing O'Hare 
(basically building a new airport) will significantly harm communities, 
including neighborhoods, schools, businesses and homes, because of the 
airport and aircraft's extraordinary amounts and types of noise, water, 
ground and toxic air pollution, property takings, tax base losses and 
other. quality of life issues. These problems should be reduced or 
eliminated, not unacceptably increased, as this O'Hare expansion does, 
especially since there are better alternatives.
    AReCO and US-CAWA believe that exposing babies and young children 
to excessive noise and toxic air pollution and the other significant 
health and quality of life problems that O'Hare Airport and its 
aircraft already causes is a form of child abuse. Adding to that is 
despicable.
    The bills and/or the ``Daley-Ryan'' plan that have been introduced 
would set O'Hare expansion into Federal law would take away the right 
of the people to self govern, pulling away local, controls. They 
undermine the state-federal balance of power regarding airports and 
other land-use and environmental issues.
    Again the Daley-Ryan deal and the Durbin bill would/could take away 
the only two real public health and environmental protections that 
would apply to the planned O'Hare expansion project--the Clean Air Act 
conformity requirements and the National Environmental Policy Act's 
environmental impact evaluation and mitigation process. These bills and 
the deal would also drastically limit the people's right to bring suit 
against this misguided expansion, by removing all causes of action, 
except for the Federal Aviation Administration's narrow, limited 
administrative process.\5\
---------------------------------------------------------------------------
    \5\ Prior to Senator Durbin's bill revision but as written in the 
House companion bill introduced by Congressman Lipinski.
---------------------------------------------------------------------------
    Further, this deal would give the Federal Aviation Administration 
almost total control over the environmental protection process, forcing 
the Army Corp of Engineers to shortcut its wetland permitting process. 
It prohibits the Environmental Protection Agency from determining and 
publishing findings as to whether expanding O'Hare would be 
unsatisfactory from the standpoint of public health, welfare or 
environmental quality.
    Even the jobs that back roomers are using to try to bribe the 
public are little more than hot air. The questionable Booze-Allen 
report that the Chicago Chamber of Commerce promotes, paid for by 
United Airlines and other expansionists, shows a couple of hundred 
thousands jobs that would be created, about the same that the State of 
Illinois projects for a new south suburban airport; yet, even if 
correct, they do not say that they would be mainly temporary jobs. Any 
reasonable person understands that we already have a mega-airport; how 
many more jobs could be added by just one more runway, versus building 
another brand new airport? No matter what lip service this bill pays to 
building a reliever airport for O'Hare, an airport that will provide 
more capacity than O'Hare, the proposed mammoth O'Hare expansion would 
eliminate the need for the reliever.
    Oppose O'Hare expansion! Instead, support the reasonable 
alternatives that the O'Hare expansion bill(s) would take away. These 
include operational and management controls; as well as, sending 
unnecessary flights to other airports such as Wayports, ``Highways in 
the Skies''. That would make room for the desired, new international 
flights that will result from the economic globalization treaties, 
which will create meaningful jobs. And for the long-term, provide that 
our country and our region build a world-class high-speed rail system 
that will complement commercial air transport to achieve a balanced and 
sustainable intermodal transportation system that will benefit all of 
us.
    Protect our children from airport child abuse, protect our 
communities, safeguard our lives and future--defeat the O'Hare 
expansion plan and support better alternatives.
    Thank you.
  

                                  <all>

</pre></body></html>
